<html>
<title> - ANTI-SEMITISM IN EUROPE</title>
<body><pre>[Senate Hearing 108-586]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-586

                        ANTI-SEMITISM IN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
95-528                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                    GEORGE ALLEN, Virginia, Chairman

GEORGE V. VOINOVICH, Ohio            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
JOHN E. SUNUNU, New Hampshire        CHRISTOPHER J. DODD, Connecticut
LINCOLN CHAFEE, Rhode Island         JOHN F. KERRY, Massachusetts

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia, opening statement     1

Baker, Rabbi Andrew, Director of International Jewish Affairs, 
  American Jewish Committee......................................    32
    Prepared statement...........................................    37

Jones, Hon. A. Elizabeth, Assistant Secretary of State, Bureau of 
  European and Eurasian Affairs, Department of State.............     5
    Prepared statement...........................................     8

Levin, Mark, Executive Director, National Conference on Soviet 
  Jewry..........................................................    15
    Prepared statement...........................................    19

Mariaschin, Dan, Executive Vice President, B'nai B'rith 
  International..................................................    41
    Prepared statement...........................................    45

Stern, Ms. Caryl M., Chief Operating Officer, Anti-Defamation 
  League.........................................................    23
    Prepared statement...........................................    27

Voinovich, Hon. George V., U.S. Senator from Ohio, opening 
  statement......................................................     3

                                Appendix

Additional Material Submitted by Ms. Caryl M. Stern, Chief 
  Operating Officer, Anti-Defamation League

    Global Anti-Semitism: Selected Incidents Around the World in 
      2004.......................................................    55

    Anti-Defamation League ``A World of Difference'' 
      International Programs.....................................    56

    Anti-Semitism in the Egyptian Media..........................    58


Prepared Statement and Additional Material Submitted by Michael 
  H. Posner, Executive Director, Human Rights First

    Prepared statement...........................................    72

    Fire and Broken Glass: The Rise of Anti-Semitism in Europe...    75


Material Submitted by the National Conference on Soviet Jewry 
  (NCSJ)

    Proceeding of NCSJ Side Event: Post-Soviet States Respond to 
      Anti-Semitism, October 14, 2003............................    89

                                 (iii)

  

 
                        ANTI-SEMITISM IN EUROPE

                              ----------                              


                        Thursday, April 8, 2004

                               U.S. Senate,
                    Committee on Foreign Relations,
                          Subcommittee on European Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
Room SD-419, Dirksen Senate Office Building, the Hon. George 
Allen, chairman of the subcommittee, presiding.
    Present: Senators Allen, Voinovich and Sarbanes.

            OPENING STATEMENT OF HON. GEORGE ALLEN,
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen.  Good afternoon to everyone. I call this 
hearing of the European Affairs Subcommittee to order. Today we 
are holding a follow-up hearing on the subject of anti-Semitism 
in Europe. In October of last year, this subcommittee examined 
an issue of great interest and looked at it in great detail and 
pledged to revisit the issue to see what progress has been made 
and what steps have been taken. We are going to follow this 
year after year to see what progress has been made both within 
the European Union as a whole and also the individual states of 
Europe.
    This is an opportune time to discuss the goals for the 
upcoming Organization for Security and Cooperation in Europe 
(OSCE) Conference. They are having a conference in Berlin on 
the role of government in combating anti-Semitism and will 
follow that with a Paris meeting on the use of the Internet to 
propagate anti-Semitic actions and beliefs.
    As was discussed during our hearing last year, in recent 
years there has been documented, clear increases in anti-
Semitic incidents throughout Europe. With attacks taking place 
with greater frequency in Great Britain, France, Belgium, and 
Germany, and other countries, it is clear that anti-Semitism is 
on the rise over the last few years. And it is more than just 
an aberration. The rise in anti-Jewish activity seems to be 
representing a trend that must be acknowledged and therefore 
have constructive steps taken to prevent future attacks, as 
well as prosecute the perpetrators of such criminal acts.
    Whether the motivation of anti-Semitic incidents are events 
in the Middle East or deep-seeded dislike of Jewish people, as 
I stated in the previous hearing, it is the foremost 
responsibility of leaders and elected officials to immediately 
publicly condemn such hate crimes. We are fortunate to have 
with us many outstanding witnesses today who will help us 
analyze this situation and how it can be improved.
    I think it is essential that the people of our states and 
our countries understand that such actions of intolerance, 
because of one's ethnicity or religious beliefs or, for that 
matter, race will not be tolerated. And conversely, we cannot 
have the people of our states somehow believe that inaction is 
appropriate, because that could be construed as condoning such 
behavior and may lead to further violent activities.
    I am pleased that there has been some acknowledgment of the 
anti-Semitism problem by the European Union and a number of its 
member countries. The Embassy of France has continued to keep 
me informed on its government's efforts to combat anti-Semitism 
in France. I understand France has developed a comprehensive 
plan for combating anti-Semitism and preventing incidents in 
the future. I have been informed that the French Government has 
made a number of judicial changes to punish those convicted of 
anti-Semitic attacks more severely.
    Additionally, new authority has been given to prosecutors 
to fully prosecute acts of anti-Semitism. France is also in the 
process of instituting educational and media initiatives to 
sensitize its citizens on the issue of anti-Semitism and to 
promote tolerance among its younger generation.
    The United Kingdom, Sweden, and Greece are enhancing their 
responses to the problem in a number of ways. Some are seeking 
to implement new programs to provide greater flexibility in 
prosecuting racially or ethnically motivated crimes, while 
others are attempting to use education and the establishment of 
holidays to teach the history of the Holocaust, which is also 
an important aspect of education.
    After sending conflicting signals, the European Union 
appears to be taking some steps to acknowledge the rise of 
anti-Semitism in its member states. I, like many, viewed the 
decision not to release a 2002 study on anti-Semitism as 
counterproductive and symbolic of the reticence to acknowledge 
the scope of the problem. I am pleased that the European Union 
met its commitment to release the report this year and provide 
an institutional account of the prevalence of anti-Semitism in 
the 15 and soon to be 25 member countries.
    I understand that earlier this year the European Commission 
conveyed a high-level meeting on anti-Semitism in Europe that 
included global leaders on the issue. I further understand that 
during this conference the president of the commission called 
for the formulation of plans to combat an anti-Semitism 
collectively between the commission and their individual 
nations.
    These are positive statements of purpose and are positive 
signs that our friends in Europe are ready to take substantive 
action against anti-Semitic violence. However, it is important 
that these declarations are followed by concrete actions that 
actually result in policies and practices that ensure the 
prosecution of perpetrators and, more importantly, prevent 
future acts of anti-Semitism.
    I am hopeful that the OSCE conference in Berlin will 
provide a forum for the development of specific plans to stem 
the increased incidents of anti-Semitism in Europe. In 
reviewing the agenda for these April meetings, it appears the 
overriding theme will be implementing best practices in the 
areas most important to combating anti-Semitism.
    By focusing on government, law enforcement, education, and 
the media, the United States and Europe have a unique 
opportunity to further develop a comprehensive strategy for 
fighting the problem and promoting religious tolerance. I am 
interested to learn what goals and expectations our Government 
officials have for these upcoming meetings, as well as those of 
our European friends. I believe that these conferences are the 
best forum for highlighting the problems of anti-Semitism and, 
most important, developing solutions. And I am hopeful that the 
shared expectations that we have will yield a constructive 
blueprint for eliminating, or at least reducing, anti-Semitism 
in the future.
    I really do believe, in closing, before we hear from our 
witnesses and other Senators, that our European allies should, 
and I do believe that they do, share our commitment to freedom 
and basic human rights. And I believe that working together 
with our friends to find and, most importantly, to implement 
the most effective ways to combat anti-Semitism, if we do that, 
will further our shared goals of tolerance and strengthen our 
shared goal of protecting the rights of individuals, 
particularly their religious freedoms.
    And I want to thank again our witnesses for being here with 
us today. We are going to have a vote. I will tell my 
colleague, around 2:45. If there is a way that we can keep the 
hearing going with us passing the gavel of leadership, we will 
do it. If not, we may have to recess for a moment while I go 
and vote.
    We do have with us the Senator from Ohio, Senator 
Voinovich, who was at the hearing last year and is one who is a 
strong advocate of individual rights and certainly who abhors 
religious intolerance and anti-Semitism. And before we hear 
from our first witness, who I will introduce, I turn it over to 
Senator Voinovich for any opening remarks he wishes to make.
    Senator Voinovich.

             STATEMENT OF HON. GEORGE V. VOINOVICH,
                     U.S. SENATOR FROM OHIO

    Senator Voinovich.  Thank you, Senator Allen. I appreciate 
your convening this hearing today and continuing an examination 
of the rise of anti-Semitism in Europe, which this subcommittee 
began last October. I believe it is important that we continue 
to highlight this alarming trend and that we move forward with 
discussion on ways that together we can act to combat this 
serious problem.
    I would like to join in welcoming Assistant Secretary of 
State Beth Jones--Beth, it is nice to see you again--who has 
agreed to testify today. And I would also like to welcome Caryl 
Stern from the Anti-Defamation League; Rabbi Andrew Baker of 
the American Jewish Committee; Mark Levin of the National 
Conference on Soviet Jewry; and Dan Mariaschin of the B'nai 
B'rith. Your organizations have been on the front lines in the 
fight against anti-Semitism, and I am glad you are able to be 
with us this afternoon.
    Now this is a timely and prudent discussion, as the United 
States and members of the international community prepare to 
gather in Berlin on April 28 and 29 for a conference on anti-
Semitism hosting by the Organization for Security and 
Cooperation in Europe. I am pleased to have an opportunity to 
represent the United States as a member of the U.S. delegation 
to this meeting at the invitation of Secretary Powell.
    It is my hope that recommendations made today will assist 
us as we look to institutionalize the fight against anti-
Semitism in the OSCE and we begin to put in place an action 
plan to formalize a process to identify, monitor, and measure 
efforts to combat anti-Semitism at each of the 55 OSCE 
countries.
    As our witnesses will testify here today, it is an 
unfortunate reality that anti-Semitism continues in countries 
around the world. In May 2002, following a disturbing number of 
anti-Semitic incidents in Europe, I joined with members of the 
Helsinki Commission in a hearing to examine the rise of anti-
Semitic violence in Europe. I was shocked at the reports that I 
heard.
    And now, nearly two years later, the news is not much 
better. The first three months of 2004 have seen numerous acts 
of anti-Semitism abroad. For example, in Toulon, France, on 
March 23, a Jewish synagogue and community center were set on 
fire. In St. Petersburg, Russia, on February 15, vandals 
desecrated approximately 50 gravestones in a Jewish cemetery, 
painting them with swastikas and anti-Semitic graffiti. And it 
goes on and on.
    It is important to note, unfortunately, that we are not 
exempt here in the United States, and that is something that we 
should all be very concerned about.
    As a member of the Senate, I am committed to doing all I 
can to move toward the goal of zero tolerance for anti-Semitism 
in the world today, working with my colleagues in the House and 
Senate, the State Department, and organizations such as those 
represented this afternoon. While this hearing is a step in the 
right direction, I believe we can and should do more.
    Mr. Chairman, yesterday I introduced legislation, Senate 
bill 2292, calling attention the growing problem of anti-
Semitism abroad. And the bill, which we call the Global anti-
Semitism Review Act of 2004, urges the United States to 
continue to strongly support efforts to highlight anti-Semitism 
through bilateral relationships and interaction with the 
international organizations, such as the OSCE.
    We were able to get some words in the foreign operations 
appropriation and also the State Department authorization bill. 
Then, of course, those did not go anywhere. So we finally got 
it in the omnibus appropriating bill. But one of the things, 
Ms. Jones, that I am concerned about is the language that we 
finally ended up with; I do not think it really got the job 
done. I would like the State Department to look at this 
language that we have put together.
    First of all, the bill would require a report to include a 
description of physical violence against or harassment of 
Jewish people or community institutions, such as schools, 
synagogues, or cemeteries, that occur in the country. So 
measure that.
    Second, report on the response of the government of that 
country to such attacks; third, report on actions by the 
government of that country to enact and enforce laws relating 
to the protection of the right to religious freedom with 
respect to Jewish people; and last, the efforts by that 
government to promote anti-bias and tolerance education.
    It is the last point that I think is important. If we are 
truly to be successful, it is imperative that we work to 
promote tolerance and bring about a change in the hearts and 
minds of those responsible for acts of anti-Semitism and other 
hate crimes.
    Mr. Chairman, I really appreciate your calling this hearing 
today. And I look forward to the testimony of the witnesses.
    Senator Allen.  I want to commend you for your bill. 
Consider me a sponsor of that measure. This subcommittee is 
focused on Europe; that is why our focus is on European affairs 
insofar as anti-Semitism. But we know anti-Semitism is not 
unique to Europe. We have anti-Semitism in this country that 
needs to be deplored and condemned and actions taken, as well 
as every continent of the world. So thank you for your 
leadership on this matter.
    What I would like to do, if we could, is if we could switch 
off back and forth so we keep our witnesses on time. A vote has 
started. I would like to, before we break for that, at least 
hear from Secretary Jones. And if you and I could work this 
out, we can keep the hearing and our second panel relatively on 
time with the way that the Senate operates.
    So let me first introduce our first panel, a panel of one. 
Secretary Elizabeth Jones, was sworn in as Assistant Secretary 
for European and Eurasian Affairs in May of 2001. She joined 
the Foreign Service back in 1970 as an elementary school child. 
Her overseas assignments have been concentrated in the Middle 
East, Germany, and South Asia. In Washington, she served as the 
Lebanon Desk Officer, Deputy Director for Lebanon, Jordan, 
Syria, and Iraq, and Principal Deputy Assistant Secretary in 
the Near East Bureau. She also served as Executive Assistant to 
Secretary Warren Christopher and directed the Office of the 
Caspian Basin Energy Diplomacy.
    We would like to hear from you, Secretary Jones, and your 
insight into this matter.

 STATEMENT OF HON. A. ELIZABETH JONES, ASSISTANT SECRETARY OF 
 STATE, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF 
                             STATE

    Ms. Jones.  Thank you very much, Mr. Chairman. I really 
appreciate your inviting me to appear before you today. I also 
very much appreciate your leadership on this issue, and yours, 
Senator Voinovich. We are very grateful for that. It helps us a 
lot in pursuing this issue, which is a very important one for 
the United States.
    We pursue the work on anti-Semitism using a three-track 
approach. We work with and through the OSCE, as you have 
already mentioned. We use the Holocaust Task Force. And we 
spend a tremendous amount of time with our embassies, our 
ambassadors, to monitor the situations and the countries to 
which they are accredited, to speak out about this issue as 
quickly as possible and whenever necessary, wherever necessary.
    In the OSCE, of course the first conference on anti-
Semitism was hosted by the Austrians in Vienna just a year ago, 
in June 2003. At the OSCE Ministerial Council meeting in 
Maastricht in December, we played a very big role in assuring 
that the next conference was to take place. And we are very 
grateful to the German Government for offering to host the 
conference that will take place at the end of April in Berlin.
    Secretary Powell hopes to attend that conference, schedule 
permitting. He looks forward to that very much to discuss this 
issue and to go there as a signal of the strong importance, the 
great importance, he attaches to pursuing anti-Semitism around 
the world, including in Europe and Eurasia.
    The French Government has offered to host a meeting in June 
on racism, xenophobia, and anti-Semitism propaganda on the 
Internet, another very important issue for all of us. And the 
Belgium Government will host a conference in September on 
racism, xenophobia, and discrimination, also a very important 
conference and very important that the Government of Belgium 
has offered to host it.
    The Task Force for Holocaust Education, Remembrance and 
Research is a task force that has grown considerably in the few 
years that it has been in existence. It now is a 16-member 
group. There are other countries that have asked to join the 
group and that are working on joining that group. Its focus is 
on education and the Holocaust, an area that we certainly think 
is terribly important. Mr. Chairman, you have mentioned it, and 
Senator Voinovich has as well, as one of the key areas that all 
of us use to pursue the anti-Semitism work that we do.
    The task force is particularly focused on teacher training, 
on documentary films, on essay contests for high school 
students, and really working toward helping to train teachers 
how to discuss this issue in multiethnic settings, as well, 
something that is increasingly important in many places in 
Europe.
    The third track is the bilateral track. My colleague, 
Ambassador Ed O'Donnell, reported to you, Mr. Chairman, in 
January on the tasking to develop information about Holocaust 
education programs in each country. Our embassies, our 
ambassadors, are engaged in a dialogue with senior officials in 
the countries to which they are accredited, especially those 
that are experiencing the rise in anti-Semitism that has all of 
us concerned.
    We have also provided the NGOs a further update on the work 
that our embassies have undertaken in the various countries. 
And once the information is complete, we will share all of the 
more updated information with the committee as well.
    In more specific terms, we are very engaged in preparations 
for the Berlin conference. It is a very important conference 
for us. It is a huge conference this year compared to last 
year. We are very pleased that former Mayor Koch has agreed to 
lead the delegation. We are very grateful that Senator 
Voinovich will participate, as a member of the official 
delegation, as well the chair of the Helsinki Commission, 
Representative Chris Smith, and the ranking minority member on 
the commission, Representative Ben Cardin.
    There are five distinguished members of the Jewish 
community who will participate as part of the official 
delegation as well: Betty Ehrenberg, Steve Hoffman, Jay 
Lefkowitz, Jack Rosen, and Fred Zeidman. And we are, in 
addition, very pleased that the public advisors will 
participate as well. Some of them are sitting right behind me 
today and will participate in this hearing later. It should be 
an excellent delegation. We look forward to a tremendous amount 
of very good work coming out of it.
    The goals that we have coming out of the conference, the 
priorities that we are focused on, are the roles of states and 
OSCE institutions in fighting anti-Semitism. The OSCE-
participating states, we believe, need to commit themselves to 
collect and share data on hate crimes and to take measures, 
including in the areas of education and law enforcement, to 
fight anti-Semitism. We are looking for action-oriented ideas 
to implement that kind of thing.
    We also would like the OSCE to task its Office for 
Democratic Institutions and Human Rights, ODIHR, to collect and 
publicly report statistics on hate crimes, to monitor incidents 
of anti-Semitism, to assist states with hate crime legislation, 
and to facilitate sharing of best practices to promote 
tolerance, particularly in law enforcement and education.
    You mentioned the European Union reports. The EU Monitoring 
Center Report on Manifestations of Anti-Semitism in the 
European Union certainly illustrates the need for improvement 
and monitoring and data collection. That report, this year's 
report, is just out.
    The other areas in which we think that--in which we think 
improvements are needed and areas in which we are working is 
that we think it is appropriate to push for faster reactions 
from European governments and political leaders to respond to 
anti-Semitic incidents. It works well in some places, not as 
well as we would like in other places.
    France and Italy have created ministerial committees to 
combat racism, anti-Semitism. And as you mentioned, Mr. 
Chairman, France has heightened security for Jewish properties. 
It is undertaking better training for judges who try hate crime 
cases. And there are stiffer penalties for perpetrators of hate 
crimes. And we look forward to that kind of thing being done in 
more countries in Europe.
    Tolerance education is becoming the norm. It is becoming 
more the norm in countries in Europe. And we would like to keep 
working on that. Education is clearly a very important aspect 
of the work that we do.
    As I mentioned earlier, work on education on the Holocaust 
in multi-cultural settings is particularly important. This is 
the case in countries in which there are many, many--in which 
there is a large Muslim minority. We already know that in 
France there are some Muslim students who have walked out of 
classes devoted to studying the Holocaust or refuse to take the 
class. And we need to overcome that kind of resistance to the 
education that is so necessary to fight anti-Semitism.
    We plan to continue to work multilaterally and bilaterally, 
multilaterally with the OSCE, bilaterally with each of these 
countries, and with education ministries, with NGOs in these 
countries, as well as the Congress, to deal as effectively as 
we can in combating anti-Semitism.
    Thank you very much, Mr. Chairman.
    Senator Allen.  Thank you, Secretary Jones. And your full 
statement will be put into the record here.
    Ms. Jones.  Yes, thank you.

    [The prepared statement of Ms. Jones follows:]

             Prepared Statement of Hon. A. Elizabeth Jones

    Mr. Chairman, Members of the Committee, thank you for the 
invitation to appear before you today. I would like to take this 
opportunity if I may, Mr. Chairman, to compliment you on your personal 
commitment and the leadership you have shown in combating all forms of 
racism and intolerance, and in particular the scourge of anti-Semitism. 
Anti-Semitism again has emerged as a serious problem in Europe and 
elsewhere in the world, including here in the United States. I would 
also like to underscore our continued commitment to work closely with 
the Congress to do everything we can to deal effectively with the new 
threat of anti-Semitism, and to ensure that all citizens in Europe and 
elsewhere can live their lives in safety and dignity whatever their 
race, ethnicity or religious beliefs.
    Since last October when the Special Envoy for Holocaust Issues 
Ambassador Edward O'Donnell appeared before you, the Administration and 
Department of State have continued to make the fight against anti-
Semitism one of our highest priorities. Our work runs on three tracks: 
first, to work closely with our European allies, and in particular 
within the context of the Organization for Security and Cooperation in 
Europe (OSCE), to develop concrete, effective ways to address the 
problem of anti-Semitism; second, to work through the Task Force for 
International Cooperation on Holocaust Education, Remembrance and 
Research to educate the current and future generations about the 
lessons of the Holocaust; and third, bilateral action led by 
Ambassadors and Embassy staffs to work with host governments against 
anti-Semitism and hate crimes.

                                  OSCE

    Last June in Vienna, the OSCE held a conference devoted exclusively 
to the problem of anti-Semitism. The United States was instrumental in 
developing a consensus within the OSCE for this meeting. The conference 
was highly successful: for the first time anti-Semitism was identified 
as a specific human rights issue, distinct from religious 
discrimination or ethnic and racial prejudice. While the conference 
took no formal decisions, the participants recognized the need to track 
anti-Semitic incidents in order to build a better understanding of the 
breadth and depth of the issue.
    Six months later at Maastricht, the OSCE Ministerial Council 
addressed a number of forms of racism, xenophobia and discrimination, 
including anti-Semitism that special OSCE conferences had addressed 
during the year. During this meeting, which I attended with Secretary 
Powell, the Council took a formal decision to follow-up on the Vienna 
Conference and welcomed the offer of the Federal Republic of Germany to 
host a second conference on anti-Semitism, on April 28-29, 2004. In 
addition, the Council approved a meeting on combating hate crimes 
fueled by racist, xenophobic and anti-Semitic propaganda on the 
Internet to be held in June in Paris and a conference on racism, 
xenophobia and discrimination in September in Brussels.
    At Maastricht, the Ministers also encouraged participating states 
to collect information on hate crimes and assigned the task of serving 
as a collection point for this information to the OSCE's Office of 
Democratic Institutions and Human Rights (ODIHR). OSCE members also 
agreed to inform ODIHR about existing legislation on hate crimes and, 
where appropriate, to seek ODIHR's assistance in the drafting and 
review of such legislation.
    We are now deeply engaged in preparations for this important, even 
historic conference in Berlin. The President has named a number of 
leading individuals from the Congress, as well as outstanding NGO 
members and private citizens active in the fight against anti-Semitism, 
to represent the United States: former Mayor Edward Koch, a strong and 
experienced leader for many years in the fight for tolerance and racial 
justice, will head the U.S. Delegation. Stephan M. Minikes, our 
Ambassador to the OSCE in Vienna, and Special Envoy for Holocaust 
Issues Edward O'Donnell will join him. We are pleased that Senator 
Voinovich, a distinguished member of this committee and internationally 
recognized as a leader in the fight against anti-Semitism and other 
forms of intolerance, will also be a member of the United States 
Delegation. We are honored by Senator Voinovich's participation and 
appreciate the strong leadership and wise counsel he will provide. Two 
distinguished members of the House of Representatives will be on the 
U.S. delegation and play a strong role for the United States in Berlin: 
Congressman Christopher Smith of New Jersey, Chairman of the Commission 
on Security and Cooperation in Europe, and Congressman Benjamin Cardin 
of Maryland, a leading member of the United States Helsinki Commission. 
Several prominent NGO leaders and private citizens concerned about 
intolerance and anti-Semitism in the United States and overseas will 
complete the U.S. team.

                            GOALS FOR BERLIN

    What are our goals for Berlin?
    Mr. Chairman, building on the work of the anti-Semitism meeting in 
Vienna last June and of that of the Maastricht OSCE Ministerial 
Council, the United States believes that the objectives of the meeting 
in Berlin are to condemn all forms of anti-Semitism, and for the 55 
member states of the OSCE to reach agreement on a number of specific 
steps to combat anti-Semitism within the OSCE region. Specifically, we 
are working intensively to ensure that Berlin will recommend to the 
OSCE Ministerial Council that member states commit to:

  <bullet> Ensure that their legal systems foster a safe environment, 
        free from anti-Semitic harassment, violence and discrimination;

  <bullet> Promote educational programs for combating anti-Semitism;

  <bullet> Support remembrance of and education about the Holocaust and 
        the importance of respect for all ethnic and religious groups;

  <bullet> Combat hate crimes, which can be fueled by racist, 
        xenophobic and anti-Semitic propaganda in the media and 
        elsewhere;

  <bullet> Collect and maintain reliable information and statistics 
        about anti-Semitic incidents and other hate crimes, and 
        periodically report this information to the OSCE/ODIHR in 
        Warsaw;

  <bullet> Work with the OSCE Parliamentary Assembly to determine 
        appropriate ways to review periodically the problem of anti-
        Semitism; and, lastly,

  <bullet> Encourage future informal exchanges among experts on best 
        practices in law enforcement and education.

    The role of ODIHR, as noted, will be important to our success in 
implementing these concrete measures to fight anti-Semitism within the 
OSCE area. We believe that ODIHR, along with other relevant 
international institutions and NGOs, should closely track anti-Semitic 
incidents making full use of all the information available. ODIHR 
should report its findings to the OSCE Permanent Council and to the 
OSCE's annual Human Dimension Meeting, and make these findings 
available to the public. These reports should then be considered in 
deciding the priorities of the work of the OSCE as a whole.
    We see as an additional task for ODIHR collecting and disseminating 
information throughout the OSCE region on best practices for preventing 
and responding to anti-Semitism. We believe that ODIHR should actively 
engage participating States on their efforts to fight anti-Semitism.
    Mr. Chairman, at a time when Jews are being harassed and physically 
attacked in Europe and in Canada, the United States and elsewhere in 
the world, and when their synagogues, schools and cemeteries are being 
defaced, desecrated and destroyed, it is a matter of urgency that we 
succeed in moving in the directions that I have just outlined to combat 
anti-Semitism.
    We are now seeing anti-Semitism in both its old virulent and in new 
hateful forms. The traditional anti-Semitism of neo-Nazis and other 
far-right hate groups is now part of a broader template. This includes 
anti-Semitism masked as anti-globalism, fanned, for example, by a 
resurgence of the decades old lies of such works as ``The Protocols of 
the Elders of Zion.'' There is also anti-Semitism in the guise of 
criticism of the State of Israel that goes well beyond any legitimate 
criticism of Israel. We must work together to act resolutely to counter 
these lies. The U.S. Government will speak forcefully against hatred 
and the hate crimes they produce at the OSCE Berlin Anti-Semitism 
meeting. We will seek agreement to the proposals I have outlined, and 
we will work to develop with our European allies and NGO partners 
further robust measures to fight anti-Semitism.

                      STRONGER RESPONSE IN EUROPE

    Much remains to be done in Europe to tackle anti-Semitism. This 
includes, as the recent report on ``Manifestations of Anti-Semitism in 
the European Union'' from the European Monitoring Centre on Racism and 
Xenophobia has pointed out, in the field of monitoring and data 
collection on anti-Semitism. But there have been some encouraging signs 
as well. European governments and political leaders now react more 
quickly and forcefully than even a few months ago in response to anti-
Semitic incidents. There is a growing awareness of anti-Semitism in 
Europe and a broader public debate. The Governments of France and Italy 
have created inter-ministerial committees to fight racism and anti-
Semitism. In France there is heightened security to protect Jewish 
properties, and better training for judges who try hate crimes combined 
with new legislation that provides for stiffer penalties. In February, 
the President of the European Commission held a seminar in Brussels on 
anti-Semitism. Overall throughout Europe, tolerance education is 
beginning to become more the norm than the exception.

                          HOLOCAUST EDUCATION

    One of the most important things we can do to defeat anti-Semitism 
is to educate the younger generation in Europe on the lessons of the 
Holocaust. Let me highlight the work of the Task Force for Holocaust 
Education, Remembrance and Research. I know many of you are familiar 
with this organization, initiated by Swedish Prime Minister Persson in 
1998. Since then, the Task Force has grown rapidly from it original 
nucleus of three members to now 16 members and more countries are in 
line to join. The Task Force works on the basis of consensus and 
without a bureaucracy. The modest annual contribution from each country 
of $25,000 has created a fund used to finance projects throughout 
Central Europe and in the Baltic countries related to the Holocaust. 
Teacher-training, sponsoring high school essay contests and producing 
documentary films about the Holocaust are just of few of the types of 
projects the Task Force supports. The Task Force continues to be open 
to new ways of learning about the Holocaust and ideas to ensure that 
its important lessons are not forgotten.
    The United States chaired the Holocaust Task Force this past year 
before turning over the reins in early March to Italy. One important 
new step the U.S. initiated during its Task Force Chair was to 
investigate the question of how best to teach the lessons of the 
Holocaust in multicultural settings. In France, for example, some 
Muslim students have refused to participate in classes devoted to 
studying the Holocaust and even have walked out. There are no easy 
answers to this predicament, but leading experts in the Task Force have 
now taken on this difficult question and we anticipate they will make 
progress in the months ahead.
    When Ambassador O'Donnell testified before this committee in 
October, Mr. Chairman, you asked him about Holocaust education efforts 
in various countries in Europe. We tasked our Embassies to develop this 
information and provided it to the Committee in January. Now we have 
also sent the matrix with this information out to a number of NGOs to 
supplement from their own sources what we have learned in order to 
gather as complete a picture as possible. Once we have their responses 
we will share the updated information with the Committee.

                              SPEAKING OUT

    Secretary Powell has made clear that we must do everything we can 
to fight anti-Semitism and other forms of intolerance. I have 
instructed U.S. Ambassadors at our missions throughout Europe and 
Eurasia to be both vigilant and vocal in denouncing anti-Semitism in 
the countries where they serve. In Greece recently, a well-known 
composer used anti-Semitic terms to criticize Israeli policy. While 
acknowledging the composer's right to his political opinions, our 
Ambassador quickly and publicly criticized the composer's anti-Semitic 
terminology. We are similarly vigilant elsewhere in Europe and will 
continue to speak out against anti-Semitism and to work with our 
friends and partners to combat it wherever it appears.
    Mr. Chairman, with that I will conclude my formal remarks. I would 
be pleased to take your questions.
    Thank you.

    Senator Allen.  The record, by the way, will stay open for 
other comments. Senators may not get here, but may want to 
submit questions or comments. And so the record will stay open 
for Senators and others who may want to comment or share some 
insight with us.
    The Department of State is apparently putting considerable 
effort into working with international agencies to recognize 
and combat anti-Semitism. And I do think it is good that you 
point out those countries to the extent we look at best 
practices. Senator Voinovich and I were governors, and we would 
always talk about best practices as to what states in our Union 
would want to do and emulate, or other things that you would 
say, gosh, we never want to do something like that.
    But looking at best practices is beneficial. You mentioned 
France, as I did, improving the prosecution, the education of 
the prosecutors, the judges, as well as the penalties for those 
who are found guilty of such acts. And hopefully other 
countries will emulate that.
    What are our top two goals, for the upcoming OSCE 
conference in Berlin and Madrid? Do you believe that our 
friends in Europe have similar expectations and goals?
    Ms. Jones.  The top two goals I would list as getting the 
OSCE-participating states, the 55 members, to commit themselves 
to collect and share data on hate crimes and to take measures, 
including education and law enforcement, to fight anti-
Semitism, to come down to very practical measures. And there is 
quite a lot of work that has been done. And I have every 
expectation that our OSCE colleagues will certainly agree with 
that.
    The second goal is to task ODIHR, the Office for Democratic 
Institutions and Human Rights, to collect and publicly report 
statistics on hate crimes, to monitor incidents of anti-
Semitism, to assist states with hate crimes legislation, which 
is very important, and to facilitate sharing of best practices 
to promote tolerance, to institutionalize ways of doing each of 
those things.
    Senator Allen.  Thank you. We just got a message. Time is 
up on the vote. What we are going to do, I apologize to our 
witnesses, and I particularly note that one on the second 
panel--did you want to ask Secretary Jones any questions?
    Senator Voinovich.  I sure do.
    Senator Allen.  Secretary Jones, if you--if everyone could 
stand down, we will get back as quickly as possible, 
momentarily recessing.

    [Recess.]

    Senator Voinovich [presiding]. Thank you for your patience. 
The chairman asked me to convene the hearing so we could move 
on with some of the questioning.
    Ambassador Jones, I want to say I appreciate the attention 
the State Department has given to this issue. The support of 
Secretary Powell has been most appreciated. And I would like to 
say Stephan Minikes has really done an outstanding job. I think 
he is probably the best person that we have nominated to the 
OSCE. He really takes the job very seriously. And he is making 
a real difference.
    I am very pleased that Secretary Powell has indicated that 
he is going to be at the Berlin conference. I know I have 
talked to him about it. I really think that his presence there 
sends a very large message that this is a very important 
priority of the United States. I just wonder, has any effort 
been made to kind of line up some of the other folks? Because I 
had a meeting with Prime Minister Rop from Slovenia, and as you 
know, next year Slovenia is taking over the OSCE. And I drew a 
blank stare from him when I asked about this upcoming meeting 
and suggested that, you know, that Dimitrij Rupel, the foreign 
minister, be there.
    Have you made any efforts in that regard to get people 
there?
    Ms. Jones.  We will be making an effort. The Secretary has 
just now, at the end of last week, indicated to Foreign 
Minister Fisher that he would be able to go, would like to go, 
to the conference if he possibly can work in his schedule. We 
are planning along those lines.
    So we will be going out to our various colleagues in the 
OSCE to make sure they know he will be there, as soon as he 
authorizes and says that it is more sure than it is right at 
this moment. But we certainly agree with you that his presence 
will attract the presence of many others, which we think is 
very, very important. And we will be working toward that end.
    Senator Voinovich.  It would be really great if somebody 
could work the phones.
    Ms. Jones.  Absolutely.
    Senator Voinovich.  Okay.
    Ms. Jones.  We will depend on our ambassadors to do that in 
the first instance. And then we can follow up with them long 
distance.
    Senator Voinovich.  I know a little bit about the OSCE from 
my involvement in the OSCE Parliamentary Assembly. And I know 
that ODIHR has X budget. And I am familiar with some of the 
things that they are doing. Has anybody given any thought to 
the additional money that ODIHR will need to build the capacity 
to do what it is that we want them to do? In other words, we go 
to Berlin. We can accomplish what we have all talked about. But 
unless the resources are there, we are not going to be able to 
get the job done. Has anybody thought about how we are going to 
deal with that?
    Ms. Jones.  Senator, I have no doubt that various of my 
colleagues have thought about it, including, I am sure, 
Ambassador Minikes. And may I just take a minute to say how 
much I agree with you about the strength of his leadership. I 
very much appreciate his wisdom as we talk through all of the 
issues that are involved with the OSCE, but in particular the 
organization of this conference.
    I do not have at my fingertips information about the budget 
issues involved. You are clearly correct that it will take more 
money. We have had the good fortune of usually being able to 
find money for ODIHR to do the very important work it does, 
whether it is on something like this, elections in Georgia, 
whatever it is. We have been able to find the resources. I am 
convinced we will be able to do that this time. But I would 
like to come back to you with more details that I do not happen 
to have right this minute.

    [The additional information referred to above follows:]

    Ms. Jones. We believe that ODHIR has a plan and sufficient funding 
to meet its new tolerance and anti-Semitism responsibilities this year. 
ODIHR's Director, Ambassador Christian Strohal, has developed a 
workplan for implementing the new tolerance mandates given to ODIHR at 
the December 2003 Maastricht Ministerial and the April 2004 Berlin 
Conference. The OSCE Permanent Council on June 29 approved ODIHR's 
request for supplemental funds which, when combined with the almost 
$625,000 in additional funds already provided to ODIHR for implementing 
commitments made in Maastricht, should be adequate for ODIHR to meet 
its objectives for tolerance and anti-Semitism activities in 2004.
    The United States is also considering extra-budgetary contributions 
to ODIHR for specific tolerance projects. These contributions would 
come from existing U.S. funds provided for support of the OSCE's human 
dimension activities.

    Senator Voinovich.  What I would like to do is to have 
somebody really review this, look at the budget, and be ready 
in Berlin to be able to say we are going to need X number of 
dollars, and we are willing to ante up the resources and try to 
look around the table and see who else is willing to do it. And 
then understand if it is going to be something worthwhile, it 
is going to have to be continually funded, not just a one-shot 
deal.
    Ms. Jones.  Sir, that is a very good suggestion. And it is 
ever more important, because we think now that we hopefully 
will have had a second very successful conference, that we can 
really focus on actions coming out of the conference for 
concrete work to be done in each of the countries, rather than 
just having another conference.
    Senator Voinovich.  My last question deals with the 
legislation that I introduced yesterday. I did circulate that 
among many organizations here in the United States. And I would 
really appreciate the State Department looking at the 
legislation. I think the passage of that legislation would also 
send a signal to our comrades in the OSCE that the United 
States is going to really make this a high priority. And we are 
going to be getting information on what is happening abroad.
    But the fact that we are going to, as part of our religious 
report, zero in on the issue of anti-Semitism, again, I think, 
giving it the kind of priority that I think it really needs if 
we are going to make any progress over there is important.
    Ms. Jones.  Senator, we will be very happy to look at your 
legislation. Absolutely. As you mentioned, there already is 
quite a bit of reporting on each of those issues in the 
religious freedom report and in the human rights reports that 
we produce every year. We get a tremendous amount of support 
from our embassies and the reporting that they do. They are 
very, very aggressive about making sure that all of the 
incidents are reported, as well as the actions taken by the 
governments to which they are accredited, to make sure that 
these incidents are being dealt with in the appropriate way.
    Senator Voinovich. The other thing that I am concerned 
about--and it is not in your bailiwick, but if we are going to 
be there and urging other people to do some significant things, 
I think it is really important that we are prepared to talk 
about what we are doing about anti-Semitism in the United 
States. I think that is being dealt with in the Justice 
Department right now.
    But I would like to know what programs are in place, what 
are we doing, how are we following up, and so forth, so that 
when the question is asked about what are you doing, we can 
say, here is what we are doing. And I know it is not in your 
jurisdiction, but it seems to me at this stage of the game we 
really ought to look at what we are doing in this area to see 
if there are some other things that we could be doing.
    I am really concerned that we have a growing population of 
various religions in this country. And it seems that, 
particularly because of the Iraq situation, some walls are 
starting to be built. And when walls are built and people do 
not talk to each other, then we have suspicion. And before you 
know it, lots of thoughts that are not good. And we ought to be 
really working very, very hard to make sure that those walls 
are not there. And that means that we have to do a much better 
job, I think, of educating and bringing groups together and so 
forth.
    So like I say, it is not in your area of responsibility, 
but I think it is really something that someone should give 
some really serious thought to. Because the question will be, 
you know, you want us to do this, well, how about you?
    Ms. Jones.  It is a very, very good point. We will do what 
is necessary, from our perspective, from our side, to make sure 
that we are ready to answer that question. It is not in my 
bailiwick, but to one degree it is in the following respect. 
Our embassies do a tremendous amount of work in the education 
field, either with ministries of education, with museums, with 
other non-governmental organizations in the countries. And one 
of the things that they do is they bring over speakers from the 
United States who have experience with either combating anti-
Semitism or in multiethnic communities, that kind of thing.
    And we have had quite a bit of success with some of the 
speakers programs that we have in demonstrating what does work 
in the United States and use that to very good effect in 
Europe.
    Senator Voinovich.  I want to congratulate you, as a final 
note, on the fact that over the years that I have traveled to 
some of these countries , and I have noted just how good the 
State Department has been. I know when we were in Poland, they 
took us to Majdanik. And there was a lot of publicity that 
Senators were interested in, you know, what happened. When we 
were in Romania, there were some things going on in terms of 
the Romanian Government to fight anti-Semitism. And the State 
Department and the embassy facilitated our spending some time 
highlighting that.
    When I was in Prague before the expansion of NATO, I spent 
probably six hours with a Jewish community. And again, the 
State Department was really good to try and let people know 
that we are concerned about respect for other religions, and 
that we are concerned about the Jewish minority in those 
countries. So thank you very much.
    Ms. Jones.  Thank you very much for your comments. I am 
very proud of the work that our embassies do. One of the 
things, just so you know, that we tell our ambassadors, our new 
ambassadors, when they are going out and our deputy chiefs of 
mission, is that there are a variety of issues on which they do 
not need to wait for Washington instructions. That is one of 
them. That is one of the top ones. If you see something that 
needs to be done, go do it. Let us know about it, so we know 
what good work you are doing, but do not wait for us to tell 
you what to do.
    Senator Voinovich.  Well, I have to tell you that they were 
very aggressive in doing their work. And I was pleased. Thank 
you.
    Senator Allen [presiding]. Thank you, Senator Voinovich.
    Secretary Jones, thank you so much for your testimony and 
also bearing with the way the Senate operates. We are happy to 
have you with us today and also you commitment, as we work 
together to fight anti-Semitism. Obviously, our focus on this 
subcommittee is Europe, but throughout the world, including the 
United States. So thank you for your vigor and your devotion to 
your country, as well as our ideas. Thank you.
    Now I would like to call our second panel, if we can go 
through the shift.
    Good afternoon to you all. And thank you for your 
forbearance with the way the Senate voting system works.
    Our second panel of witnesses, I would like to introduce 
each of them briefly. Ms. Caryl M. Stern is the Chief Operating 
Officer and Senior Associate, National Director for the Anti-
Defamation League, a leader in anti-bias education, training 
and outreach. She has also served as the league's Director of 
Education and head of its award-winning World of Difference 
Institute.
    She is the co-author of Hate Hurts: How Children Learn and 
Unlearn Prejudice, and Future Perfect, A Model for Professional 
Development.
    We are also joined by Rabbi Andrew Baker, who serves as 
Director of International Jewish Affairs at the American Jewish 
Committee (AJC). He joined the AJC staff back in 1979 and 
previously served as AJC's Washington area director. As AJC's 
Director of European Affairs, Rabbi Baker coordinated the 
development of AJC's extensive projects across Europe with 
special emphasis on Jewish communities in Central and Eastern 
Europe.
    Welcome, Rabbi.
    And we have Mark Levin, who is the Executive Director of 
the National Conference on Soviet Jewry (NCSJ: Advocates on 
Behalf of Jews in Russia, Ukraine, the Baltic States, and 
Eurasia). He was appointed to this position in October of 1992 
and has been a member of the organization's professional staff 
since 1980. From 1987 to 1989, Mr. Levin served as the Director 
of the NCSJ's Washington office. Before coming to NCSJ, he 
worked for the American-Israel Public Affairs Committee.
    Dan Mariaschin serves as the Executive Vice President of 
B'nai B'rith International. Previously, Mr. Mariaschin served 
in the Political Affairs Department of the American-Israel 
Public Affairs Committee and as Director of Middle Eastern 
Affairs at the Anti-Defamation League.
    Thank all of you all for coming. I do understand that Mr. 
Levin has a limited amount of time to testify and answer 
questions this afternoon. So with the forbearance of his three 
colleagues, I am going to allow Mr. Levin to go first. And then 
we will get back to the order in which I presented the 
witnesses.
    Mr. Levin.

   STATEMENT OF MR. MARK LEVIN, EXECUTIVE DIRECTOR, NATIONAL 
                   CONFERENCE ON SOVIET JEWRY

    Mr. Levin. Mr. Chairman, thank you. And let me apologize. 
It is a previous speaking engagement in Boston that requires me 
to try to make a plane. So again, thank you for this 
opportunity to testify on anti-Semitism in the Former Soviet 
Union.
    I want to recognize your leadership and that of Senator 
Biden, as well as Senator Voinovich, and your predecessor, 
Senator Gordon Smith. This subcommittee's role has been 
indispensable in our efforts to fight anti-Semitism and promote 
tolerance for many years. I ask that my full prepared statement 
be entered into the record of this hearing.
    Senator Allen.  It is so ordered.
    Mr. Levin. Let me underscore the fundamental partnership 
that exists between our organizations and the Executive and 
Legislative Branches but, in particular, our colleagues in the 
State Department, as represented at today's hearing by 
Secretary Jones.
    Mr. Chairman, thanks to you and your predecessors, I have 
had the privilege to appear before this subcommittee on several 
occasions and to report on the nature and status of popular and 
political anti-Semitism in the successor states of the Former 
Soviet Union.
    To briefly highlight the most recent incidents, in March 
2004, vandals threw rocks into the windows of the only kosher 
restaurant in St. Petersburg, Russia, and windows were 
shattered in a synagogue in Odessa, Ukraine. In February 2004, 
dozens of gravestones were desecrated in St. Petersburg, and 
Molotov cocktails were thrown at a synagogue in Chelyabinsk, 
Russia.
    In Belarus, we continue to work with the U.S. Government, 
Belarusian authorities, and other interested parties to resolve 
the ongoing stadium expansion over an historic Jewish cemetery 
in Grodno. U.S. Ambassador George Krol and his staff have 
devoted ongoing attention to this issue and to the 
dissemination of anti-Semitic literature by the Orthodox Church 
in Belarus.
    I was in Belarus last year. We visited the bookstore where 
these books were supposed to have been taken out. And when we 
asked one of the church leaders why the books were still in 
there, we were told it is impossible, it cannot be. And we 
asked them to visit the bookstore so they could see themselves 
that these books were still being sold.
    These incidents, while paling in comparison to recent 
events in Western Europe, reflect a deep current running 
through post-Soviet society. During the past two years, in no 
small part as a result of Senate and Congressional initiative, 
the U.S. Government and the collective European leadership have 
launched an effort to address and combat anti-Semitism on an 
unprecedented scale and level of cooperation.
    Later this month, my colleagues and I, together with 
Senator Voinovich and a broad American delegation, will travel 
to Berlin for the action-oriented conference being sponsored by 
the OSCE and hosted by the German Government. Our goals for 
Berlin are ambitious, as you heard from Secretary Jones. But 
they are ambitious because the situation is critical. Anti-
Semitism remains a significant endemic problem throughout the 
Soviet successor states and across Europe.
    While on previous occasions my testimony has addressed the 
nature of the problem, today I will highlight examples of the 
steps already being taken across the successor states to combat 
anti-Semitism and spur the development of more tolerant post-
Soviet societies.
    Mr. Chairman, if people are interested in learning more 
about the current situation, I would urge them to visit our 
website and look at our most recent materials. But I did want 
to take this opportunity in the few minutes I have to focus on 
what has happened since the last time that you gave me the 
opportunity to appear before the subcommittee.
    Senator Allen.  What is your website address, for the 
record?
    Mr. Levin. It is www.ncsj.org. Thank you.
    Even as the OSCE process continues to evolve and show 
results, other multilateral efforts are underway in the Europe-
Eurasia region that merit mention. A series of international 
conferences in Kazakhstan have generated publicity and joint 
declarations against terrorism and religious extremism. In 
Brussels last September, the first Interparliamentary 
Conference on Human Rights and Religious Freedom included a 
session entitled, ``Anti-Semitism as a National and 
International Religious Freedom and Legislative Issue.''
    During the OSCE's annual Human Dimension Implementation 
Meeting last October in Warsaw, NCSJ organized a side event 
titled, ``Post-Soviet States Respond to Anti-Semitism,'' with 
participation by dozens of delegations and NGO representatives, 
including members of Congress. I will be submitting a separate 
report on this event for the record.
    Let me again devote my few remaining minutes to an overview 
of efforts in just three of the countries once under the Soviet 
yoke, Russia, Ukraine, and Lithuania. In Russia, even as 
popular anti-Semitism continues to ride the surface of public 
discourse, new efforts are leaving their mark and testing the 
waters for broader application. Project KOLOT: Women's Voices 
was organized by NCSJ in partnership with Jewish Women 
International, Project Kesher, and the Russian Jewish Congress. 
Initiated with a grant from the U.S. State Department, this 18-
month project engaged ethnic and religious communities on 
domestic violence in Russia and created an advocacy model for 
religious communities.
    Working in Tula and Voronezh, Russia, we brought together 
police, city officials, the legal community, women's groups, 
human rights organizations, and academia to address a serious 
social issue. This collaboration generated a new working 
relationship between the ethnic and religious communities and 
the police and other city officials and empowered the Jewish 
community to work with police and others in fighting anti-
Semitism.
    Another program called the Climate of Trust Program, an 
ambitious citizen-level program of the Bay Area Council for 
Jewish Rescue and Renewal of San Francisco, California, 
promotes ethnic and religious tolerance through U.S.-Russian 
exchanges among law enforcement and local officials, community 
leaders, activists, and educators. Climate of Trust has reached 
across Russia and has already expanded to Tajikistan. NCSJ has 
been privileged to work with the Bay Area Council on this 
initiative.
    Just last week, our Ambassador to Russia, Alexander 
Vershbow addressed a conference in Moscow that was set up to 
train monitors and collect data on discriminatory practices, 
establish hotlines and legal clinics, and institute curricula 
for the justice system and schools.
    The Russian Jewish Congress and the Euro-Asian Jewish 
Congress maintain monitoring networks and are developing new 
programs to combat anti-Semitism. Ongoing outreach to religious 
and political movements is helping to build bridges. Last 
month, according to the Federation of Jewish Communities of 
Russia, a conference in Volgograd on Russia's controversial Law 
on Religions included representatives of 17 religious 
organizations and 6 local administrations within the Volgograd 
region. The public prosecutor used the opportunity to 
acknowledge his inadequate response in the past and declared 
that combating anti-Semitism is now a priority.
    In Ukraine, the government has been actively enforcing the 
law against incitement of inter-ethnic hatred. According to 
Ukrainian Chief Rabbi Yakov Bleich, recent legal action against 
a prominent newspaper publishing virulently anti-Semitic 
articles has already led other like-minded publications to 
scale back their appeals to anti-Semitism and extreme 
nationalism.
    When ethnic violence erupted in Crimea last month, top law 
enforcement officials immediately flew to Crimea to resolve the 
tensions. Major Ukrainian political parties have signed 
agreements of cooperation and support with different umbrella 
organizations for national minorities. The President's Council 
on National Minorities also serves as an official conduit for 
input from religious and ethnic minorities.
    In Dnepropetrovsk, Ukraine, TKUMA, the National Center for 
Holocaust History Studies, has organized curriculum development 
and a series of teacher training seminars. A new Holocaust 
museum and regional network are in development.
    In Lithuania earlier this year, when one of the mainstream 
newspapers published a series of anti-Semitic articles, the 
prime minister condemned the articles and asked the prosecutor 
general to investigate whether the newspaper had violated 
Lithuania's law against inciting ethnic hatred. The foreign 
minister summoned the ambassadors for European Union candidates 
and member states to report on Lithuania's response and 
reaffirm his government's commitment to zero tolerance of anti-
Semitism.
    The speaker of the parliament expressed similar sentiments. 
I hope Lithuania's response in this case can be replicated in 
other countries.
    In closing, Mr. Chairman, I reiterate the singular 
importance of American leadership in fighting anti-Semitism, in 
building strong and pluralistic post-Communist societies, and 
in transmitting our values to a new generation of Europeans, 
even as the identity and boundaries of Europe are undergoing a 
fundamental transformation.
    While other governments are also sponsoring educational 
training and awareness programs, history continuously confirms 
that U.S.-funded programs show the way and set the tone for 
international efforts and local initiatives. The new bill just 
introduced by Senator Voinovich mandating the State Department 
to issue a global country-by-country assessment of anti-
Semitism will push other governments to issue their own 
reports, hold accountable those governments failing to take 
appropriate measures, and recognize those moving forward.
    This is the formula that has allowed our country to lead 
the world toward effective enforcement of human rights 
standards and respect for religious freedom.
    Thank you for your passionate promotion of this proven 
strategy in which my colleagues and I are proud to play a part.

    [The prepared statement of Mr. Levin follows:]

                  Prepared Statement of Mark B. Levin

    Mr. Chairman, thank you for this opportunity to testify on anti-
Semitism in the former Soviet Union. I want to recognize your 
leadership and that of Senator Biden, as well as Senator Voinovich and 
your predecessor Senator Smith. This subcommittee's role has been 
indispensable in our efforts to fight anti-Semitism and promote 
tolerance for many years. Your collective dedication to this cause has 
shaped the policy priorities of successive administrations and impacted 
on the lives of hundreds of thousands of Jews who--like so many other 
minorities--look to the United States as a bulwark and a beacon.
    I also want to mention my colleagues from NCSJ, who are with me 
here today. Shai Franklin, NCSJ Director of Governmental Relations, has 
devoted much of the past few years to working with the United States 
Congress, the Executive Branch, our partner agencies and governments 
across Europe and the former Soviet Union, helping to conceive and 
establish an international mechanism that we were told could not and 
would not exist--the coordinated fight against anti-Semitism. Lesley 
Weiss, NCSJ Director of Community Services and Cultural Affairs, has 
built a cadre of young activists, student leaders and community 
representatives around the former Soviet Union, who are breaking new 
ground in relationships with other minority communities, law 
enforcement and local officials.
    NCSJ is an umbrella of nearly 50 national organizations and over 
300 local community federations and community councils across the 
United States. We coordinate and represent the organized American 
Jewish community on advocacy relating to the former Soviet Union, and 
our membership includes the American Jewish Committee, American Jewish 
Congress, Anti-Defamation League, B'nai B'rith International, 
Conference of Presidents of Major American Jewish Organizations, Hebrew 
Immigrant Aid Society, Jewish Council for Public Affairs, United Jewish 
Communities, and many other well-known agencies devoted to promoting 
tolerance and combating prejudice and anti-Semitism around the world. I 
am pleased to be joining my colleagues from three of our partner 
agencies on this afternoon's panel.
    Mr. Chairman, thanks to you and your predecessors, including 
Senator Biden, I have had the privilege to appear before this 
subcommittee on several occasions, and to report on the nature and 
status of popular and political anti-Semitism in the successor states 
of the Former Soviet Union. To briefly highlight several recent 
incidents since the first of the year, in March 2004 vandals threw 
rocks into windows at the kosher restaurant in St. Petersburg, Russia. 
Windows were shattered in a synagogue in Odessa, Ukraine. In Kharkiv, 
Ukraine, authorities announced the cancellation of a new gas station 
project, after the Jewish community objected to its erection adjacent 
to a Holocaust-era mass grave.
    In February 2004, some 50 mostly Jewish gravestones were desecrated 
at a St. Petersburg cemetery, with some overturned and anti-Semitic 
graffiti on others. Molotov cocktails were thrown at a synagogue in 
Chelyabinsk, Russia. Regarding the ongoing stadium construction over a 
Jewish cemetery in Grodno, Belarus, we continue to work with the United 
States Government, Belarusian authorities and other interested parties 
toward a satisfactory resolution of this unhappy situation. In addition 
to his work on Grodno, U.S. Ambassador George Krol and his staff have 
devoted ongoing attention to the dissemination of anti-Semitic 
literature by the Orthodox Church in Belarus.
    These incidents, while paling in comparison to some of the events 
in Western Europe, reflect a deep current running through post-Soviet 
society, and we are working with governmental and non-governmental 
partners on the ground. During the past two years, in no small part as 
the result of Senate and Congressional initiative, the United States 
Government and the collective European leadership have launched an 
effort to address and combat anti-Semitism on an unprecedented scale 
and level of coordination. Later this month, my colleagues and I, 
together with Senator Voinovich and a broad American delegation, will 
travel to Berlin for the action-oriented conference being sponsored by 
the Organization for Security and Cooperation in Europe (OSCE) and 
hosted by the German Government. I should mention two new Web pages in 
addition to the official OSCE Web site: the NCSJ-sponsored 
Berlin2004.org, providing background, links and updates, and the 
American Jewish Committee's ngoforumberlin.org focusing on the series 
of non-governmental workshops on April 27.
    Our goals for the Berlin conference are ambitious because the 
situation is critical. To be sure, anti-Semitism remains a significant, 
endemic problem throughout the successor states and across Europe. Much 
of the support for advancing this process has come from formerly 
communist nations, including successor states, who see fighting anti-
Semitism as indispensable to their transition from the Soviet shadow. 
Building on last year's Vienna conference, the first-ever such 
international forum on anti-Semitism, Berlin must produce measurable 
commitments by the 55 OSCE member states and demonstrate actionable 
programs for governments to support and implement. In my testimony 
today, therefore, I want to focus on examples of the steps already 
being taken across the successor states to combat anti-Semitism and 
spur the development of more tolerant post-Soviet societies.
    Some programs are significant because they directly respond to the 
plague of anti-Semitism, while others exemplify successful delivery 
systems for reaching law enforcement, educators, politicians, and 
religious or ethnic groups. The appeal of anti-Semitism should diminish 
with the rise of a healthy civil society, so ultimately the best 
guarantee is community of understanding across a broad spectrum of 
interests and issues.
    Beyond the diplomatic level, the United States Government can have 
a significant impact by funding model programs and transmitting 
American lessons where useful. Particularly where local funding is 
unavailable, due to dire economic conditions, such U.S.-funded programs 
carry additional cache among local officials and the public. Even where 
such programs do not address anti-Semitism directly, they can generate 
new channels for outreach to law enforcement, local officials, ethnic 
minorities, media, educators, and society at large. Addressing anti-
Semitism is much easier to achieve where relationships already exist 
among relevant interest groups, and as civil society sinks deeper and 
wider roots.
    Even as the OSCE process continues to evolve and show results, 
other multilateral efforts are underway in the Europe/Eurasia region 
that merit mention. A series of two international conferences in 
Kazakhstan during the past year have attracted heads of state and other 
officials, and religious and ethnic leaders from across Europe, Asia, 
and the Middle East--prominent and credible representatives of Judaism 
and diverse streams of Christianity and Islam. With the involvement of 
the Euro-Asian Jewish Congress, these public events have generated 
publicity as well as joint declarations against terrorism and religious 
extremism, and in support of tolerance and inter-ethnic understanding 
and cooperation.
    The First Interparliamentary Conference on Human Rights and 
Religious Freedom, organized in Brussels last September by the 
Institute on Religion and Public Policy, brought delegates from over 
two dozen countries, including Belarus, Estonia, Kazakhstan, Russia, 
Tajikistan, Ukraine, and Uzbekistan. One session was titled ``Anti-
Semitism as a National and International Religious Freedom and 
Legislative Issue.'' While anti-Semitism is not exclusively a religious 
freedom issue, the multiple manifestations of anti-Semitism can only be 
adequately addressed across a spectrum of disciplines and 
constituencies.
    During the OSCE's annual Human Dimension Implementation Meeting 
last October in Warsaw, NCSJ organized a side event titled, ``Post-
Soviet States Respond to Anti-Semitism.'' This roundtable discussion 
was attended by dozens of delegates and NGO representatives from Europe 
and the former Soviet Union, as well as the United States delegation 
and Members of Congress. Participants focused on the nature of anti-
Semitism in their countries and opportunities for coordinating efforts 
through OSCE and other channels. I will be submitting a separate report 
on this event for the record of this hearing.

                                 RUSSIA

    In Russia, even as popular anti-Semitism continues to ride the 
surface of public discourse, new efforts are constantly leaving their 
mark and testing the waters for broader application. Some examples are 
funded from overseas, others initiated by the Jewish community, and 
some sponsored by local authorities.
    Project KOLOT: Women's Voices was organized by NCSJ in partnership 
with Jewish Women International, Project Kesher, and the Russian Jewish 
Congress. Initiated with a grant from the U.S. State Department, this 
18-month project engaged ethnic and religious communities in addressing 
the issue of domestic violence in Russia, and created an advocacy model 
for training religious communities to participate in civil society. 
Working in Tula and Voronezh, we brought together police, city 
officials, the legal community, women's groups, human rights 
organization and academia to address a serious social problem. This 
collaboration generated a new working relationship between the ethnic 
and religious communities and the police and other city officials, 
opened police protocols to public oversight, and produced informational 
leaflets, bilingual training manuals, and a one-day conference with 
officials and activists that was the first-ever public discussion of a 
social issue between the local government, the police and the Voronezh 
Jewish community.
    The ``Climate of Trust'' program, an ambitious ``citizen-level'' 
program of the Bay Area Council for Jewish Rescue and Renewal, promotes 
ethnic and religious tolerance through U.S.-Russian exchanges among law 
enforcement and local officials, community leaders, activists, and 
educators. Components include a tolerance seminar for Russian 
participants, joint workshops in San Francisco and Russia, and a week-
long reunion and review. As a result of this program, Regional 
Tolerance Centers have been established in three of Russia's seven 
Federal Districts; media seminar on police-community relations was held 
in Kazan for Internal Affairs Ministry (MVD) officials from across 
Russia; hate-crimes manuals are required reading for all police 
departments in the Republic of Karelia; and related teacher- and police 
cadet-training programs in several regions.
    Just last week, U.S. Ambassador Alexander Vershbow addressed a 
Moscow conference launching a new anti-discrimination campaign in the 
Russia Federation. Initiated under the auspices of UCSJ: Union of 
Councils for Jews in the Former Soviet Union, this program promises to 
train monitors and collect data on discriminatory practices, establish 
hotlines and legal clinics, and institute curricula for the justice 
system and schools.
    The Russian Jewish Congress and Euro-Asian Jewish Congress maintain 
monitoring networks and are developing new programs to combat anti-
Semitism. Ongoing outreach to religious and political movements is 
helping to build bridges. The Moscow Open University, founded by 
Russian Jewish Congress President Yevgeny Satanovsky, grants degrees in 
philology, history and a variety of other subjects, and represents one 
of the first serious attempts to revive Russian intellectual culture.
    Last month, according to the Federation of Jewish Communities of 
Russia (FEOR), the Tambov Regional Administration held a roundtable 
discussion on extremism and tolerance. Participants in the meeting 
included numerous regional and local officials, as well as 
representatives of other ethnic communities and the mass media. The 
Tambov Governor condemned extremism and called for vigilance by 
officials at all levels.
    FEOR reports that a March 2004 conference in Volgograd, on Russia's 
controversial Law on Religions, included representatives of 17 
religious organizations and six local administrations within the 
Volgograd region. This conference provided the Director of the 
Volgograd Jewish Community Center an opportunity to challenge the 
Public Prosecutor on inadequate response to anti-Semitic and extremist 
incidents. Acknowledging that previous results have been lacking, the 
prosecutor declared that preventing anti-Semitism is now a priority for 
his office.
    In February 2004, Ambassador Vershbow joined the Chief Rabbi of 
Bryansk and the head of the Bryansk Regional Administration for a 
Jewish community-sponsored conference on xenophobia that included local 
representatives of the Armenian community and human rights activists. 
Participants, including the administrator and Ambassador Vershbow, 
spoke out strongly against recent local cases of anti-Semitic newspaper 
articles and vandalism which are now under investigation.
    Next month, the American Jewish Committee will be hosting Tatiana 
Sapunova, an extraordinary Russian heroine who was injured in May 2002 
when she tried to remove a booby-trapped anti-Semitic sign outside 
Moscow. This was the first in a wave of similar incidents, involving 
real or mock explosives. Although the perpetrators have not been found, 
Russian leaders did speak out strongly, and President Vladimir Putin 
awarded Ms. Sapunova a medal for her bravery.

                                UKRAINE

    In Ukraine, the wheels are beginning to turn. The government has 
been actively enforcing a law against incitement of inter-ethnic 
hatred. Recent legal action against a prominent newspaper publishing 
virulently anti-Semitic articles has already led other like-minded 
publications to significantly scale back their appeals to anti-Semitism 
and extreme nationalism. When ethnic violence erupted in Crimea last 
month, top law enforcement officials immediately flew down to resolve 
the tensions. Major political parties have signed agreements of 
cooperation and support with three different umbrella organizations for 
national minorities. The President's Council of National Minorities 
also serves as an official conduit for input from religious and ethnic 
minorities.
    The Institute for Jewish Studies, in Kyiv, promotes a range of 
programs as well as monitoring and reporting on anti-Semitism in the 
media and society. The Kyiv office of the Euro-Asian Jewish Congress 
last year issued a report on ``The Basic Tendencies of Anti-Semitism in 
the CIS States,'' with substantive submissions from Russia, Ukraine, 
Belarus, Georgia, and Armenia. Whether or not governments are able to 
produce such reports on their own, such publications by independent 
non-governmental bodies play a vital role in promoting awareness and 
providing a diversity of views.
    The new and independent Association of Churches and Religious 
Organizations of Ukraine incorporates 18 faiths, including Judaism, 
Islam, Catholicism, and the Orthodox Church. The Association's most 
recent meeting, in late March, focused on fighting HIV/AIDS, 
rehabilitating prisoners, and Ukrainian Mufti Sheikh Ahmed Tamim's call 
for a joint statement condemning terrorism. Rabbi Yakov Bleich, Chief 
Rabbi of Ukraine, hopes the Association's work can frustrate those 
seeking religious justification for their terrorist acts. The 
Association is also identifying common ground on such complicated 
issues as a new draft religion law and the restitution of communal and 
religious properties.
    One of Rabbi Bleich's partners in these endeavors is His Beatitude 
Lubomyr Huzar, Patriarch of the Ukrainian Greek Catholic Church. When 
the Patriarch visited Washington last December, he sought our advice 
and assistance in fighting anti-Semitism, promoting better awareness of 
Jewish concerns, and using education to promote tolerance among 
Ukrainian Greek Catholics and others. ``We have to live as real 
neighbors,'' he stressed. ``This is so important for the Church,'' he 
said, because Soviet strategy sought to alienate groups from each 
other, by planting lies and reinforcing stereotypes. He sees anti-
Semitism as part of the same Soviet approach that kept down his own 
church for so many decades.
    Given the onetime Soviet inclination to conflate anti-Israel and 
anti-Semitic themes, and the contemporary use of Israeli policies to 
justify or excuse anti-Semitic violence particularly in Western Europe, 
a new art exhibition has made an important statement about the sanctity 
of every human life. ``Children Against Terror'' displays artwork by 
young victims of the July 2001 Dolphinarium bombing, which killed a 
large number of emigre youth from the former Soviet Union, and was 
recently exhibited in Dneprotpetrovsk and Kyiv, with the participation 
of President Kuchma's wife Liudmila.
    In Dnepropetrovsk, Chief Rabbi Shmuel Kaminezki has spearheaded 
TKUMA, the National Center for Holocaust History Studies, together with 
the American Jewish Joint Distribution Committee and other partners. 
TKUMA has organized a series of teacher-training seminars, curriculum 
development, and a new Holocaust museum and regional network are in 
development. This new institution already cooperates closely with the 
Ukrainian Ministry of Education, research centers around the world, and 
the Task Force for International Cooperation on Holocaust Education, 
Remembrance, and Research. It is having a measurable impact on what 
students are learning about the legacies of the Holocaust and the costs 
of intolerance.

                               LITHUANIA

    In Lithuania earlier this year, when one of Lithuania's mainstream 
newspapers, Respublika, published a three-part series of anti-Semitic 
articles written by the editor, the Prime Minister condemned the 
articles and asked the Prosecutor General to investigate whether the 
newspaper had violated Lithuania's law against inciting ethnic hatred. 
Lithuania's Foreign Minister summoned the ambassadors from European 
Union candidates and member states and aspirants to report on 
Lithuania's response and reaffirm his government's commitment to zero 
tolerance of anti-Semitism. The Speaker of the Parliament expressed 
similar sentiments. We continue to follow this situation, but with 
confidence that Lithuania has the capacity and channels to confront 
anti-Semitism as lessons learned. I hope Lithuania's response in this 
case can be replicated in other countries.
    A variety of projects in conjunction with the international 
Holocaust Task Force offer innovative examples of the Holocaust as 
teaching tool. ``Surviving Ostland,'' a documentary video, tracks the 
lives of five Holocaust survivors in Lithuania, for use as a teaching 
resource in Lithuanian schools. A multi-phase writing competition, ``My 
Grandparents' and Great-Grandparents' Jewish Neighbors,'' challenged 
students to record the history of the Jewish communities in their local 
area and published a selection of the submissions, combined with a 
visit to Auschwitz. In December 2002, Lithuania created a Working Group 
on Holocaust Education comprised of governmental and non-governmental 
representatives, to coordinate among elementary and secondary schools, 
universities, teacher-training and continuing education, textbooks, and 
pedagogical methods.
    In closing, Mr. Chairman, I reiterate the singular importance of 
American leadership in fighting anti-Semitism, in building strong and 
pluralistic post-communist societies, and in transmitting our values to 
a new generation of Europeans--even as the identity and boundaries of 
``Europe'' are undergoing a fundamental transformation. While other 
governments are also sponsoring educational, training and awareness 
programs, history continuously confirms that U.S.-funded programs show 
the way and set the tone for other international efforts and local 
initiatives, be it creating citizens' groups, running seminars and 
exchanges, providing a safety net for unfiltered broadcasting, or 
crystallizing the region-wide consensus to fight anti-Semitism.
    The new bill being sponsored by Senator Voinovich, mandating the 
State Department to issue a global country-by-country assessment of 
anti-Semitism, will likewise kindle a willingness by other governments 
to issue their own reports on anti-Semitism. By reporting on both the 
status of anti-Semitism and government responses to it, it will hold 
accountable those governments failing to take appropriate measures and 
recognize those moving forward. This is the formula that has allowed 
our country to lead the world toward effective enforcement of human 
rights standards and respect for religious freedom. Thank you for your 
passionate promotion of this proven strategy, in which my colleagues 
and I are proud to play a part.

    [Additional material submitted by Mr. Levin appears in the 
Appendix to this hearing.]

    Senator Allen.  Thank you so much, Mr. Levin, for your 
testimony and for your insight.
    This is similar to Senator Voinovich's bill, which I am 
happy to sponsor. But shining a light on those who are 
succeeding to hopefully have other countries emulate those good 
practices, is helpful. And thank you for your dedication.
    Mr. Levin. Thank you, Mr. Chairman. You know, some of our 
friends in the different governments and communities of the 
Former Soviet Union like to say that we only spotlight the 
problems and do not address solutions. And I hope today that I 
took a few minutes to highlight some of the solutions that are 
being put into place.
    Mr. Chairman, I can actually, if it is okay, I can stay 
until 4:20, 4:30. So if there are other questions, I can wait.
    Senator Allen.  Okay. Good enough.
    In that case, we are going to move right along. Ms. Stern, 
we would love to hear from you now.

STATEMENT OF MS. CARYL M. STERN, CHIEF OPERATING OFFICER, ANTI-
                       DEFAMATION LEAGUE

    Ms. Stern. Good afternoon. My name is Caryl M. Stern. I am 
the Senior Associate, National Director of the Anti-Defamation 
League (ADL), an organization that has worked to expose and 
counter anti-Semitism and all forms of bigotry for over 90 
years. I am honored that ADL has been part of the 
subcommittee's examination of anti-Semitism in Europe and am 
grateful that, Chairman Allen, you have convened this follow-up 
hearing.
    ADL's experience working with this subcommittee and the 
Senate at large on this issue has been all that we could have 
hoped for. Our requests, our ideas have been welcomed and 
embraced by each of the Senators on this subcommittee. But 
allow me to offer a special thanks to Senator Voinovich, whose 
commitment to this issue and dogged determination to move 
beyond speech to act, concrete action, has inspired all of us 
at this table to do other jobs better. And I thank you for 
that.
    Mr. Chairman, I would like to submit my full statement for 
the record, which provides an overview of developments since 
the subcommittee examined this issue in a hearing last October.
    Senator Allen.  So ordered.
    Ms. Stern. Thank you. And I would like to use my time to 
highlight key challenges in the fight against anti-Semitism in 
Europe today. I would also like to highlight some action items 
for the subcommittee to focus on, which I believe can have a 
meaningful and sustained impact on the ground.
    I come here before you not only as a representative of ADL 
but also as an educator with over 25 years of teaching 
experience, a veteran of the anti-bias education field and, 
equally important, the child of Holocaust survivor, the 
grandchild of a passenger who boarded the SS St. Louis hoping 
for freedom and finding none, and as the mom of two Jewish 
children.
    These combined experiences have taught me from a very early 
age what hate could do, what hate had done, what hate could do 
again. Relying on these experiences, I want to offer some 
suggestions on areas where governments, on their own and in 
combination with NGOs, can enhance, further implement, and 
promote programs that have already begun to show progress both 
here in the United States and overseas in Europe.
    Senator Allen, you said that it is a problem that we share. 
We do share this problem with Europe. The ADL annual audit of 
anti-Semitism just recently released reported 1,500 reported 
incidents, those that were reported, not those that go 
unreported, 1,500 alone in the United States this past year.
    But before we talk about the solution, we are facing a 
daunting challenge in Europe's inability to talk honestly about 
the problem. On my last trip overseas, which was just a few 
weeks ago, I met with one of the people responsible for the EU 
report on anti-Semitism that was just released. And I was very 
disheartened by a comment made to me during that conversation. 
But I think it indicative of what we are up against.
    As we began to discuss what was then the upcoming study, 
this person said to me, ``You must remember that Jews have 
unhealed scars from what happened last time, very thin skin. 
And as a result, the prick of a pin might very well feel like a 
sword to you.''
    I do not believe we have thin skins. I think we have very 
thick skins on this issue. And I do not believe that we are 
overly sensitive to the issue of anti-Semitism, any more than 
any other minority group in this country that has been accused 
of being overly sensitive to the discrimination against them 
is. I believe that in the 1930s and 1940s we heard a drum beat, 
a drum beat that was soft and got louder and that we put our 
faith in the government and the civil institutions of the time, 
organized religion, law enforcement, to protect us. And in many 
cases, our faith and our fate were misplaced.
    But this time we feel strongly that we can put our faith in 
the U.S. Government and in America herself, because we 
understand in this country that hate against one of us is hate 
against all of us. But we will also continue to stand up 
ourselves as Jews to ensure that our voices are heard.
    Of particular concern to us is our ability to get our arms 
around the problem, to truly understand how big is it, where is 
it happening, why, what are the trends, are there common issues 
or different issues country by country? We cannot get our arms 
around this problem because in Europe today the state of 
monitoring is atrocious. There is no common language, no common 
definitions, no agreement on what indeed is anti-Semitism, 
never mind how widespread it is.
    Further, there exists no formal system through which to 
channel information. If you ask a man or woman on the street to 
whom they would report an incident of anti-Semitism, should 
they be witness to one, you will often hear conflicting 
answers. There is no door at the EU painted with the word 
``anti-Semitism, report here.'' There is a door that says 
``xenophobia and racism.''
    If you want to address the problem, we must insist that 
common definitions be put in place. Further, we applaud Senator 
Voinovich's initiative to enhance the quality and consistency 
of our own U.S. reporting to give us all a better picture of 
the nature of the problem.
    Until an unless we discover a vaccine against hate, against 
anti-Semitism, experience has taught us that education is our 
best antidote. Research has shown us that by the age of three 
to five years old, our children are not only familiar with 
stereotypes, they are already acting on them. By the time they 
are high school students, this misinformation melds into fact. 
We can and we must break this cycle.
    Programs, such as the one I am most familiar with, ADL's A 
World of Difference Institute, and others that I am sure my 
colleagues at the table address, do just that. In the United 
States alone, 450,000 educators have completed an ADL A World 
of Difference Institute anti-bias training, bringing anti-bias 
education to over 20 million U.S. students.
    Based on this success, the program has been exported to 
countries such as Japan, Argentina, eight EU member states, and 
the Former Soviet Union. However, the success is only as good 
as a specific government's commitment and will to implement it 
and only as good as the funding holds out for it. I have seen 
firsthand the benefit of these programs, having had the 
privilege to help to design them. I worked with a group of peer 
trainers in Crown Heights following the riots. Half of the 
group identified specifically to be part of the program because 
they themselves proclaim to be anti-Semites. I watched over 
several years as these anti-Semites became activists against 
hate. I have seen these programs work.
    Anti-bias education must also include learning from the 
past. It is imperative that the lessons of the Holocaust not be 
forgotten. As the survivor population dwindles, making 
firsthand accounts harder and harder to come by, and giving an 
open field day to those that deny it even happened, we have 
joined together with the Shoah Foundation to developed special 
curriculum materials to be released later this year that build 
upon Shoah's wide library of video testimony by survivors 
themselves.
    Because the Shoah Foundation has testimony in multiple 
European languages, these materials could have implication and 
application for many European countries. And we would hope that 
Europe would take advantage similarly.
    We have also joined with the U.S. Holocaust Museum and the 
Archdiocese here in Washington, D.C., to create a program 
called Bearing Witness specifically aimed at teaching Catholic 
school teachers how to teach about the Shoah, to teach about 
the lessons of the Holocaust. It is a program now being 
replicated in five states across the United States and a 
program we have received inquiry about from several countries 
in Europe.
    It is difficult for us here to see the fight against hate 
through the lenses and the filters employed by non-Americans. 
In the early years of exporting a world of difference, we 
learned firsthand we could export a methodology, but that it 
had to be implemented by those on the ground. Here we have 
laws. We have training programs to ensure that the laws are 
understood, applied, and adhered to. In Europe, this is not the 
case.
    We applaud the Austrian Government in particular, whose 
Minister of Interior has followed the example of the U.S.'s 
FBI, CIA, and police departments across our Nation, who have 
designed and implemented anti-bias training for all officers. 
In Austria, this includes training in the unique investigative 
techniques necessary to ensure that anti-bias, excuse me, that 
bias-motivated crimes are properly identified, properly 
investigated, and properly addressed.
    We ask again that the United States make this type of 
training a key fixture in the FBI Law Enforcement Training 
Center in Budapest, as well as similar European training 
facilities. If we hope to see better European monitoring, this 
type of training is indispensable.
    I have outlined in my written statement ADL's hopes for the 
upcoming Berlin OSCE Conference on Anti-Semitism. Most 
importantly, the OSCE Conference must address the twin 
challenges of identifying the problem honestly and monitoring 
it for the long haul. The OSCE Conference must end with a 
declaration that clearly identifies and condemns the new anti-
Semitism in the most accurate, honest way possible.
    Given the European atmosphere, as I have described it, this 
is an essential component of success. OSCE must be more 
proactive in gathering data and encouraging states to institute 
monitoring mechanisms. OSCE could follow up with states and 
find ways, perhaps through a publication, to put forward a 
common data collection model and guidelines for law 
enforcement.
    The last few years of dealing with the new anti-Semitism 
has posed the painful question: How far have we come? Have we 
learned the lessons of the Holocaust? The answer is certainly a 
work in progress. It is being written in hearing rooms like 
this one and in the hearts and minds of all who have been 
touched by it.
    When reports of ethnic cleansing in Bosnia first emerged, 
the ADL ran ads with a simple, understated message: Respond as 
you wish the world had responded. The meaning was clear. We 
never thought we would be saying the same with respect to anti-
Semitism in Europe again. Now we are asking: Respond as you 
wish the world had responded the last time.
    You, the Senate, the United States, have answered that call 
admirably. And we are finding other allies who share our desire 
to broaden the coalition against anti-Semitism. Last week I had 
the privilege of sitting with representatives of a dozen of the 
United States premier civil rights organizations, convened by 
Wade Henderson, Director of the Leadership Conference on Civil 
Rights. They came together to plan their participation in the 
Berlin OSCE Conference on Anti-Semitism.
    One of these groups, Human Rights First, is submitting for 
the record of today's hearing a statement of their concern and 
commitment and a preview of an important new report they will 
be releasing on anti-Semitism. Their action, like yours today 
and beyond, gives us hope that we are writing a very different 
chapter in this century than the last, the hope that we will be 
united in Berlin and beyond in saying to the world that anti-
Semitism is anti all of us.
    Thank you very much.

    [The prepared statement of Ms. Stern follows:]

                  Prepared Statement of Caryl M. Stern

             programs to counteract anti-semitism in europe
    Good afternoon. My name is Caryl M. Stern, I am the Senior 
Associate National Director of the Anti-Defamation League--ADL. For 
over ninety years, since 1913, the ADL has worked to expose and counter 
anti-Semitism, as well as all forms of bigotry. I am honored that ADL 
has been part of this subcommittee's examination of anti-Semitism in 
Europe and am pleased to provide an overview of developments and some 
progress since the subcommittee examined this issue in a hearing last 
October.
    The focus of my statement today is to lay out for you 
recommendations for how governments can seize on this progress as an 
opportunity to put in place programs which can have a meaningful, 
sustained impact on the ground. I will highlight some recent 
developments, and some of our hopes for the upcoming OSCE Conference on 
Anti-Semitism in Berlin which I am sure my colleagues on the panel will 
want to address as well.
    First let me say that ADL's experience working with this 
subcommittee, and the Senate at-large on this issue, has been all that 
we could have hoped for. Chairman Allen, thank you for convening this 
follow up hearing and for demonstrating that the committee intends to 
follow the issue closely and look extensively for measures to stem the 
growth of this problem. Our requests and ideas have been welcomed and 
embraced by each of the Senators on this subcommittee. Allow me also to 
offer a special thanks to Senator Voinovich, whose commitment to this 
issue and dogged determination to move beyond speeches or other 
statements of concern to concrete action, has inspired us all to do our 
jobs even better.
    I stand here before you not only as a representative of the ADL, 
but also as the author of a book entitled HATE HURTS: How Children 
Learn & Unlearn Prejudice (Scholastic, 1999); as a member of the higher 
education community of the U.S. both as a faculty member at numerous 
institutions and prior to joining the ADL as Dean of Students at 
Polytechnic University in New York; as a founding member and the first 
Director of the largest and most wide-reaching anti-bias education 
project in the world today--the ADL's award-winning A WORLD OF 
DIFFERENCE Institute--and, as the child of a Holocaust survivor and the 
grandchild of a passenger on the tragic SS St. Louis. These combined 
experiences have taught me both the vigor of hatred and the horrors of 
what it can bring us to, as well as the significant antidote that can 
only be found through education. Relying on these experiences I would 
like to offer suggestions on areas where governments, on their own and 
in partnership with NGOs, can enhance, further implement and promote 
programs that have already begun to show progress both here in the U.S. 
and overseas in parts of Europe.
    Mr. Chairman, when we deal with the kind of anti-Semitic images and 
canards that were used in the 1930's, comparisons to pre-WWII Europe 
are inevitable. In the 1930s we heard a drumbeat of anti-Semitism that 
began softly and grew. We, the Jews, as well as others, put our fate 
and our faith in civil institutions--government, law enforcement, 
organized religion--to protect us before the drumbeat overwhelmed us. 
Our faith was misplaced. We learned the ultimate lesson about the 
danger of complacency. Today we are armed with experience and 
knowledge--today we recognize the warning signs and the indicators. 
Today--in a very different Europe and with the vital leadership of the 
United States, we are seeking out the help of these same institutions 
and hoping for a dramatically different result.
    We have seen progress. In the last few months while anti-Semitic 
incidents have unfortunately continued, there have been hopeful signs:

  <bullet> The European Union held a conference on anti-Semitism in 
        February at which Romano Prodi, President of the European 
        commission made an important statement: ``I cannot deny, that 
        some criticism of Israel is inspired by what amounts to anti-
        Semitic sentiments and prejudice. This must be recognized for 
        what it is and properly addressed.''

  <bullet> In France in 2002, violent anti-Semitic incidents were 
        reported everyday. Members of the community publicly announced 
        that they were unsure whether there was a future for Jews in 
        France. The chief Rabbi advised the community to avoid wearing 
        kipot or other visible Jewish garb as a matter of security. 
        Signs of improvement were evident as President Chirac 
        proclaimed in November that ``when a Jew is attacked in France 
        . . . It is France as a whole that is under attack,'' and now a 
        new inter-ministerial working group is taking serious measures 
        to tackle the problem.

  <bullet> In a few short weeks, in Europe, the leaders of 55 nations 
        of the OSCE will convene a Berlin conference on anti-Semitism.

    However, even with this progress two major points must not be 
forgotten:

  <bullet> While 55 countries will attend and participate in the Berlin 
        OSCE conference, some governments were, frankly, brought along 
        kicking and screaming and many still hope that after Berlin, 
        they will not be forced to talk about the problem again.

  <bullet> Unlike the model we are used to here at home in the U.S., 
        countering anti-Semitism in Europe, even monitoring it or 
        condemning it, is still considered controversial.

    Appended to my statement you will find a listing of some of the 
incidents of anti-Semitism that have taken place in the first few 
months of 2004. It is imperative that we remember that the numbers and 
statistics that I and others will quote, represent real people, many of 
them children. Even in France where the overall rate of incidents is 
not rising, the number of incidents aimed at children is rose in 2003. 
Each child--each victim, has a name--has a mom or a dad; perhaps a kid 
brother or sister; possibly a grandparent; all of whom watch and feel 
the hurt and debasement of being singled out, attacked or harassed for 
who they are. This common pain--this shared concern for safety and 
security has led numerous people to pose the age old question of 
``Should I leave?'' or more recently ``When should I leave?''
    Allow me to highlight a few major challenges we currently face in 
fighting anti-Semitism, along with a few of the most promising 
practices that this subcommittee could promote and move forward:
I. The Challenge of Building Political Will
    It sounds strange here in Washington DC in the year 2004 to state 
that talking about anti-Semitism honestly, especially in Europe, 
requires the courage to buck the trend of political correctness. 
However, the ``new anti-Semitism'' today is gaining acceptability in 
newspapers, on college campuses, at anti-war rallies and at dinner 
parties. We are finding it in our classrooms, our board rooms, even in 
some dining rooms. We are no longer talking about the kind of racially 
based anti-Semitism that we saw in the last century. That kind of 
racist mythology is the purview of the extreme right, it is not 
acceptable to the mainstream, it is simply out of vogue. It is 
considered repulsive even by some we would consider anti-Semites.
    The new anti-Semitism is the type that hides behind statements such 
as ``I don't have any problem with Jewish people, but I think Sharon is 
a Nazi, or Israel is a racist or human rights pariah.'' It also shows 
up in political cartoons that depict age old canards of anti-Semitism 
in their criticism or Israel. You see some examples of what I'm 
referring to in just one of our recent reports on anti-Semitism in the 
Egyptian media appended to my statement.
    In today's parlance, evil equals racist, or apartheid or terrorist. 
And while singling out the Jew as a demon or as racially inferior would 
not be embraced, the disproportionate denigration, and demonization of 
Israel as apartheid, colonialist, racist, fascist, or even as a 
successor to Nazi Germany is downright popular. This is a pernicious 
form of critique because it cloaks itself in the credibility of the 
moral voice of the intellectual elites and the anti-racism or human 
rights movements.
    I am not saying that any criticism of Israel is anti-Semitic. Not 
at all--in fact I invite you to read any of the Israeli newspapers on-
line in English and you will find more open debate and criticism per 
capita in Israel than almost anywhere else in the world. But there are 
clear criteria and guidelines for criticism of any sovereign state.
    Perhaps former Soviet dissident and current Israeli Minister Natan 
Sharansky's description of viewing the problem through ``3-D glasses'' 
best describes what I am talking about. His three D's? Demonization, 
Double Standards, & Deligitimization. Demonization--blowing Israeli 
actions so out of proportion as to paint Israel as the embodiment of 
evil. Double Standard--selectively criticizing Israel or failing to put 
the same focus on similar policies or actions of other states. And, 
Deligitimization--a denial of Israel's right to exist or the right of 
the Jewish people to aspire to live securely in a homeland.
    When the Eurobaromter, an European Commission periodic poll, had 
Europeans rating Israel as the major threat to world peace--ahead of 
North Korea, Iraq, and everyone else--we see the clear effect that 
demonization and double standards can have. When European criticism of 
Israel is so one-sided and so filled with exaggeration and hyperbole, 
it reflects a broader bias. While it may not always equal anti-
Semitism, it certainly feeds anti-Semitism. It is no accident that the 
places where Jews feel the most threatened are media markets where the 
coverage of the Middle East is filled with sensationalized images that 
are food for incitement.
    While most Europeans would not want to admit to harboring bigotry 
against a Jewish individual, we have reached a point where it seems as 
if ``anything goes'' when you are bashing Israel. Two months ago, the 
British Political Cartoonist annual competition for 2003 awarded first 
prize for a hideous caricature of Prime Minister Sharon devouring the 
flesh of a Palestinian baby. Such a cartoon would have been right at 
home in a 1930 German newspaper. Against this backdrop, politicians and 
law enforcement officials ``understand'' that a synagogue arson or 
violence against elementary school students is ``natural'' given 
frustration among Muslim youth over the Middle East conflict. When this 
happens, it is open season against Jews.
    After two years fraught with denial of this problem, we welcomed 
the beginnings of awareness about the role that this type of anti-
Israel activity plays in increasing anti-Semitism. We concur and 
applaud Romano Prodi's statement that ``This must be recognized for 
what it is and properly addressed.'' The U.S. can and must continue to 
play a leadership role in insuring that others follow suit:

  <bullet> The U.S. must continue to address the nature and source of 
        the problem squarely. There has been progress but the problem 
        will grow until European leaders do more to speak out and to 
        counter Middle Eastern sources of anti-Semitism flowing into 
        Europe. U.S. diplomacy has been the vital tool for promoting 
        and rewarding morally responsible action and to call 
        governments on their shortcomings. This continues to be an 
        uphill battle and continued U.S. leadership is essential.

  <bullet> The U.S. must work to secure condemnation of the new anti-
        Semitism in forums like the OSCE, UN, and EU. Explicit 
        recognition and condemnation is still lacking. Bucking this 
        trend will require U.S. diplomatic muscle. Our EU allies should 
        be much more supportive of U.S. efforts in the UN to pass a 
        resolution condemning anti-Semitism.
II. The Need for Greater Monitoring
    Considering the challenge of building political will, it is no 
surprise that there is a lack of appropriate monitoring. It is critical 
that governments come together to create a common language and process 
for data collection, as well as appropriate training of those empowered 
to collect the data. Without this we cannot comprehensively describe 
the problem nor find mechanisms for correcting it.
    The value of monitoring has many layers. The very process of data 
collection is a powerful mechanism to confront violent bigotry. 
Increased public awareness of data collection, promotes reporting. 
Studies have repeatedly shown that victims of hate crimes are more 
likely to report the crime if they know that a special reporting system 
is in place. Moreover, the more crimes reported, the better informed 
the public becomes of the extent of the problem and thus the more 
demand for a solution and/or a willingness to be part of the solution.
    In this particular area, the U.S. has great expertise to lend. The 
U.S. truly leads in hate crime data collection, as well as in the 
training of those responsible for it. Far more than mere statistics, 
the U.S. Hate Crime Statistics Act has increased public awareness of 
the problem and sparked meaningful improvements in the local response 
of the criminal justice system to hate violence. Police officials have 
come to appreciate the law enforcement and community benefits of 
tracking hate crime and responding to it in a priority fashion. Law 
enforcement officials can advance police-community relations by 
demonstrating a commitment to be both tough on hate crime perpetrators 
and sensitive to the special needs of hate crime victims. By compiling 
statistics and charting the geographic distribution of these crimes, 
police officials may be in a position to discern patterns and 
anticipate an increase in racial tensions in a given jurisdiction.
    The violence of the last two years has underscored the need for 
stronger monitoring as well as highlighting some of the failures of 
existing mechanisms. The EUMC just released a new report this past week 
which we welcomed. But it comes a year after another report was held up 
because of concerns that the results of the survey would anger local 
immigrant populations who were identified as the perpetrators. Even 
following the international furor around this controversy, the EUMC 
felt pressure to sanitize their findings in the new report. The report 
contained many of the elements we hoped to see but the EUMC press 
release down played the critical element of the anti-Semitism in 
Europe, and led with the conclusion that ``. . . the largest group of 
the perpetrators of anti-Semitic activities appears to be young, 
disaffected white Europeans.'' It called the young Muslims from North 
Africa ``a further source.'' And their press office succeeded. Indeed, 
the resulting headlines in newspapers across the world were that anti-
Semitism had increased, and that disaffected white Europeans were 
responsible. The ``new'' nature of anti-Semitism, and the changing 
profile of the perpetrator from exclusively extreme right white males 
to Muslim immigrant youths was missing.
    The U.S. should promote/strongly urge the following:

  <bullet> Nations should adopt comprehensive hate crime data 
        collection laws and provide training to appropriate law 
        enforcement professionals in how to identify, report, and 
        respond to hate crimes.

  <bullet> Governments should fund national assessments of hate 
        violence, its causes, the prevalence of the problem in state 
        schools, the characteristics of the offenders and victims, and 
        successful intervention and diversion strategies for juveniles. 
        There is a direct connection between identifying the nature of 
        the problem and identifying appropriate educational initiatives 
        to address the problem.

  <bullet> OSCE Monitoring. The OSCE Office for Democratic Institutions 
        and Human Rights (ODIHR) has been tasked by OSCE ministers with 
        serving as a ``collection point'' for data on anti-Semitic 
        incidents and other hate crimes. Since so many OSCE 
        participating states have no data collection laws or 
        mechanisms, it is vital that OSCE take a much more proactive 
        approach to encourage states to institute these mechanisms. 
        OSCE could follow up with states and find ways--perhaps through 
        a publication--to put forward a common data collection model 
        and guidelines for law enforcement.

  <bullet> Enhance U.S. Reporting. The efforts of the U.S. to raise 
        international awareness about this problem have been singular 
        in their importance and effectiveness. U.S. reporting on anti-
        Semitism as a human rights and religious freedom issue is an 
        indispensable tool in spotlighting the problem as well as a 
        tool for diplomacy. As with any reporting which originates in 
        embassies around the world, it varies from place to place. In 
        order to bolster the quality and consistency of reporting on 
        anti-Semitism, Congress should ask the State Department to 
        require explicit reporting on the nature of the problem and 
        assess government responses to it.
III. Hopes for Success at the OSCE Berlin Conference
    Against this backdrop of challenges, we have high hopes that the 
upcoming OSCE conference in Berlin will be a success. While we are 
encouraged by the attention and focus of the U.S. and the Secretary of 
State, we hope Secretary Powell's schedule will allow him to attend to 
convey the importance we already know he attaches to this issue--an 
ingredient we feel will help to insure success. We would define success 
as having the following components:

  <bullet> The meeting must condemn the ``new'' anti-Semitism in the 
        most accurate, honest way possible. Given the European 
        atmosphere as I've described it, this is an essential component 
        of success.

  <bullet> The meeting must result in concrete action. We are pleased 
        that the suggestions on format and substance of workshops 
        advanced by the NGOs at this table, as well as by Senator 
        Voinovich, have been incorporated into the conference program. 
        We hope the meeting will end with a concrete program of action 
        by OSCE as an institution and individual participating states.

  <bullet> Out of the meeting must come a defined framework for follow 
        up. While perpetual meetings are not an answer in and of 
        themselves, long term follow up is vital as long as the problem 
        persists. Berlin must be the launch of a follow up mechanism 
        within OSCE. In addition to ensuring that anti-Semitism is on 
        the OSCE annual Human Dimension Implementation Meeting agenda, 
        we hope it will spark follow up cooperation among officials 
        with responsibility for key areas such as Interior Ministers, 
        and Education Ministers. By establishing Ministerial work-
        groups and by defining their challenges and responsibilities, 
        the framework for follow up will exist.

IV. Promising Practices
    In the spirit of the action-oriented tone of this discussion today, 
I would like to use my time today to focus on a few of the programs 
which experience has shown hold out great hope for success in Europe 
today. I would be pleased to discuss them in more detail if you have 
questions, and have attached a checklist of ADL programs that have been 
identified as ``promising practices'' by governments and NGOs in the 
fight against racism and xenophobia, as an appendix to this statement. 
These run the gambit of programs implemented in Germany in response to 
hate crimes against Turkish Muslim immigrants in the early 1990s to 
others that address interfaith issues and Holocaust education. The 
appendix also notes formal evaluation information where available.
    Programmatic responses and/or proactive practices must include:

  <bullet> Anti-Bias Education. This is an essential building block of 
        combating hatred. History has shown that, when people of 
        conscience are given tools and skills to recognize and combat 
        bigotry, prejudice and discrimination, they will do so. We know 
        that people are not born to hate--they learn to hate. And, if 
        we learn it, so might we ``un-learn it'' or prevent the initial 
        learning from taking place to begin with. Senators should urge 
        parliaments to use schools as a staging ground for Anti-Bias 
        Education. Governments must act now to provide on-going Teacher 
        Training in the use of Anti-Bias Education curricula and 
        methodologies as well as providing opportunities to empower 
        students through Peer Training programs. Research has shown 
        that from the age of 3-5 years-old when children begin to 
        recognize differences and form attitudes based on their 
        perceptions of differences, to the college and university level 
        where intergroup understanding is critical to fostering a 
        successful learning environment, anti-bias education is 
        necessary to equip students with the skills and confidence 
        which enable them to confront prejudice, to become activists 
        against bigotry and to serve as agents for change. Validated by 
        the University of Pennsylvania's Graduate School of Education, 
        the ADL A World of Difference Institute has delivered programs 
        to over 450,000 U.S. teachers, training them in how to confront 
        their own biases as well as how to use specially designed 
        curricular materials. Further, this program has been exported 
        to eight European countries, as well as to Argentina, Japan, 
        states of the Former Soviet Union and Israel. The Institute's 
        Peer Training program is currently in use across the U.S. as 
        well as in Austria, Belgium (in French & in Flemish), France, 
        Germany, Greece, Italy, Luxembourg, The Netherlands, Portugal, 
        Spain and The United Kingdom.

  <bullet> Government Sponsored Showcases of ``Promising Practices.'' 
        As the populations of European countries become more diverse 
        through immigration, the need to promote tolerance, respect and 
        understanding becomes greater, especially for young people. 
        Governments should host ``showcases of Best Practices'' of 
        school-based anti-bias education programs, including peer 
        leadership programs, as well as non-school based programs. 
        These will allow for maximum exposure of working methods as 
        well as for exploration of how member countries might adapt 
        these to their specific country culture.

  <bullet> Holocaust Education. As we have all repeatedly acknowledged, 
        crimes against humanity such as the Holocaust, serve as grim 
        reminders of where intolerance can lead if permitted to 
        flourish and of the absolute necessity that it be stopped. 
        Congress should continue to support the work of the 
        International Task Force on Holocaust Education. 
        Parliamentarians should seek to implement Holocaust curricula 
        in public schools to draw upon the lessons of this tragic 
        period to illuminate the importance of moral decision.

  <bullet> Working with Religious Institutions. In the U.S., ADL's 
        Bearing Witness Program for Religious Educators helps teachers 
        examine anti-Semitism and the Holocaust as a starting point for 
        addressing issues of diversity in contemporary society. Its 
        goal is to successfully implement Holocaust education in 
        religious schools. In order to do this effectively, teachers 
        work to confront and to acknowledge the history of the 
        Holocaust including the role of Churches and other religious 
        institutions. This program is a collaborative effort between 
        ADL, the Archdiocese, and the U.S. Holocaust Memorial Museum. 
        Initially offered only in Washington, DC, the program has now 
        expanded and will be offered in five U.S. cities this summer.

  <bullet> Law Enforcement Training. As so many of countries grapple 
        with their changing demographics, tensions amongst and between 
        various ethnic, racial and religious groups are only further 
        exacerbated by law enforcement professionals who lack strong 
        intergroup skills, cultural understanding, familiarity with the 
        concept of a hate crime, and the skills with which to 
        investigate and/or report on a crime of hate. Beyond training 
        in hate crimes response and investigation, anti-bias education 
        for law enforcement professionals helps develop cross cultural 
        skills and communication in order to enhance officer 
        effectiveness and safety by building cooperation and trust with 
        diverse communities. Institutions like the OSCE's Law 
        Enforcement Training arm, EU Law Enforcement Training Centers 
        and the U.S. FBI training academy in Budapest provide 
        opportunities for such training programs. The FBI Law 
        Enforcement Training Academy in Budapest should institute an 
        anti-bias training component as well as hate crime 
        identification, investigation and monitoring training programs. 
        An institution like the OSCE law enforcement arm is well poised 
        to issue publications describing the nature of anti-Semitism 
        today with the goal of helping governments and law enforcement 
        agencies know it when they see it. In Austria, ADL has been 
        contracted to provide such training ultimately to every law 
        enforcement professional in the entire country. Relying on a 
        turn-key model, under the direction of the minister of the 
        Interior, training has been implemented already for 8% of all 
        law enforcement professionals throughout Austria. In Russia, 
        ADL has provided training as part of the ``Climate of Trust'' 
        hate crime training program for law enforcement.

  <bullet> Responding to Racism and Hate Crimes in the Armed Forces. 
        Ministries of Defense should provide anti-bias and prejudice 
        awareness training for all recruits and military personnel, 
        improve procedures for screening out racist recruits, and 
        clarify and publicize existing prohibitions against active duty 
        participation in hate group activity.

  <bullet> Replicate Similar Action in Other Parliaments. So many 
        important initiatives against anti-Semitism have originated in 
        hearings like this and are advanced by Members of Congress 
        moved by their convictions to take action. The challenge is how 
        to replicate this activity abroad. Let other parliaments do as 
        Congress has done, convene hearings like this one, pass 
        resolutions against anti-Semitism, set up caucuses like the 
        Helsinki Commission or the Congressional Task Force Against 
        Anti-Semitism in the House and develop national action plans to 
        combat it.
Conclusion
    The last few years of dealing with the new anti-Semitism has posed 
the painful question, how far have we come, have we learned the lessons 
of the Holocaust? The answer is certainly a work in progress. It is 
being written in hearing rooms like this, and in the hearts and minds 
of all who were touched by it.
    When reports of ethnic cleansing in Bosnia first emerged ADL ran 
ads with a simple understated message--respond as you wish the world 
had responded . . . the meaning was clear. We never thought we would be 
saying the same with respect to anti-Semitism in Europe. Now we are 
asking, respond as you wish the world had responded the last time. You, 
the Senate, the U.S., have answered the call admirably.
    We hope that your work, your commitment, and initiatives like those 
I've outlined will command the day. We hope the answer will be 
dramatically different than it was the last century.

    [Additional material submitted by Ms. Stern is located in the 
Appendix to this hearing.]

    Senator Allen.  Ms. Stern, thank you so much for your 
compelling testimony. The Holocaust Museum is an example of 
teaching history, but also the lesson I have received from it 
and why I am focusing on this is that whenever anti-Semitism, 
church burnings, racism appears, it is incumbent upon elected 
leaders to condemn it, so that the population, the people who 
we serve, recognize that it is not to be tolerated. I think I 
speak for all the members who are present here. So thank you 
for your testimony.
    We would now like to hear from Rabbi Baker.
    Rabbi, thank you for being with us this afternoon.

  STATEMENT OF RABBI ANDREW BAKER, DIRECTOR OF INTERNATIONAL 
           JEWISH AFFAIRS, AMERICAN JEWISH COMMITTEE

    Rabbi Baker. Senator Allen, Senator Voinovich, Senator 
Sarbanes, thank you for this opportunity to be here to speak 
again to this subcommittee on an issue that you have addressed 
and taken up again, itself a recognition of the seriousness and 
importance that it deserves.
    I would, if I may, like to submit my full written testimony 
for the record and here provide a more abbreviated version of 
it.
    Senator Allen.  It is so ordered. Thank you.
    Rabbi Baker. Let me suggest what may be a conceptual 
framework with which to look at the problem today and then 
speak of how European leaders and European institutions are 
responding to it. In essence, I think we have observed in these 
recent years an increase in anti-Semitism in Europe. And one 
can see it generated from three general sources.
    The first is drawn from those traditional elements on the 
right of the political spectrum. These include the activities 
of neo-Nazis, skinheads and other xenophobic and nationalist 
groups, which have a persistent, but limited, danger to Jews 
and other minorities in Europe. This is the hate that most 
governments know. They are aware of them. They have been 
roundly condemned. Police and law enforcement agencies have had 
experience in dealing with them.
    Many Western European countries with legislation against 
racial and anti-Semitic incitement have the tools to combat 
them, or at least to keep them in check. Jews are not alone in 
being targeted and are often not the primary focus of such 
groups. Of parallel concern is, will these elements achieve a 
degree of political cohesion? Will they manifest themselves in 
the electoral arena?
    Most notably, we have witnessed over the years the staying 
power of certain right-wing parties, such as the National Front 
in France and the Freedom Party in Austria, whose racist and 
xenophobic appeals regularly flirt with anti-Semitism as well.
    Admittedly, their political obituaries have been written 
over the years and have been proven premature. But at the same 
time, their reach and their influence does seem to be limited. 
Mainstream political parties in Western Europe have either 
ostracized them or kept them at arm's length. The same, 
however, cannot yet be said for Central and Eastern European 
leaders.
    The second source of attention has been the violent anti-
Semitic attacks that have originated primarily from Arab and 
Muslim populations in certain European countries. Almost absent 
before September 2000, they have paralleled the breakdown of 
the peace process in the Middle East and events of the ``second 
Intifada'' in Israel and the Palestinian territories. In some 
countries, notably France, Belgium, and the United Kingdom, 
Arab and Muslim youth have been identified as the major source 
of physical attacks. Usually governments are reluctant to 
acknowledge the specific anti-Semitic nature of these events.
    There are two reasons why a clear and candid recognition of 
the problem was delayed. In the first instance, the European 
establishment viewed these incidents not as anti-Semitism, but 
as some unfortunate outburst of the Middle East conflict on 
European soil. However, European leaders were late in 
recognizing that not only anti-Israeli, but an anti-Semitic 
ideology, has taken hold of a growing number of Arab and Muslim 
residents in Europe.
    There are not only graphic images of Israeli soldiers 
attacking Palestinians broadcast on satellite television from 
the Arab world, but there is also a steady flow of traditional 
anti-Semitic rhetoric, a recycling of Nazi-like propaganda that 
is available to Arab viewers in Europe.
    Along with this you find in neighborhood mosques and 
madrasas sermons and lectures, in which Jews, not Israelis, are 
painted as the enemy. The Middle East conflict may well have 
fueled this new outbreak of anti-Semitism, but it cannot be 
blamed for it altogether.
    Additionally, the Arab and Muslim attacks on Jewish targets 
reveal a much deeper problem. In fact, they have posed a 
challenge to the basic assumptions of immigrant absorption and 
the acculturation in much of Europe. In France, it has meant a 
potential rupture in its strong secular tradition that eschews 
ethnic and religious separatism. In Great Britain, it has 
brought into question the tradition of tolerance that has 
offered protection to minorities and security to their 
communities.
    In Germany, it has derailed efforts at immigration reform, 
a particular concern of three million Turkish residents. To be 
sure, this would be a daunting challenge for the European 
Union, whose Arab and Muslim population now numbers between 15 
and 20 million, even if it could ignore altogether its anti-
Semitic component.
    The third element that defines this problem is, in effect, 
one which European leaders have had the most difficulty 
acknowledging. It is a new anti-Semitism in which Jews and the 
State of Israel have become a special target, a target of an 
untraditional array of groups, who may see themselves as 
``forces for good'' battling globalization, racism, and 
American domination in the world today.
    The U.N. conference in Durban, South Africa, three years 
ago was perhaps the most notable example of how a gathering 
intended to fight racism could give rise to some of the worst 
anti-Semitic invective. Those expressions of hostility in which 
Israel is labeled a racist state, in which Jews everywhere are 
held accountable for its crimes, have been regularly repeated 
on the European continent from mass demonstrations to parlor 
room gatherings.
    Well beyond the bounds of legitimate criticism, the Jewish 
state is vilified and demonized. For those Europeans opposed to 
the American-led war in Iraq, and you know there are many, 
Israel and the Jewish lobby in Washington are sometimes painted 
as the sinister manipulators of U.S. policy. In such fashion 
are anti-Americanism and anti-Semitism routinely linked.
    Because of the politically charged nature of the debate 
over the Iraq war, because of the distaste that many Europeans 
have for Israeli Prime Minister Ariel Sharon, it is quite often 
difficult to show that a line has been crossed and legitimate 
criticism, however sharp and vigorous, has given way and become 
another manifestation of anti-Semitism.
    Now it has not been an easy task to convince European 
leaders that they confront a serious problem, but there has bee 
progress. In June of last year, in Vienna, as has been noted, 
the OSCE held the first conference in its history devoted 
exclusively to the problem of anti-Semitism. Had it not been 
for the U.S. Government, and more particularly to pressure from 
members of Congress on an initially ambivalent administration, 
that conference would not have taken place.
    Many Europeans, although they appeared to acknowledge that 
anti-Semitism had become a problem in transatlantic relations, 
were still hesitant to admit that it was a real problem in and 
of itself. The success of the Vienna Conference was an 
agreement to hold a second follow-up conference in Berlin at 
the end of this month.
    We have witnessed over these past months some clear 
improvement, some clear progress, in this problem. It has 
already been cited that the Government of France, initially 
reluctant to even admit to a problem, has taken very strong 
steps. A policy of zero tolerance espoused by its interior 
minister has dramatically reduced the number of anti-Semitic 
incidents. We have seen public solidarity expressed for the 
Jewish community by the President of France and by other 
national leaders, the creation of a special commission, efforts 
to quell the anxiety that many French Jews have experienced, 
while also responding to critics from abroad.
    We have also heard remarks from European Union leaders, 
such as Javier Solana and Romano Prodi, that have sought to 
address and at least acknowledge the seriousness of the 
problem. It has been referenced already that the European Union 
Monitoring Center had commissioned its first report on anti-
Semitism in 2002 and then chose not to release it. In doing so, 
they announced they would undertake a new report, which has 
just been released to the public a week ago in Strasbourg.
    In that report, it clearly documents the increase in the 
intensity of the anti-Semitic incidents in five countries in 
Europe: Belgium, France, Germany, the Netherlands, and the 
United Kingdom. However, it notes the extreme difficulty in 
finding reliable data in a majority of European Union 
countries. In fact, several have no provisions at all for the 
collection of any form of hate crime information.
    The EU Monitoring Center also published a report based on 
personal interviews with Jewish leaders and Jewish 
representatives in eight countries of Europe. These 
impressionistic and subjective views of the problem record in 
essence what Jewish antennae pick up today, not only the 
empirical data of incidents, but also a sense of the public 
mood and the political discourse, and they are never far 
removed from the historical context of the Holocaust and post-
war reconstruction.
    They describe a more troubling situation, where 
considerations of emigration and questions about the future of 
Jewish communal life are part of the daily conversations. Thus, 
in summation, that report states, ``Probably no other 
historical community of our continent has been subject to such 
a large scale of vexatious practices, symbolical aggressions, 
and violent attacks, which affect the moral and physical 
integrity of its members, the normal exercise of their 
citizenship, the security of its community buildings and 
institutions, its image, its beliefs, its history, and its 
solidarity structures, as is the case for the Jews.''
    Now to its credit, the Monitoring Center has not shied away 
from asserting that anti-Zionist and anti-Israeli expressions 
can also constitute a form of anti-Semitism. In particular, the 
report asserts that when traditional anti-Semitic stereotypes 
are applied to the State of Israel, such is the case. Thus, 
depictions of Israel as a deceitful force, as a conveyor of 
international conspiracies, as acting for base or crooked 
motives, would, by this description, constitute manifestations 
of anti-Semitism. It may not be as complete a definition as 
some of us would wish, but it is an important step forward, 
particularly considering how many people wish to avoid the 
subject altogether.
    Now, Senator Voinovich, I know you will be going to Berlin 
as part of the official delegation to the OSCE conference. 
Others of us will be there as well. It will be important at 
that occasion for the U.S. Government to address European 
leaders directly and to press for clear and tangible steps to 
combat anti-Semitism.
    I believe these should include establishment of a 
comprehensive and ongoing process to monitor and collect data 
on anti-Semitic and other hate crimes. Recognition that some of 
the most virulent expressions of anti-Semitism today emanate 
from the Arab world and their dissemination within Europe must 
be curtailed. Acknowledgment that anti-Israeli expressions, 
including the demonization and vilification of the Jewish 
State, constitute a new form of anti-Semitism. And development 
of an operative definition of anti-Semitism, in consultation 
with experts in Europe, in Israel, and the United States, that 
can be employed by governments and intergovernmental 
institutions, such as the OSCE and the EU, in the areas of 
monitoring, law enforcement, and education.
    Most of the attention given to the subject of anti-Semitism 
in Europe today and the main focus of my presentation has been 
on developments in Western Europe. It is true that some of the 
most troubling manifestations have by and large not 
materialized in Central and Eastern Europe. But it would be a 
mistake to conclude that anti-Semitism does not pose any 
problem for these countries.
    I have discussed that matter in my written report. And I am 
prepared also to address the subject, if and when there is an 
opportunity for questions and discussion.
    In conclusion, we are witness to contradictory 
developments. Some are deeply troubling while others provide us 
with reasons to be hopeful. On a continent which witnessed the 
destruction of two-thirds of its Jewish population 60 years ago 
and which today is still home to tens of thousands of Holocaust 
survivors, any resurgence of anti-Semitism is shocking. We had 
thought there was a permanent inoculation to this virus, but we 
were mistaken. A taboo has been lifted.
    At the same time, European leaders, who have successfully 
reconciled their own national conflicts, realize that the 
current challenge is to battle the forces of racism, 
xenophobia, and anti-Semitism that lie within their borders. 
The active involvement of the American Government is not only a 
means of prodding them into action, sometimes necessary, but 
seldom appreciated, it is also a tangible expression of a 
shared commitment that we have to common values and common 
goals.
    Thank you very much.
    Senator Allen.  Thank you so much, Rabbi Baker, for your 
strong testimony.

    [The prepared statement of Rabbi Baker follows:]

                Prepared Statement of Rabbi Andrew Baker

    I would like to thank the members of the subcommittee for the 
opportunity to offer testimony today. This is not the first hearing 
this subcommittee has held on the subject, nor my first occasion to sit 
before you. The ongoing interest and concern that is reflected in your 
actions are also a reflection of the seriousness of the problem. In my 
presentation, I shall focus primarily on the discernable trends in the 
manifestations of anti-Semitism today in Western Europe as well as on 
the responses of European leaders and institutions.
    During these past several years we have observed an increase in 
anti-Semitism in Europe that is generated from three general sources.

                  TRADITIONAL SOURCES OF ANTI-SEMITISM

    The first is drawn from the traditional elements on the right of 
the political spectrum. These include the activities of neo-Nazis and 
skinheads and other xenophobic and nationalist groups, which have been 
a persistent but limited danger to Jews and other minorities in Europe. 
Their activities range from shouting epithets at football games to the 
desecration of cemeteries and synagogues to physical attacks on 
persons. Governments are aware of them; political and social forces 
roundly condemn their activities; and police and law enforcement 
agencies have had experience in dealing with them. Many Western 
European countries, with legislation against racial and anti-Semitic 
incitement, have the tools to combat them or, at least, keep them in 
check. Jews are not alone in being targeted and are often not the 
primary focus of such groups, whose anger is generated by the pace of 
modernity in Europe, the growing number of immigrants and the 
diminution of nationalist identities within the European Union.
    Of parallel concern is where these elements achieve a degree of 
political cohesion and manifest themselves in the electoral arena. Most 
notably we have witnessed the staying power of certain right wing 
parties, such as the National Front in France and the Freedom Party in 
Austria, whose racist and xenophobic appeals regularly flirt with anti-
Semitism, as well. Their political obituaries that have been written 
over the years have been proven premature, but at the same time their 
reach and influence seems to be limited. Mainstream political parties 
in Western Europe have either ostracized them or kept them at arm's 
length. The same cannot (yet) be said for Central and Eastern Europe.

          ARAB AND MUSLIM PROPONENTS OF ANTI-JEWISH HOSTILITY

    The second area of attention has been the violent anti-Semitic 
attacks that have originated primarily from the Arab and Muslim 
populations in certain European countries. Almost absent before 
September 2000, they have paralleled the breakdown of the peace process 
in the Middle East and the events of the second Intifadah in Israel and 
the Palestinian territories. In some countries--notably France, Belgium 
and the United Kingdom--Arab and Muslim youth have been identified as 
the major source of physical attacks against Jews and Jewish sites. 
Initially, governments were reluctant to acknowledge the specific, 
anti-Semitic nature of these events. The former Socialist government of 
France even maintained that synagogues and Jewish schools were not a 
special target of what was otherwise deemed youthful vandalism.
    There were two reasons why a clear and candid recognition of the 
true nature of the problem was delayed. In the first instance, the 
European establishment viewed these incidents not as anti-Semitism, but 
as unfortunate outbursts of the Middle East conflict on European soil. 
In the past, European synagogues had been targets of Palestinian 
terrorists, and Jews had been the occasional victims of anti-Israel 
demonstrators. However, European leaders were late in recognizing that 
not only an anti-Israeli, but an anti-Semitic ideology has taken hold 
of a growing number of Arab and Muslim residents in Europe. There are 
not only graphic images of Israeli soldiers attacking Palestinians 
broadcast on satellite television from the Arab world. But there is 
also a steady flow of traditional anti-Semitic rhetoric and a recycling 
of Nazi-like propaganda available to Arab viewers in Europe. 
Neighborhood mosques and madrassas often feature sermons and lectures 
in which Jews, not Israelis, are painted as the enemy. The Middle East 
conflict may well have fueled the new outbreak of anti-Semitism, but it 
cannot not be blamed for it altogether.
    Additionally, the Arab and Muslim attacks on Jewish targets 
revealed a much deeper problem that European leaders did not want to 
confront. In fact, they have posed a challenge to the basic assumptions 
of immigrant absorption and acculturation. In France this has meant a 
potential rupture in its strong secular tradition that eschews ethnic 
and religious separatism. In Great Britain it has brought into question 
the tradition of tolerance that has offered protection and security to 
minorities. In Germany, it has derailed efforts at immigration reform, 
a particular concern of the three million Turkish residents. To be 
sure, this would be a daunting challenge for the European Union, whose 
Arab and Muslim population now numbers between 15 and 20 million, even 
if it could ignore its anti-Semitic component.

                        A ``NEW'' ANTI-SEMITISM

    The third element that defines the problem of anti-Semitism in 
Europe today is certainly the one which European leaders have had the 
most difficulty acknowledging. It is a ``new'' anti-Semitism in which 
Jews and the State of Israel have become a special target of an 
untraditional array of groups, who seem themselves as ``forces for 
good'' battling globalization, racism, and American domination in the 
world today. The UN Conference in Durban, South Africa three years ago 
was perhaps the most notable example of how a gathering intended to 
fight racism could give rise to some of the worst anti-Semitic 
invective. Those expressions of hostility, in which Israel is labeled a 
``racist'' state and Jews everywhere are held accountable for its 
``crimes,'' have been regularly repeated on the European continent from 
mass demonstrations to parlor room gatherings. Well beyond the bounds 
of legitimate criticism, the Jewish State is vilified and demonized.
    For those Europeans opposed to the American-led war in Iraq (and 
there are many), Israel and the ``Jewish lobby'' in Washington are 
sometimes painted as the sinister manipulators of U.S. policy. One 
Berlin newspaper, which published an article that focused primarily on 
the Jewish background of key figures such as Richard Perle, Paul 
Wolfowitz and Elliot Abrams, saw fit to illustrate it with a photo of 
President Bush meeting in the Oval Office with a group of bearded, 
black-robed Orthodox rabbis. In such fashion are anti-Americanism and 
anti-Semitism routinely linked. Because of the politically charged 
nature of the debate over the Iraq war and the Middle East conflict, 
and the distaste that many Europeans have for Israeli Prime Minister 
Ariel Sharon, it is often quite difficult to show that a line has been 
crossed and legitimate criticism--however sharp and vigorous--has 
become another manifestation of anti-Semitism.

           RECOGNITION OF THE PROBLEM BY EUROPEAN LEADERSHIP

    It has not been an easy task to convince European leaders that they 
confront a serious problem of anti-Semitism, let alone to press them to 
take the necessary measures to combat it. But, there has been progress. 
The problem, at least to a limited degree, is now acknowledged, and 
governments are beginning to act.
    In June of last year in Vienna the Organization on Security and 
Cooperation in Europe (OSCE) organized the first conference in its 
history devoted exclusively to the problem of anti-Semitism. Until that 
time the subject, if it was addressed at all, was usually subsumed 
under the more general category of ``racism, xenophobia, intolerance, 
etc.'' In fact, it was rarely mentioned, but left to be inferred from 
the catchall ``et cetera'' at the end. Had it not been for the U.S. 
Government (and, more particularly, for the pressure of Congress on an 
initially ambivalent administration) that conference would have not 
have taken place. Many Europeans, although they were prepared to 
acknowledge that anti-Semitism was a problem in transatlantic 
relations, were still hesitant to admit that it was a real problem in 
and of itself. The ``success'' of the Vienna conference was an 
agreement, requiring consensus of the 55 member nations of the OSCE, to 
hold a second, follow-up conference, which will take place at the end 
of this month in Berlin. In the intervening months, we have witnessed a 
growing recognition that the problem is real.
    Much attention, for obvious reasons, has focused on France. It has 
the largest Jewish community in Europe (estimated at 600,000) and it 
has witnessed the greatest number of attacks on Jewish targets. 
Increased security and a ``zero tolerance'' policy espoused by a tough 
interior minister have dramatically reduced these numbers. Public 
expressions of solidarity with the Jewish community by the French 
President and other national leaders and the creation of a special 
commission on anti-Semitism have sought to quell the anxiety that many 
French Jews have experienced while also responding to critics from 
abroad.
    In recent months, several prominent EU leaders, including High 
Commissioner for Foreign and Security Policy Javier Solana and 
Commission President Romano Prodi have spoken publicly in Brussels 
about the seriousness of the problem and seemed to have distanced 
themselves--at least in tone--from earlier pronouncements to the 
contrary.

                EUROPEAN UNION MONITORING CENTRE REPORTS

    In 2002 the European Union Monitoring Centre on Racism and 
Xenophobia (EUMC) commissioned its first report on anti-Semitism, which 
was conducted by researchers at the Center for Research on Anti-
Semitism in Berlin. The EUMC board, citing flaws in its 
``methodology,'' decided not to release the study. Since the report 
identified both European media coverage of the Middle East conflict and 
Arab and Muslim community agitation as sources for the resurgence in 
anti-Semitic violence, it was widely presumed that political 
considerations were the real reason for its suppression. The EUMC 
Director used the occasion of the Vienna Conference last June to 
announce that the Centre would undertake a new, comprehensive survey of 
anti-Semitism in the EU, using its own resources and reporters.
    That report (Manifestations of Anti-Semitism in the EU 2002-2003 ) 
was issued last week. It is thorough and detailed and, wherever 
available, draws on collected data for the years 2002 and 2003. In 
particular, it identifies an increase in the intensity of anti-Semitic 
incidents in five countries--Belgium, France, Germany, the Netherlands, 
and the UK. In several other countries--Ireland, Luxembourg, Portugal 
and Finland--it reports little evidence of any increase. However, the 
collection of reliable data is a serious problem in a majority of EU 
countries. Several have no provisions for the collection of any hate 
crime information in general, let alone singling out anti-Semitic 
incidents. In a number of cases, the EUMC has relied solely on asking 
Jewish community leaders for their recollections of past events.
    The EUMC has also published a summary report (Preceptions of Anti-
Semitism in the European Union ) based on personal interviews with 35 
Jewish leaders and observers in eight countries. These impressionistic 
and subjective views of the problem record what Jewish antennae pick up 
today--not only the empirical data of incidents, but also a sense of 
the public mood and political discourse--and are never far removed from 
the historical context of the Holocaust and post-war reconstruction. 
They describe a more troubling situation, where considerations of 
emigration and questions about the future of Jewish communal life are 
part of the daily conversation. Thus, in summation the report states:

          Probably no other historical community of our continent has 
        been subject to such a large scale of vexatious practices, 
        symbolical aggressions and violent attacks, which affect the 
        moral and physical integrity of its members, the normal 
        exercise of their citizenship, the security of its community 
        buildings and institutions, its image, its beliefs, its history 
        and its solidarity structures as is the case for the Jews.

    To its credit, the EUMC has not shied away from asserting that 
anti-Zionist and anti-Israeli expressions can also constitute a form of 
anti-Semitism. In particular, the report asserts that, when traditional 
anti-Semitic stereotypes are applied to the State of Israel, such is 
the case. Thus, depictions of Israel as a deceitful force, as a 
conveyor of international conspiracies, as acting for base or crooked 
motives, would by this description constitute manifestations of anti-
Semitism. It may not be as complete a definition as some would wish, 
but it is an important step forward, particularly considering how many 
people wish to avoid the subject altogether.
    In undertaking its study, the EUMC made use of its network of 
national focal points in each of the fifteen member countries. It is 
disconcerting to note that six of them do not even have an explicit 
definition of anti-Semitism; and of the nine which do, there is no 
single definition held in common.

                  RECOMMENDATIONS FOR AMERICAN ACTION

    In three weeks time the U.S. Government will have the opportunity 
to address European leaders directly at the OSCE Conference in Berlin. 
On that occasion it will be important to press for clear and tangible 
steps to combat anti-Semitism. These should include:

  <bullet> Establishment of a comprehensive and ongoing process to 
        monitor and collect data on anti-Semitic and other hate crimes;

  <bullet> Recognition that some of the most virulent expressions of 
        anti-Semitism today emanate from the Arab world and their 
        dissemination within Europe must be curtailed;

  <bullet> Acknowledgement that anti-Israeli expressions, including the 
        demonization and vilification of the Jewish State, constitute a 
        new form of anti-Semitism; and

  <bullet> Development of an operative definition of anti-Semitism--in 
        consultation with experts in Europe, the United States and 
        Israel--that can be employed by governments and 
        intergovernmental institutions such as the OSCE and the EU in 
        the areas of monitoring, law enforcement and education.

             FACING PROBLEMS IN CENTRAL AND EASTERN EUROPE

    Most of the attention given to the subject of anti-Semitism in 
Europe today--and the main focus of this presentation--has been on 
developments in Western Europe. It is true that some of the most 
troubling manifestations have by and large not materialized in Central 
and Eastern Europe. But, it would be a mistake to conclude that anti-
Semitism does not pose any problem for these countries. Jewish 
communities in this region are small in number. (There are more Jews 
today in metropolitan Washington than in the territory between Paris 
and Kiev.) They are still in the process of reestablishing themselves 
after the Holocaust and the fall of Communism, but it is not easy. 
Those experiences have made many Jews reluctant even today to admit 
their Jewish identity. Efforts to reclaim Jewish communal property that 
had been seized by the Nazis and nationalized by the Communists have 
met with limited success in most of these countries, but rarely without 
igniting the criticism of populist candidates, who see political gain 
through anti-Semitism.
    There can be little doubt that the process of NATO enlargement and 
the close involvement of the United States with the evolution of the 
new member states provided a unique opportunity to press for concrete 
steps in the fight against anti-Semitism and the revival of Jewish 
communal life. By way of example, only within the last year we have 
witnessed the Government of Slovakia paying compensation for Jewish 
assets looted by the wartime Slovak state, the President of Romania 
establishing an international historical commission to examine the 
heretofore taboo subject of the Holocaust in that country, and the 
Prime Minister of Lithuania speaking out and his public prosecutor 
bringing charges against a newspaper publisher for printing anti-
Semitic articles. Such developments are still not commonplace, but they 
are positive and important signals to small Jewish communities.

                            CLOSING COMMENTS

    In conclusion, we are witness to contradictory developments--some 
are deeply troubling, while others provide us with reasons to be 
hopeful. On a continent which witnessed the destruction of \2/3\ of its 
Jewish population sixty years ago and which is today still home to tens 
of thousands of Holocaust survivors, any resurgence of anti-Semitism is 
shocking. We had thought there was a permanent inoculation to this 
virus, but we were mistaken. A taboo has been lifted.
    At the same time, European leaders, who have successfully 
reconciled their own national conflicts, realize that the current 
challenge is to battle the forces of racism, xenophobia and anti-
Semitism that lie within their borders. The active involvement of the 
American Government is not only a means of prodding them into action--
sometimes necessary but seldom appreciated--it is also the tangible 
expression of a shared commitment to common values and goals.
    Thank you.

    Senator Allen.  We are now joined by Senator Sarbanes of 
Maryland, who does have another pressing matter that he needs 
to get to. So I would like to recognize you, Senator Sarbanes, 
for any comments or insights you would want to share.
    Senator Sarbanes.  Well, Mr. Chairman, thank you very much. 
I did hear both Ms. Stern and Rabbi Baker. But regrettably, I 
have another conflicting engagement, as is wont to happen 
around here. I just wanted to say, first to commend you very 
strongly, Mr. Chairman, for scheduling this important hearing, 
in a way at a particularly appropriate time. This, after all, 
is the week of Passover, which marks the escape of the Jewish 
people from bondage in Egypt. The State of Israel very shortly 
will mark its 56th anniversary of its founding, its 
independence. And next week we observe Holocaust Remembrance 
Day.
    I share very deeply the concern that, Mr. Chairman, you and 
Senator Voinovich and others have expressed about the 
resurgence of anti-Semitism. It is very deeply troubling to 
read, for instance, in Maariv after they looked at two recent 
EU monitoring committee reports that 60 years after the 
Holocaust it is once again difficult for Jews to live in 
Europe.
    We obviously need to be resolute and united in our 
determination to get to the root of this ugly and destructive 
phenomenon, which as Stephen Byers observed in an article in 
The Guardian, ``Anti-Semitism is like a virus and it mutates.''
    I just want to make this observation: To be sure, anti-
Semitism is an emergent threat Jewish communities, to Jewish 
families, to Jewish life wherever it appears. But it is also a 
threat to us all. Nathan Sharansky, Israel's Minister of the 
Diaspora and Jerusalem Affairs, made this point simply but 
eloquently not long ago when he said, ``History has proved that 
anti-Semitism always starts with the Jews but never ends with 
them. When anti-Semitism persists, the well-being of all our 
people is at risk.''
    I very much appreciate the witnesses coming to be with us 
today. I want to assure them this is a matter of very deep 
concern to members of this committee. And again, Mr. Chairman, 
I thank you for the leadership you have shown in convening 
these sessions and in closely monitoring and following this 
important issue. Thank you very much.
    Senator Allen.  Thank you, Senator Sarbanes, for your great 
leadership and concern and insight on this over the years. When 
we were on the floor, he said, ``Gosh, will that hearing still 
be going on?'' I said, ``Yes. We would love to hear from you.'' 
Thank you again for your leadership and your concern.
    Now, the final witness, Mr. Mariaschin.

  STATEMENT OF MR. DAN MARIASCHIN, EXECUTIVE VICE PRESIDENT, 
                   B'NAI B'RITH INTERNATIONAL

    Mr. Mariaschin. Mr. Chairman, I would like to thank you for 
convening this meeting and for the privilege of addressing this 
committee on behalf of B'nai B'rith International and its more 
than 110,000 members and supporters. I ask that the full text 
of my remarks be entered into the record.
    Senator Allen.  So ordered.
    Mr. Mariaschin. As Executive Vice President of B'nai 
B'rith, an American-based organization with members in more 
than 50 countries around the world, I have viewed the 
resurgence of anti-Semitism in Europe the past three and a half 
years with anguish and alarm.
    In my 16 years at B'nai B'rith, dating back to the period 
prior to the fall of the Berlin Wall, I have visited Europe 
regularly to help protect the rights of Jewish communities on 
that continent. While anti-Jewish sentiment was still apparent 
in the half century that followed World War II, today Europe is 
experiencing a degree of anti-Semitism I have not seen in my 
adult lifetime. And the re-emergence of this ugly historical 
phenomenon has left European Jewry feeling more vulnerable and 
disillusioned than at any point since the Holocaust.
    Mr. Chairman, the past three and half years has witnessed 
hundreds of aggressive, often violent, acts targeting Jewish 
individuals and institutions in Europe. These manifestations of 
Jew hatred are rooted in a historical anti-Semitism that has 
plagued Europe for 2,000 years. The long-standing accusation by 
the church that Jews were guilty of deicide fueled anti-
Semitism for centuries. This theologically based anti-Semitism 
then gave way to the ethnocentric nationalism of the 19th and 
20th centuries, which held that Jews were racially inferior 
and, regardless of their efforts to integrate, inherently 
disloyal to the state because of their ethnic distinctiveness.
    The by-now familiar anti-Semitism of Europe's elite has 
been given new life by negative public attitudes toward the 
Middle East conflict and by the struggle for Holocaust 
restitution as well. These problematic issues have provided 
anti-Semites with the intellectual fodder to rationalize and 
legitimate their views to their own satisfaction.
    Against this backdrop of traditional anti-Semitism, the 
pronounced growth of Europe's Arab and Muslim population is 
notably occurring. It is an increase in numbers, perhaps 20 
million residing in the 15 states of the European Union, and in 
ideological radicalization. In Europe, these communities have 
immediate and regular access to Arabic language cable TV 
networks like Al Jazeera, print publications, and Internet 
sites, all of which offer predictably one-sided inflammatory 
coverage of the Arab-Israeli conflict.
    These outlets employ primitive Jewish stereotypes in 
services of their anti-Zionist message, often borrowing symbols 
and motifs from Nazi propaganda so as to evoke the virulent 
anti-Semitism of Der Sturmer. Thus, one sees images of Jews as 
ghoulish, even Satanic caricatures with misshapen noses, and of 
Israelis bearing swastikas or drinking the blood of children, 
Meanwhile, Arabic editions of Mein Kampf sell briskly in London 
and other European capitals.
    The radicalization of some Europeans Arabs and Muslims has 
dovetailed with the rise of the far right, whose standard-
bearers, such as France's Jean-Marie Le Pen and Austria's Joerg 
Haider, are generally anti-immigrant and anti-Muslim. Their 
nationalist rhetoric has often features what many consider to 
be anti-Semitism, however. And their message of opposition to 
European enlargement and integration is threatening to Jews, 
who, like other ethnic and religious minorities, are 
considerably discomfited by the parochialism and xenophobia of 
these right-wing movements.
    Even as right-wing extremism inspires fear among European 
Jews, the far left is creating further apprehension with the 
intensification of its anti-Israel vitriol. Many on that side 
of the spectrum, politicians and journalists, have joined labor 
unions, non-governmental organizations, and human rights 
activists, in polemical assaults on Israel that exceed the sort 
of legitimate policy critiques normally expected in democratic 
societies.
    The decision by European Commission President Romano Prodi 
to cosponsor a seminar on anti-Semitism in Brussels in February 
was welcomed by those of us who look to European officials to 
demonstrate leadership on this issue. Still, much more, much 
more, remains to be done. The fact that a draft resolution on 
racism recently introduced at the United Nations Human Rights 
Commission in Geneva just last week omitted any reference to 
anti-Semitism as a form of discrimination is one reminder of 
the problem to be overcome.
    Sadly, many officials in Europe persist in viewing anti-
Semitism as purely a political phenomenon. Once the Middle East 
conflict is resolved or at least subsides, violence against 
European Jewry will also diminish, they reason. They have 
refused to accept the severity of the problem and fail to speak 
out against anti-Semitism with an intensity and a conviction 
that the current situation demands.
    Former Swedish Deputy Prime Minister Per Ahlmark is one 
leader who has recognized the importance of combating anti-
Semitism and condemning it forcefully. Unfortunately, now that 
the problem is more acute than it has been in decades, few 
major officials in Europe--German Foreign Minister Joschka 
Fischer and France's former Interior Minister and newly 
appointed Finance Minister, Nicolas Sarkozy, are two notable 
exceptions--have been able to replicate the level of commitment 
that Ahlmark has demonstrated during his years of public 
service.
    A conference convened by the Organization of Security and 
Cooperation in Europe in Vienna last summer represented a 
welcome attempt by European officials, in cooperation with 
their American counterparts, to address the growing problem of 
anti-Semitism. The follow-up conference in Berlin later this 
month will be a further positive step.
    We hope that the Berlin gathering will result in ongoing 
mechanisms to combat anti-Semitism. For example, interior, 
justice, and education ministers might begin to cooperate 
regularly on issues, such as law enforcement and tolerance 
training. Furthermore, the OSCE's Office for Democratic 
Institutions and Human Rights, ODIHR, which has been referenced 
several times before in this hearing, should institute a 
process for collecting data on anti-Semitic acts and should 
issue an annual report on its findings.
    Much to his credit, Senator Voinovich yesterday introduced 
legislation that would require the State Department to document 
anti-Semitic acts around the world. We thank the Senator for 
his strong leadership on this issue and hope that European 
officials will follow his timely example, especially now, just 
a couple of weeks in advance of the Berlin meeting.
    A report released just last week by the European Monitoring 
Center on Racism and Xenophobia, also mentioned before, has 
reaffirmed the sense of Jewish groups that European officials 
have not fully committed and confronted, rather, the sources of 
anti-Semitism. After the EUMC provoked intense criticism last 
year by suppressing a previous report identifying Muslim 
radicals and left-wing pro-Palestinian supporters as the main 
sources of the new anti-Semitism, the new study makes scant 
reference to those antagonists, focusing instead of the role of 
right-wing groups.
    The failure of the report to speak honestly about the 
actual instigators and the current onslaught of anti-Semitism 
prompted one prominent European Jewish leader to ask, ``How can 
we effectively fight anti-Semitism when we refuse to identify 
the true perpetrators?''
    At a roundtable discussion following the presentation of 
the EU report, German legislator Ilke Schroeder stressed the 
Israel-related dimension of European anti-Semitism, which the 
study also minimized. According to Schroeder, who represents 
Germany in the European Parliament, the growth of anti-Semitism 
can be attributed in part to the ``EU policy against Israel'' 
and ``anti-Zionist propaganda in the European public.''
    Schroeder's remarks point to a truth that is too often 
ignored in Europe, that while criticism of any government's 
policy should always be expected in the democratic world, 
Israel is subjected to a double standard under which criticism 
of the Jewish state far oversteps the parameters invoked for 
all other governments, both democratic and autocratic, whose 
policies might come under international scrutiny.
    Indeed, the relentless stream of anti-Israel invective that 
often originates in the Middle East, but consistently finds it 
way into European society, goes considerably beyond legitimate 
policy debate. Such polemical attacks employ overheated, 
hateful rhetoric and, all too often, classic anti-Semitic 
images and stereotypes.
    Mr. Chairman, there can be little doubt that one-sided and 
unremittingly hostile attacks on Israel have contributed to a 
climate, much as we have witnessed at the World Conference 
Against Racism in Durban in 2001, in which the Jewish state is 
demonized and presented as a pariah among the nations. A sense 
of balance and historical accuracy must be restored. A poll 
released by the European Commission last fall underscored the 
severity of the problem, as the survey found that nearly 60 
percent of Europeans believe that Israel is a greater threat to 
world peace than North Korea, Iran, or Syria.
    And since many European leaders still cannot accept the 
gravity of present circumstances, they need to hear often and 
emphatically from U.S. officials, in the administration and in 
Congress, that anti-Semitism is again a serious problem in 
Europe, one that they must address. The United States has a 
great deal of positive influence at its disposal and must be 
encouraged to use it.
    The most recent round of NATO enlargement, formalized at a 
White House ceremony last week, has provided an example of the 
constructive role the U.S. can play with regard to this matter. 
Thanks to America's determined insistence over the past decade, 
governments in Central and Eastern Europe came to understand 
that they needed to begin properly addressing problems related 
to their Holocaust-era past before they could take their place 
under the NATO umbrella.
    For example, several of the new NATO members have taken 
positive steps in the area of Holocaust education and 
commemoration, and have either joined or applied to join the 
Task Force for International Cooperation and Holocaust 
Education, Remembrance, and Research. As the ten Central and 
Eastern European countries that have undergone the NATO 
admission process take their place among the democratic family 
of nations and as NATO continues to expand, the U.S. and the 
governments of these countries must remain vigilant and guard 
against the possibility that progress on Holocaust-related 
issues will stall. America should work with those governments 
to vigorously combat anti-Semitism and to encourage their 
efforts at Holocaust restitution and memory, which are still 
ongoing.
    At the same time, the European Union should hold EU-
aspirant countries to the highest possible standard as that 
structure prepares to enlarge at the beginning of next month. 
Germany, the host country for the upcoming OSCE conference and 
the country with the greatest awareness of the Holocaust and 
the dangers of anti-Semitism, could have a special 
responsibility in this regard. And through its membership in 
NATO and the OSCE, its seat at the table of multi-lateral 
organizations centered in Europe, the U.S. should urge all EU 
member states to make the problem of anti-Semitism a top 
priority.
    As we celebrate the 350th anniversary of the American 
Jewish community this year, we would do well to remember and 
take great pride in the words of George Washington, who wrote 
to the Hebrew Congregation of Newport, Rhode Island in 1790. 
President Washington unequivocally declared, ``The government 
of the United States gives to bigotry no sanction, to 
persecution no assistance.'' He continued, ``May the Children 
of the Stock of Abraham, who dwell in this land, continue to 
merit and enjoy the good will of the other inhabitants, while 
everyone shall sit in safety under his own vine and fig tree, 
and there shall be none to make him afraid.''
    Washington's message of tolerance has been a glowing 
inspiration to American Jews for more than 200 years. As we 
have drawn steady comfort from the knowledge that our 
government, in the earliest years of our country's history, 
took a clear stand against anti-Semitism and warmly offered our 
community a level of support and protection that, sadly, our 
European counterparts have never enjoyed.
    Mr. Chairman, the history of European Jewry in the past 
century is a tragic one. With anti-Semitism now at its greatest 
peak since the most tragic of all human episodes, the 
Holocaust, let us be mindful of this history. Let us speak out. 
Let us use our influence. And let us act now. History demands 
nothing less.
    Thank you.
    Senator Allen.  Thank you.

    [The prepared statement of Mr. Mariaschin follows:]

               Prepared Statement of Daniel S. Mariaschin

    Mr. Chairman, I would like to thank you for the privilege of 
addressing this committee on behalf of B'nai B'rith International and 
its more than 110,000 members and supporters.
    As Executive Vice President of B'nai B'rith, an American-based 
organization with members in more than 50 countries around the world, I 
have viewed the resurgence of anti-Semitism in Europe the past three 
and a half years with anguish and alarm.
    In my 16 years at B'nai B'rith, dating back to the period prior to 
the fall of the Berlin Wall, I have visited Europe regularly to help 
protect the rights of Jewish communities on that continent. While anti-
Jewish sentiment was still apparent in the half century that followed 
World War II, today Europe is experiencing a degree of anti-Semitism I 
have not seen in my adult lifetime, and the reemergence of this ugly 
historical phenomenon has left European Jewry feeling more vulnerable 
and disillusioned than at any point since the Holocaust.
    Mr. Chairman, the past three and a half years has witnessed 
hundreds of aggressive, often violent, acts targeting Jewish 
individuals and institutions in Europe.
    In Switzerland earlier this year, Arab students attacked a Jewish 
researcher in a campus elevator at the University of Geneva.
    In Hungary 16 months ago, more than 100 skinheads interrupted a 
Chanukah candle-lighting ceremony in downtown Budapest for over an hour 
with shouts of ``Hungary is for Hungarians, and it is better that those 
who are not Hungarians leave.''
    In Ukraine, 50 youths marched two miles to attack a synagogue in 
Kiev, where they beat the principal of the Lubavitch yeshiva and the 
son of the Chief Rabbi.
    In France, where the problem has been particularly acute, scores of 
synagogues and Jewish day schools have been firebombed and desecrated. 
The French Jewish Community reported 125 anti-Semitic acts and 463 
anti-Semitic threats in 2003 alone.
    In Belgium, where politically motivated legal proceedings (now 
dismissed) were brought against Israeli Prime Minister Ariel Sharon, 
the Chief Rabbi and a friend were assaulted and spit upon by a gang as 
they left a restaurant.
    In Denmark, a widely circulated newspaper called Jutland Posten ran 
an advertisement featuring a radical Islamic group's offer of a $35,000 
reward for the murder of a prominent Danish Jew.
    In Germany, morbid reminders of the Holocaust have appeared in the 
form of slogans like ``Six million is not enough,'' which was scrawled 
on the walls of synagogues in both Berlin and Herford, while Jewish 
memorials in Berlin have been defaced with swastikas. Last fall 
parliamentarian Martin Hohmann delivered an appalling anti-Semitic rant 
to his constituents, in which he referred to Jews as a ``race of 
perpetrators.''
    In Greece and Spain, newspapers have inundated their readers with 
anti-Semitic editorials and cartoons comparing Israeli military 
operations to the Holocaust and likening Prime Minister Sharon to 
Adolph Hitler. Such polemics have reached a fevered pitch, 
characterized by the Greek Jewish Community as ``hysteria and anti-
Semitism'' masquerading as mere criticism of Israeli Government policy.
    These manifestations of Jew-hatred are rooted in a historical anti-
Semitism that has plagued Europe for two thousand years. The long-
standing accusation by the Church that Jews were ``Christ-killers'' 
fueled anti-Semitism for centuries. This theologically-based anti-
Semitism gave way to the ethno-centric nationalism of the 19th and 20th 
centuries, which held that Jews were racially inferior and, regardless 
of their efforts to integrate, inherently disloyal to the state because 
of their ethnic distinctness.
    The by-now familiar anti-Semitism of Europe's elite has been given 
new life by negative public attitudes toward the Middle East conflict, 
and by the struggle for Holocaust restitution, as well. These 
problematic issues have provided anti-Semites with the intellectual 
fodder to rationalize and legitimate their views to their own 
satisfaction. Comments such as the reference by a former French 
ambassador to Britain, who used a shocking expletive to describe Israel 
at a London cocktail party, or the criticism by a Swiss politician of 
``international Judaism'' in the wake of negotiations with Swiss banks 
over Holocaust-era assets and accounts, could be seen as examples of 
this trend. Or the words of a Liberal member of Britain's House of 
Lords: ``Well, the Jews have been asking for it and now, thank God, we 
can say what we think at last.''
    Against this backdrop of traditional anti-Semitism, the pronounced 
growth of Europe's Arab and Muslim population is notably occurring. It 
is an increase in numbers--perhaps 20 million people residing in the 15 
states of the European Union--and in ideological radicalization. France 
alone has six million inhabitants with roots in the Maghreb region of 
North Africa; much of the rampant anti-Jewish violence in France has 
been committed by individuals who count themselves among this 
population.
    In Europe, these communities have immediate and regular access to 
Arabic-language cable TV networks like Al Jazeera; print publications; 
and Internet sites, all of which offer predictably one-sided, 
inflammatory coverage of the Arab-Israeli conflict. These outlets 
employ primitive Jewish stereotypes in service of their anti-Zionist 
message, often borrowing symbols and motifs from Nazi propaganda so as 
to evoke the virulent anti-Semitism of Der Sturmer. Thus, one sees 
images of Jews as ghoulish, even satanic, caricatures with misshapen 
noses, and of Israelis bearing swastikas or drinking the blood of 
children. Meanwhile, Arabic editions of Mein Kampf sell briskly in 
London and other European capitals.
    The radicalization of some of Europe's Arabs and Muslims has 
dovetailed with the rise of the far right, whose standard-bearers--such 
as France's Jean Marie Le Pen and Austria's Joerg Haider--are generally 
anti-immigrant and anti-Muslim. Their nationalist rhetoric has also 
often featured anti-Semitism, however, and their message of opposition 
to European enlargement and integration is threatening to Jews, who, 
like other ethnic and religious minorities, are considerably 
discomfited by the parochialism and xenophobia of these right-wing 
movements.
    Even as right-wing extremism inspires fear among European Jews, the 
far left is creating further apprehension with the intensification of 
its own anti-Israel vitriol. Left-wing politicians and journalists have 
joined labor unions, non-governmental organizations, and human rights 
activists in polemical assaults on Israel that exceed the sort of 
legitimate policy critiques normally expected in democratic societies. 
Their dogma, reflexively accepted in much of Europe, begins with the 
premise that in the Middle East conflict the Palestinians are the 
victims and Israel their brutal persecutor. This view has led the 
Norwegian Confederation of Trade Unions, for example, to call for a 
national boycott of Israeli products, as well as a ban on official 
contacts between union members and Israeli representatives. Meanwhile, 
a similar anti-Israel and anti-Jewish fervor caused the ironically-
named World Conference Against Racism in Durban, South Africa in 2001 
to degenerate from a high-minded, principled gathering into an ugly, 
anti-Semitic hate-fest.
    The decision by European Commission President Romano Prodi to co-
sponsor a seminar on anti-Semitism in Brussels last month was welcomed 
by those of us who look to European officials to demonstrate leadership 
on this issue. Still, much more remains to be done. The fact that a 
draft resolution on racism recently introduced at the United Nations 
Human Rights Commission in Geneva omitted any reference to anti-
Semitism as a form of discrimination is one reminder of the problem to 
be overcome.
    Sadly, many officials in Europe persist in viewing anti-Semitism as 
purely a political phenomenon; once the Middle East conflict is 
resolved or at least subsides, violence against European Jewry will 
also diminish, they reason. They have refused to accept the severity of 
the problem, and failed to speak out against anti-Semitism with an 
intensity and a conviction that the current situation demands. Former 
Swedish Deputy Prime Minister Per Ahlmark is one leader who has 
recognized the importance of combating anti-Semitism and condemning it 
forcefully. Unfortunately, now that the problem is more acute than it 
has been in decades, few current officials in Europe--German Foreign 
Minister Joschka Fischer and France's former Interior Minister and 
newly-appointed Finance Minister, Nicolas Sarkozy, are two notable 
exceptions--have been able to replicate the level of commitment that 
Ahlmark has demonstrated during his public service.
    A conference convened by the Organization for Security and 
Cooperation in Europe in Vienna last summer represented a welcome 
attempt by European officials, in cooperation with their American 
counterparts, to address the growing problem of anti-Semitism; the 
follow-up conference in Berlin later this month will be a further 
positive step. We hope that the Berlin gathering will result in ongoing 
mechanisms to combat anti-Semitism. For example, interior, justice, and 
education ministers might begin to cooperate regularly on issues such 
as law enforcement and tolerance training. Furthermore, the OSCE's 
Office for Democratic Institutions and Human Rights (ODIHR) should 
institute a process for collecting data on anti-Semitic acts and should 
issue an annual report on its findings. Much to his credit, Senator 
Voinovich today introduced legislation that would require the State 
Department to document anti-Semitic acts around the world. We thank the 
Senator for his strong leadership on this issue and hope that European 
officials will follow his timely example.
    A report released just last week by the European Monitoring Center 
on Racism and Xenophobia, however, has affirmed the sense of Jewish 
groups that European officials have not fully confronted the sources of 
anti-Semitism. After the EUMC provoked intense criticism last year by 
suppressing a previous report identifying Muslim radicals and left-wing 
pro-Palestinian supporters as the main sources of the ``new anti-
Semitism,'' the new study makes scant reference to Muslim antagonists, 
focusing instead on the role of right-wing groups. The failure of the 
report to speak honestly about the actual instigators in the current 
onslaught of anti-Semitism prompted one prominent European Jewish 
leader to ask, ``How can we effectively fight anti-Semitism when we 
refuse to identify the true perpetrators?''
    At a roundtable discussion following the presentation of the EU 
report, German legislator Ilke Schroeder stressed the Israel-related 
dimension of European anti-Semitism, which the study also minimized. 
According to Schroeder, who represents Germany in the European 
Parliament, the growth of anti-Semitism can be attributed in part to 
the ``EU policy against Israel'' and ``anti-Zionist propaganda in the 
European public.''
    Schroeder's remarks point to a truth that is too often ignored in 
Europe: That while criticism of any government's policies should always 
be expected in the democratic world, Israel is subjected to a double-
standard, under which criticism of the Jewish state far oversteps the 
parameters invoked for all other governments--both democratic and 
autocratic--whose policies might come under international scrutiny. 
Indeed, the relentless stream of anti-Israel invective that often 
originates in the Middle East but consistently finds its way into 
European society goes considerably beyond legitimate policy debate. 
Such polemical attacks employ overheated, hateful rhetoric and, all too 
often, classic anti-Semitic images and stereotypes. One astounding 
example of such vitriol aired on Gaza Palestine Satellite TV less than 
a month ago, when a prominent Palestinian cleric said of the Israeli-
Palestinian conflict, ``Here are the Jews today taking revenge for 
their grandfathers and ancestors, the sons of apes and pigs. Here are 
the extremist Jews demanding their rights . . . This is the extremist 
tendency of Jews. They are extremists and terrorists who deserve death, 
while we deserve life, since we have a just cause.''
    Mr. Chairman, there can be little doubt that one-sided and 
unremittingly hostile attacks on Israel have contributed to a climate--
much as we witnessed at the World Conference Against Racism in Durban 
in 2001--in which the Jewish state is demonized and presented as a 
pariah among the nations. A sense of balance and historical accuracy 
must be restored. A poll released by the European Commission last fall 
underscored the severity of the problem, as the survey found that 
nearly 60 percent of Europeans believe that Israel is a greater threat 
to world peace than North Korea, Iran, or Syria.
    And since many European leaders still cannot accept the gravity of 
present circumstances, they need to hear often and emphatically from 
U.S. officials, in the administration and in Congress, that anti-
Semitism is again a serious problem in Europe, one that they must 
address. The United States has a great deal of positive influence at 
its disposal, and must be encouraged to use it.
    The most recent round of NATO enlargement, formalized at a White 
House ceremony last week, has provided an example of the constructive 
role that the U.S. can play with regard to this matter. Thanks to 
America's determined insistence over the past decade, governments in 
Central and Eastern Europe came to understand that they needed to begin 
properly addressing problems related to their Holocaust-era past before 
they could take their place under the NATO umbrella. For example, 
several of the new NATO members have taken positive steps in the areas 
of Holocaust education and commemoration, and have either joined or 
applied to join the Task Force for International Cooperation on 
Holocaust Education, Remembrance, and Research.
    As the 10 Central and Eastern European countries that have 
undergone the NATO admission process take their place among the 
democratic family of nations, and as NATO continues to expand, the U.S. 
and the governments of those countries must remain vigilant and guard 
against the possibility that progress on Holocaust-related issues will 
stall. America should work with those governments to vigorously combat 
anti-Semitism and encourage their efforts at Holocaust restitution and 
memory.
    At the same time, the European Union should hold EU-aspirant 
countries to the highest possible standard as that structure prepares 
to enlarge at the end of this month. Germany, the host country for the 
upcoming OSCE conference and the country with the greatest awareness of 
the Holocaust and of the dangers of anti-Semitism, could have a special 
responsibility in this regard. And through its membership in NATO and 
the OSCE--its ``seat at the table'' of multilateral organizations 
centered in Europe--the U.S. should urge all EU member-states to make 
the problem of anti-Semitism a top priority.
    As we celebrate the 350th anniversary of the American Jewish 
community this year, we would do well to remember and take great pride 
in the words of George Washington, who wrote to the Hebrew Congregation 
of Newport, Rhode Island in 1790. President Washington unequivocally 
declared, ``The government of the United States . . . gives to bigotry 
no sanction, to persecution no assistance.'' He continued, ``May the 
Children of the Stock of Abraham, who dwell in this land, continue to 
merit and enjoy the good will of the other inhabitants, while everyone 
shall sit in safety under his own vine and fig tree, and there shall be 
none to make him afraid.'' Washington's message of tolerance has been a 
glowing inspiration to American Jews for more than 200 years, as we 
have drawn steady comfort from the knowledge that our government, in 
the earliest years of our country's history, took a clear stand against 
anti-Semitism and warmly offered our community a level of support and 
protection that, sadly, our European counterparts have never enjoyed.
    Mr. Chairman, the history of European Jewry in the past century is 
a tragic one. With anti-Semitism now at its greatest peak since the 
most tragic of all human episodes, the Holocaust, let us be mindful of 
this history. Let us speak out; let us use our influence; and let us 
act now. History demands nothing less from us.
    Thank you.

    Senator Allen.  Being a Jefferson scholar and since 
Jefferson was the author of the statute of religious freedom, 
the first freedom, I always like hearing from good Virginians. 
And I may adopt and view that George Washington quote. That is 
good.
    I know Senator Voinovich only has a few minutes. So I am 
going to turn it over to Senator Voinovich for questions that 
he may wish to pose to you all.
    Mr. Levin, can you stay with us for five minutes?
    Mr. Levin. Yes.
    Senator Allen.  You both have about the same amount of 
time.
    Senator Voinovich.  We are on the same schedule.
    Senator Allen.  Proceed, Senator Voinovich.
    Senator Voinovich.  Just a general comment is that 
underlying everything that has been said here, Mr. Mariaschin, 
about your observations, underscores how important this 
conference coming up in Berlin is going to be in terms of all 
of the concerns that you have expressed here today. And we have 
to make sure that when we leave there, it fulfills our 
expectations, and we really get something done.
    In that regard, I have been very impressed with words about 
programs such as Climate of Trust. And I would really 
appreciate if I could have a list of all the various programs 
that are being executed around the world and their receptivity 
and their success. Because one of the really neat things that 
we can do when we go over to Berlin is to highlight the 
programs that are really making a difference and use them as 
benchmarks.
    I will say that our effort is making some real inroads. Mr. 
Levitte, who is the French ambassador, came to see me a couple 
of weeks ago to talk to me directly about what France is trying 
to do in terms of stepping up to the table and realizing they 
have a problem and something needs to be done. I notice that 
Abe Foxman did have something nice to say, although he said 
there is anti-Semitism that is of crisis proportion in France, 
so that there is no time to relax.
    I think that is really it. I think that we have this 
wonderful opportunity to make a difference, and we should 
certainly take advantage of it. I am also interested in working 
with all of you on the whole issue of what we are doing here in 
the United States. I think, as I mentioned to Beth Jones, that 
it is much easier for us to come to others and ask others to do 
things that we are doing right here in the United States of 
America. I hope this legislation I introduced passes, and that 
this is the kind of thing that is instituted in those 
respective countries.
    Mr. Chairman, I want to thank you, and I want to thank the 
witnesses for coming here today. I look forward to seeing you, 
many of you, in Berlin.
    Senator Allen.  Thank you, Senator Voinovich. And thank 
goodness you are going to be one of the key leaders from our 
country, advocating our principles in Berlin. There is no doubt 
that this is a great opportunity. There is a great deal of 
meaning to that if one thinks of all that has transpired in 
that city from the days of the Nazis to the days of it being 
divided between freedom and the Communist world with the Berlin 
Wall. The Germans are to be commended for hosting the 
conference there. It is not easy for them to remember, but they 
do and should, as we all should.
    And so, I know you have to leave, Senator Voinovich.
    Senator Voinovich.  Thank you, Mr. Chairman.
    Senator Allen.  Mr. Levin, I know you have to catch your 
flight.
    Mr. Levin. Thank you, Mr. Chairman, for the opportunity 
again.
    Senator Allen.  Thank you.
    Let me just conclude with these few observations and maybe 
finish with a question to you all. There are certain threads 
that always come through hearings. The value of a hearing like 
this is to have everyone recognize that your testimony, your 
insight, your perspectives, and that of the United States 
Senate, on this issue is one that is of concern to the people 
of the United States.
    This bolsters the cause of the delegation, which really 
will be carrying on those Jeffersonian principles of individual 
freedom to Berlin as we share with our friends and allies the 
ways that we are going to be trying to measure and improve and 
make sure that this virus that we call anti-Semitism, if it is 
afflicting someone, that it is cured quickly and does not 
spread. It may be a virus that is never cured, but you can 
contain it as best you can and say that it is not acceptable.
    When you are talking about going on a practical level, and 
I always think what gets measured gets better, number one, you 
have to deplore things--the words, the rhetoric, all of that is 
important to speak from one's heart. That motivates and 
inspires people. But then one needs to also measure. Otherwise 
all you do get is rhetoric.
    Many of you all mentioned how the monitoring, the common 
definitions, the approaches. A lot of what people like to do is 
say, all right, where are the incidents? And the incidents and 
the anti-Semitic actions do not come from just one group. This 
virus afflicts people from all sorts of backgrounds, all sorts 
of religions, or no religion.
    We had a hearing in this subcommittee just recently, I 
guess it was last week. And it had to do with the aftermath of 
the terrorist bombings in Madrid, Spain, and what was that 
impact on the war on terrorism and what were the Europeans 
doing as far as their own counterterrorism efforts and how we 
do need to work with our European friends to intercept the 
finances of terrorists, how we have to share information of 
where they are going and so forth.
    But even in something as deadly as terrorism there is not 
uniformity. They are French, they are German, they are Danes, 
they are--well, maybe not Danes in it. But regardless, they are 
different countries. They are all different languages. Sure, 
the Swiss speak three different ones, but the point is this 
sort of effort for law enforcement, even in counterterrorism, 
the Europeans are not there yet. They have different justice 
systems. They are trying to maybe harmonize it. They do have 
the sharing of some criminal information. That is not 
consistent with law enforcement in each one of the countries.
    I am not saying this as an excuse, but it is something 
that, as one examines things, you learn and realize that as we 
try to get this monitoring and a common definition and a common 
or an accepted crime reporting system, it is a challenge for 
the whole European Union and one that, as that goes forward, I 
think will actually help in the measurement of progress.
    But once you have accurate reporting, then you can then 
determine, all right, what was the punishment, what were the 
sanctions. That is assuming that someone was caught. But if a 
crime was committed, how many were solved, and then what was 
the punishment.
    So I thank you all for bringing this up. I think we are 
actually taking steps in the right direction in this country. 
And I think for the most part, not in every single case, but 
for the most part, in Europe they are taking the right steps. 
It is not there yet, but in the right direction.
    But which ones, what measurements or what sort of specific 
ideas do you think would be achievable to result in measurable 
reductions in the incidents of anti-Semitism? Let us start with 
you, Rabbi.
    Rabbi Baker. Senator, I think you have identified one of 
the clear challenges, or clear problems, that is faced, even 
within the European Union and its current 15 members. As we 
have seen in this Monitoring Center report, not only is there 
no common definition of anti-Semitism, in the center's own 
fifteen focal points in each of these countries, six of them 
have no operative definition of anti-Semitism whatsoever. Of 
the nine that do, they themselves report that there is not a 
single definition that is held in common.
    Now at the end of this month, we will see ten new members 
joining the European Union. One can be certain they are not out 
there recording these data and incidents. And when we approach 
the subject in Berlin as full members of the OSCE, I think we 
can also recognize the OSCE does not even have an office that 
until now has accepted the mandate that it should be dealing 
with these issues.
    Presumably, ODIHR will now do this. This was the result of 
the Maastricht decision at the end of the last calendar year. 
But surely, not much will happen unless it is really pushed. 
This is so critical, I think, because there is a circular 
problem. We have said, going back several years now, to 
European leaders, there is a problem of anti-Semitism in 
Europe. Their first response to us was, ``Well, we don't see 
it.'' Well, one of the reasons they did not see it was there 
was no mechanism for recording it.
    Add to this the additional problem that many Jews in 
European countries have good historical reason for being 
suspect of the ability of their own governments and their own 
governmental institutions to really look after their needs and 
their concerns. So this is yet again something that needs to be 
overcome.
    I think that we can, throughout the process of the OSCE and 
taking advantage of the conference in Berlin, demand that other 
countries join together to provide also the same kind of 
reporting and data collection that we are doing, that some 
European Union countries are doing, that its Monitoring Center 
is asking all of them to do, and that should now be broadened 
to encompass these 55 nations and to put real teeth into what 
ODIHR itself is being asked to do, as an ongoing institution to 
monitor, collect, and analyze the incidents of anti-Semitism 
and other manifestations of hate crimes in these countries.
    Perhaps one way to try and ensure that it is clearly 
defined and focused would be to ask for a special rapporteur to 
deal with the issue of anti-Semitism, or at least some clear, 
responsible individual or office within that structure that 
will, as Ms. Stern mentioned, address anti-Semitism in Europe.
    We have noted that in most of the international 
declarations, declarations of intergovernmental groups such as 
the OSCE, they speak of condemning intolerance, racism, 
xenophobia, et cetera, et cetera. All too often, we have 
recognized anti-Semitism is simply the term left in the et 
cetera. It is time to really make it front and center the 
recognized problem we know it to be.
    Senator Allen. Good. Just adding the phrase ``anti-
Semitism,'' I can imagine how you could debate endlessly and 
just say, well, that is certainly included in there, along with 
hatred. Good point. If you can actually get that agreed upon, 
that would be a significant success.
    You know, in this country, if there was an anti-Semitic 
action, if somebody desecrated a Jewish synagogue or a 
cemetery--and this has happened in Virginia--who are people 
going to call? One of you posed this rhetorical question. In 
this country, I think they would call, if it happened in 
Richmond or Henrico County, they would call the local police. I 
guarantee you they would not be calling some federal agency.
    It may be eventually that the local sheriff's office or 
police office would get with the state police. And then to the 
extent you would maybe want to, you would get the FBI involved. 
But I think the reality of it, as you get into some of these 
practical matters, that is going to have to get figured out in 
a lot of areas for crimes and crime reporting in Europe. You 
have hit on something that I think will be measurable. If anti-
Semitism is added to that list of deplorable actions, that will 
say a lot. Then whatever the laws are and the justice systems, 
whether they are under English common law or Code Napoleon, 
what they do about it obviously will be for their sovereign 
rights.
    Ms. Stern, what do you think is the number one thing that 
we could get done? We actually have about five minutes, and 
then we have to clear out.
    Ms. Stern. Short answer.
    Senator Allen.  Yes.
    Ms. Stern. I will echo what Andy said, as I think part of 
number one. And then, the second part is to make sure that when 
this conference ends there is a plan for further action. That 
there be, you know, again, one perspective, that we create 
ministerial working groups at, say, a high enough level that 
the issue does not go back to the bottom of the pile, and that 
we recognize monitoring is the first step, not the last step. 
And monitoring without education will not change the problem.
    And that we have to look at in this country, when we first 
instituted hate crimes statistic collection, we recognized 
early on that if we did not train those responsible for that 
data collection, we were not going to get accurate data 
collection. And that has been a multi-year process, probably 
best exemplified by the higher education environment, in terms 
of the reluctance to acknowledge incidents for fear that it 
would hurt them in the open marketplace, and yet there is the 
need for us to be cognizant of those events.
    We need to create systems in Europe where people will 
understand what it is that they are monitoring in order to 
effectively investigate and legislate those rules.
    Senator Allen.  Got it. We do have to have a follow-up. 
That is why I want follow-up hearings. Count me as one who will 
continue to follow up.
    You are right on education, as well. And the best way to 
measure it in education, I have found, as a former governor, 
when we put in our standards of learning in Virginia for 
English, math, science, and history, we put in the Holocaust as 
one of those parts of history that our students needed to 
learn. And if you have a standard and you have testing to make 
sure students are learning it, it will be taught.
    So, you are right on education for the young people, and, 
also, for the teachers. The teacher education and sensitivity 
is very important, as well.
    Mr. Mariaschin. Senator, I think my colleagues referenced 
something earlier, and Ms. Stern referenced it specifically, 
something as simple as a definition to come out of this OSCE 
conference, a definition of anti-Semitism. It is 
incomprehensible to me that between the end of World War II in 
1945 and until February of this year, when the EU under Prodi's 
chairmanship held this one-day seminar, there has been no 
Europe-wide definition by any of the various European groups 
over these years of what anti-Semitism is, no definition at 
all.
    Senator Allen.  Which country has a definition? I just want 
to interrupt. Which country or countries has a definition which 
you would find to be an acceptable or desirable definition?
    Mr. Mariaschin. Well, we have been working on various 
models for this. There have been various proposals in the last 
several months that have come out. And we have been working 
with the State Department and others in advance of the OSCE 
meeting to get a full definition. And a full definition to me 
would include reference to this demonization of Israel and the 
use of anti-Semitic symbols and language that relate to Israel 
because then it would take away the cover.
    So much of this anti-Semitism lies under the cover of, 
well, it is criticism of Israel, and I think that European 
leaders oftentimes have been willing to accept that because it 
is the easier path. It does not get to the anti-Semitism, which 
is inherent in it.
    So I think this need for a definition is extremely 
important. And then, of course, the monitoring and all these 
other things that have been suggested. But if we have gone 
nearly 60 years without an accepted definition, then there is 
really something wrong in Europe.
    Senator Allen.  But no country presently--and we have heard 
commentary, positive commentary, about what several countries, 
France and others, have done. Do they end up--say a desecration 
of a Jewish facility, say a synagogue or if there is an assault 
and battery on someone on account of his or her religion, then 
they just have that as an enhanced punishment, or do they have 
a definition? Does France have a definition?
    Mr. Mariaschin. I do not know if there are. I think that 
generally speaking--
    Senator Allen.  I was just thinking that--the reason I say 
that is that if you actually have one country within the 
European Union that has come up with one, just like states of 
the Union who have different, you know, definitions of certain 
crimes. And you say, well, that is a good one. We like what 
they are doing in North Carolina. Let us adopt that one. Or you 
say, gosh, look at this goofy law they have in some state; we 
certainly do not want to have that kind of law in our state. 
But--
    Rabbi Baker. Senator, the German Government does have a 
pretty extensive operative definition used by its Office for 
the Protection of the Constitution, which is the body that 
monitors and records racist, xenophobic, and anti-Semitic 
incidents and attacks. In fact, in the context of working 
together with Ambassador Minikes, we have sought to, at least 
in the first instance, take some of that language to present it 
as the possible language of a draft declaration.
    It has not met with universal acclaim, I must say, and one 
of the reasons is, parenthetically, as Dan Mariaschin has 
noted, that it does state that anti-Zionist and anti-Israeli 
expressions can also be a form of anti-Semitism. This has been 
one of the political hot potatoes, if you will, that many 
governments want to avoid, if possible.
    Senator Allen.  But Germany has that definition that even 
includes Israel or anti-Israel statements?
    Rabbi Baker. In this government agency's most recent 
report, it does provide this form of a definition. Yes.
    Senator Allen.  It seems like a first draft, so to speak. 
At least it is something established by a European country. I 
think the fact that Germany has it makes it all the more strong 
and should be more accepted by others. That is just my 
horseback reaction.
    Rabbi Baker. We think so, too. I wish it were so.
    Senator Allen.  We have not solved this virus or developed 
a cure for this virus of hatred at this hearing, but we 
certainly very much appreciate your testimony, your insight, 
and also the plan of action. I also like having hearings and 
saying: All right. What are we going to do? Need measurement, 
which means this is just kind of functionary type issues of 
process without a measurement. And that measurement, which I 
have number three, but the measurement is you ought to have a 
relatively common or consistent definition of anti-Semitism and 
make sure that definition of crimes or hate crimes includes 
anti-Semitism, as well as making sure and measuring in the 
education curriculum or standards, however they may use that 
phraseology in European countries, make sure education is 
involved, as far as the Holocaust, hatred, intolerance.
    Because, my friends, what we are fighting in this war on 
terrorism, it may be a hundred years war that we are facing, is 
one of hatred. People who are not tolerant of other people who 
have different views or religious views, in particular. Some of 
it is religious. Some of it is dictatorial. But it is 
terrorism.
    For those of us who think all people are endowed by their 
Creator with certain inalienable rights of life, liberty, and 
pursuit of happiness, so to speak, but more important freedom 
of expression, so long as you are not harming someone else, and 
certainly what we call in Virginia the first freedom, and that 
is the freedom of one's religious beliefs.
    One's rights should not be enhanced nor diminished on 
account of their religious beliefs. That is the first freedom, 
as far as I am concerned. It is one that must be protected if 
we are going to have freedom flourish throughout the world. I 
thank you all for your attention, your dedication, and your 
love of liberty.
    We are adjourned.
    [Whereupon, at 4:50 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              



            Additional Material Submitted by Caryl M. Stern,
            National Director of the Anti-Defamation League

   GLOBAL ANTI-SEMITISM: SELECTED INCIDENTS AROUND THE WORLD IN 2004

Australia
    January 5, 2004--Hobart--Vandals used poison to create anti-Semitic 
slogans on the lawns of Tasmania's Parliament House. The words ``Kill 
the Jews'' and several swastikas were burned into the lawns.

Austria
    January 18, 2004--Hinterbruehl--A Holocaust memorial was 
desecrated, with the word ``lie'' spray painted over a historical 
plaque. The memorial near Vienna is at the site of a former 
concentration camp.

Canada
    March 19-21--Toronto--A weekend-long rash of anti-Semitic vandalism 
was perpetrated on a Jewish cemetery, a Jewish school and a number of 
area synagogues. Twenty-two gravestones were overturned in the cemetery 
and other structures, such as benches and plaques, were destroyed. 
Swastikas were painted on the walls and on outside signs of the 
synagogues, along with slogans calling for death to Jews, and a number 
of windows were broken. The previous weekend, swastikas and anti-
Semitic messages were sprayed on doors, cars and garages of over a 
dozen homes in a predominantly Jewish neighborhood not far from the 
cemetery and synagogues.

France
    March 23, 2004--Toulon--A Jewish synagogue and community center was 
set on fire. According to media reports, the arsonist broke a window 
and threw a Molotov cocktail into the building. There was minor damage 
and no injuries.
    January 23, 2004--Villiers-au-Bois--Two gravestones marked with 
Stars of David were damaged in the World War I cemetery of Villiers-au-
Bois near the English Channel coast.
    January 20, 2004--Strasbourg--A parked minibus used to transport 
children to a Jewish school in the eastern French city of Strasbourg 
was burned. Police are investigating the attack as an arson.
    January 20, 2004--Strasbourg--Police reported that a group of 
assailants hurled stones at the door of a Strasbourg synagogue.
    January 20, 2004--Paris--A Jewish teenager was injured in an attack 
by Muslim youths at an ice-skating rink. The youths shouted anti-
Semitic insults at the 15-year old boy before kicking him in the head 
and jaw with ice skates.

Russia
    March 29, 2004--St. Petersburg--The city's only kosher restaurant 
had its windows broken by vandals.
    February 15, 2004--St. Petersburg--Vandals desecrated about 50 
graves in a Jewish cemetery, painting swastikas and anti-Semitic 
graffiti on headstones. Police are investigating.
    January 27, 2004--Derbent--An explosion shattered several windows 
in a synagogue in Derbent in the southern region of Dagestan.

Ukraine
    March 23-24--Odessa--Vandals broke several windows of the Osipova 
Street Synagogue. No one was injured.

                               __________
ANTI-DEFAMATION LEAGUE ``A WORLD OF DIFFERENCE'' INTERNATIONAL PROGRAMS

    The world is getting smaller. As people around the globe are 
embracing the richness of diversity, they are also facing its 
challenges. Unfortunately, social exclusion, anti-immigrant bias, 
racism, anti-Semitism and other forms of prejudice persist and are on 
the rise. Responding to this need, the ADL's A World of Difference 
Institute, working with a diverse array of private and public partners, 
has successfully adapted a number of its anti-bias education programs 
and curricular resources for an international audience of educators, 
students, law enforcement officials and community and government 
leaders. ADL's education collaborations around the globe include:

   A World of Difference Institute's First European Partner--Germany:

  ``We have adapted the program in German schools and implemented it 
        across the country with great success. ADL is one of our 
        closest and most outstanding collaboration partners . . . (and) 
        we have been able to get a detailed impression of their 
        outstanding work and highly recommend it.''--Bertelsmann 
        Foundation, Germany

    Through the generosity of the Bertelsmann Foundation, and in 
coordination with the Bertelsmann Group on Policy Research at the 
Center for Advanced Policy Research, University of Munich, the A 
Classroom of Difference program has been instituted in Teacher Training 
Institutes of eleven German Laender. This partnership, first begun in 
1995, has now reached more than 15,000 students.
    This relationship led to multi-year participation by ADL in the 
Bertelsmann International Network on Education for Democracy, Human 
Rights, and Tolerance. This network identifies best practice models 
from programs that foster education, democracy, human rights and 
tolerance around the world. The A World of Difference Institute's 
programs were profiled in the Network's book, Tolerance Matters, 
published in 2003, and The Power of Language, published in 2001.
    The A World of Difference Institute, known as Eine Welt der 
Vielfalt in Germany, maintains a broad network of trained trainers 
throughout the country, implementing not only teacher training 
programs, but also Peer Training for youth. This effort is coordinated 
in collaboration with ADL's other primary education partner, Centre 
Europeen Juif d'Information (CEJI) European Peer Training Organization 
(EPTO) and the Deutsche Kinder und Jugendstiftung.
    The long history of success and support of the program in Germany 
has resulted in the adaptation and translation of numerous ADL resource 
materials and curricula, including the ADL's Anti-Bias Elementary Study 
Guide, Trainers Manual, and a Peer Training Manual.
Evaluation:
  ``There is now a more sensitive behavior in the classroom and less 
        name-calling.''--German Educator

  ``During the program I spent a lot of time thinking about myself and 
        my behavior. I became aware of a lot of things which were 
        completely different for me before and which I've always taken 
        for granted. I'm grateful for that change of perspective.''--
        German Student


    In 2002, a formal evaluation of the A World of Difference Institute 
program in Germany was conducted. Findings indicate high levels of 
acceptance of the training materials provided by educators and 
students, indicating that lessons and resources are being regularly 
incorporated within classes by participating teachers. Students report 
a broadened knowledge about prejudice and its consequences as a result 
of participating in the program; as well as greater confidence to voice 
their opinion in situations of conflict. Finally, the study found that 
\2/3\ of the students reported that their fellow students' behavior was 
more considerate and responsible after completing the program, and also 
improved and increased the positive relationships students had with 
their teachers.
In Partnership with the Centre Europeen Juif D'Information (CEJI): 
        Providing Programs Throughout Western Europe
  ``The guiding principles and core activities of the Institute's 
        program have proven to have academic credibility and practical 
        relevance in the numerous national contexts within Europe. (The 
        program) has a pedagogically solid core structure which is 
        highly adaptable to the various needs of different cultures, 
        communities and contexts.''--Centre Europeen Juif d'Information


    Working with our partner, the Centre Europeen Juif d'Information 
(CEJI), and with the support of the European Commission's COMENIUS 
Programme, the Institute's A Classroom of Difference was launched in 
Belgium, France, Italy, and the Netherlands in 1997. CEJI, through a 
network of highly trained country coordinators, provides teacher 
training programs throughout these countries. Further, through the 
creation of the European Peer Training Organization (EPTO), CEJI 
adapted and now delivers ADL' s comprehensive Peer Training Program 
throughout Europe. Specific country highlights include:

    Belgium: With support from the Evens and Bernhheim Foundations, 
teacher training and Peer training programs are implemented in French 
and Flemish schools. The Anti-Bias Study Guide and all training 
materials have been translated into French and Flemish with careful 
adaptations to the Belgian context.

    Italy: With initial funding from the Sao Paolo Foundation, the 
model for training in Italy has been two-tiered, with simultaneous 12-
hour teacher training and Peer Training workshops. In addition to 
training materials translated into Italian, efforts are underway to 
translate the Anti-Bias Study Guide as well.

    France: In conjunction with CEJI and the French Catholic School 
Network (UNAPEC), the Teacher and Peer Training programs have recently 
been launched in France. Support from the Charles Leopold Mayer 
Foundation has assisted in increasing activity in France, with a focus 
on outreach to French Catholic schools.

    Netherlands: Peer Training has been provided since 1996 and with 
recent support from the Dutch Insurers Association, this effort 
continues to grow and expand to include Teacher Training as well. The 
Institute's Anti-Bias Study Guide and training materials have all been 
translated in Dutch.

    Additional Peer Training Programs: In addition to the above 
mentioned countries, EPTO provides Peer Training throughout Europe in 
the following countries, including, Spain, Greece, Luxembourg, 
Portugal, Germany and the United Kingdom. In conjunction with CEJI, 
Peer Training programs have also recently begun in Austria, Hungary, 
Poland, Ireland and the Czech Republic.

Evaluation:
    In 2002, the Department of Development and Evaluation of Training 
Programs (SEDEP) of the University of Liege completed an independent 
evaluation of the European A Classroom of Difference program managed by 
CEJI. The study found that more than 75% of educators reported the 
program to be useful and effective, providing a context, approach and 
exercise that could be used directly in the classroom. The study 
recommended greater emphasis on the theoretical underpinnings of the 
program in the training programs, as well as increased curricular 
resources for teachers to use directly with their students. These 
recommendations have been incorporated into adaptations to the Train-
the-Trainer program and on-going professional development for European 
trainers, as well as a focus on enhanced curricula translations and 
adaptations.
Austria: Expanding the Reach
  ``I like how emotionally difficult topics were treated and it is an 
        education that fosters communicative and social competence''--
        Law Enforcement Officer, Salzburg

  ``A program that is applicable to both the professional and private 
        daily life''--Vocational Training Institute


    Begun in 2001, with funding from the Ministry of Interior, and the 
Ministry of Foreign Affairs, the A World of Difference Institute staff 
in Austria launched anti-bias education programs for law enforcement 
and other professionals throughout Austria. Extensive adaptation of 
ADL's Training manual, law enforcement training materials and 
elementary study guide has taken place, and a network of more than 40, 
half of whom are law enforcement professionals, has been developed.
    Funded by the Ministry of Education and working in conjunction with 
CEJI, and the Boltzmann Institute, the Peer Training program is now 
also available to Austrian youth. As part of this initiative, the 
Manual for School-Based Coordinators of the Peer Training Program has 
been adapted for Austria.
Japan
  ``We have been feeling keenly the need of the diversity education in 
        the Japanese society. As a result of the Institute's program, 
        we are glad to say that the effectiveness of the diversity 
        education has been recognized by Japanese people little by 
        little, and more people are interested in these programs for 
        schools and community''--Osaka Diversity Education Network


    In collaboration with the Osaka Diversity Education Network twenty-
five elementary and secondary educators have formed a network of 
trainers that deliver the A Classroom of Difference workshop for other 
educators, parents and students. The Trainers' manual and the 
elementary study guide have been translated into Japanese.
Argentina
    Funded and organized through the Fundacion Banco De La Provincia 
Buenos Aires the ADL Workplace program is being implemented in the 
areas of public administration, in the province of Buenos Aires. The 
Trainers Manual has been translated into Spanish.
Israel
    Since 1994 the A World of Difference program has provided education 
institutions, governmental ministries and independent organizations 
with training. In collaboration with the Youth Division of Ministry of 
Education Teacher and Peer Training programs exist in four different 
schools and in after school programs, and Peer Training and the 
elementary study guide materials are in Hebrew and Arabic. Workshops 
are continually provided to commanders of the Border Patrol through the 
Israel Defense Forces.
Russia
    In conjunction with the Bay Area Council for Jewish Rescue and 
Renewal, the San Francisco Police Department and San Francisco District 
Attorney, ADL participates in the Climate of Trust Russian Hate Crime 
Training for Law Enforcement professionals

                               __________
                  ANTI-SEMITISM IN THE EGYPTIAN MEDIA
                          CONSPIRACY THEORIES

     ``. . . this stage used the Jewish crematoria in order to link and 
        to call attention to this term (anti-Semitism) and to encourage 
        the feelings of the sin complex against the Jews, especially in 
        the Arab countries. All of the Zionist economic and media 
        forces that control the world, were subjugated to stand behind 
        this purpose, so that it would succeed in spreading this 
        terroristic manner of speaking to the western decision makers, 
        in addition to Christian churches, writers, thinkers and 
        politicians . . .''

  Al-Ahram, ``Anti-Semitism: Zionist Creation of the Semantic Terror'' 
by Dr. Fathi al-Baradi'i, February 19, 2004.


     ``. . . Israel tries, brilliantly, to create a mix between what 
        can be considered as anti-Semitic feelings or hostile feelings 
        towards foreigners in general, and the phenomenon of criticism, 
        objection and attack against its policy in Palestine . . . It 
        is natural that Tel Aviv uses the bombing of the two synagogues 
        in Istanbul as typical. (Tel Aviv) also raised it's voice in 
        order to complain about the rising hostile feelings towards the 
        Jews in Europe . . . There are dozens of similar minor events, 
        which Israel is inflating with reason or without so that the 
        sword of anti-Semitism will stay on the Europeans' necks.''

  Al-Ahram, ``Anti-Semitism'' by Salama Ahmad Salama, November 23, 
2003.


     ``. . . We condemn this suspected attack (on the attacks on two 
        synagogues in Istanbul). However, we do not see it unlikely 
        that someone did it or that it was a Zionist plan, from 
        greediness to attract the worldly sympathy towards the Jews . . 
        . Moreover, we do not see it unlikely that that these two 
        attacks in Istanbul were planned and done in the manner of what 
        Israel aimed in the Lavon affair . . . Again--we do not see it 
        unlikely that the aim of these two attacks was to improve the 
        image of the Jew and the image of Israel . . .''

  Al-Wafd, ``Egyptian Concerns'' by 'Abas al-Tarabili, November 20, 
2003.

     ``. . . Why don't we interpret this event as an attempt to improve 
        the ugly image of Israel within the European world's mind? . . 
        . Do we see it unlikely that the Jewish terror organizations 
        committed this criminal crime? . . . If we want to look for 
        those who committed this crime, we will only find those secret 
        associations and anonymous organizations where the fingers of 
        the international Zionism mingle in order to distort the image 
        of the Arabs and Muslims, having this take the place of the 
        terror image of America and Israel in the minds of the European 
        world.''

  Al-Wafd, ``Turkey's Jews'' by Jamal Badawi, November 18, 2003.

     ``. . . As opposed to the expectations, the book `The Jewish 
        Danger--the Protocols of the Elders of Zion', which was added 
        to the show-window of the Semite books near the Torah, so that 
        the visitors from all of the world's nationalities who arrive 
        to the museum . . . Al-Usbu' met with Dr. Yusuf Zeidan, the 
        Director of the Museum of Manuscripts, and the one who decided 
        to present the book. He said: `When my eyes fell upon this rare 
        copy of this dangerous book, I immediately decided to put it 
        near the Torah of all things, although it is not a divine book. 
        However, it became one of the Jews' sacred things, their first 
        constitution, their Halacha (literally: their religious law) 
        and their way of life. In other words, it is not only an 
        ideological or theoretical book. The book of the Protocols of 
        the Elders of Zion may be more important than the Torah amongst 
        the Zionist Jews in the world, who manage through it their 
        Zionist life'.''

  Al-Usbu', ``The Protocols of the Elders of Zion in the front of the 
Museum of Manuscripts'' by Jihan Hussein, November 17, 2003.


     ``. . . Not only the USA surrendered to the Jewish robbery--it was 
        preceded by Germany since Israel, strongly supported by the 
        USA, imposed in the 60's payment of 70 million dollars per year 
        for a period of twelve years as compensation to Israel for what 
        the Nazi regime did to Jews during the famous crematoria and 
        the Holocaust, which became deemed the holiest events to the 
        Jews, who manage to collect a huge (amount of) money, and is 
        used as a basis to international prevention and robbery . . .''

  Al-Ahram, ``Anti-Semitism or Victory to the Truth?'' by As-Sayyid 
Yasin, November 6, 2003.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                Karikatir, November 2003

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          Al-Ahram, The cartoon's headline: ``The American Parliament 
        Imposes Sanctions Over Syria,'' October 19, 2003.

     ``. . . The Jews' properties and activities definitely provide 
        them with influential power in the American society, and this 
        provides Israel the automatic American support!''

  Al-Ahram, ``The Jewish Lobby . . . and the Modern American Era,'' by 
Mursi 'Atallha, September 4, 2003.


     ``The Israeli presence in Baghdad became the Iraqi talk of the 
        day. Prayer leaders and preachers of mosques warned the Iraqi 
        citizens and forbade them from selling or renting their 
        properties to Jews who are filtering in under false names and 
        identities. Rumors spread in Baghdad about the efforts of a 
        persistent Israeli to buy important institutions and real 
        estate properties in sensitive areas in the capital Baghdad for 
        a higher price than its real value, which in turn raised the 
        real estate prices in general. The Iraqis are interpreting the 
        intention of some Jews to buy real estate in Baghdad as an 
        organized intention to penetrate into the Iraqi economic life 
        in order to control it in the future. They said that this 
        phenomenon reminds us of what happened to the Palestinians in 
        1948 and the similar ways that were used in order to steal 
        their land.''

  Al-Ahram, ``Did Israel Get What It Wanted from the Iraqi War?'' by 
Yusri Ahmad 'Azbawi, August 22, 2003.

     ``It is clear that Israel is striving to build something like the 
        Jewish settlements in north Iraq, which will be a starting 
        point for its control over north Iraq's oil and economy. Israel 
        will not stop at sending many delegations . . . The beginning 
        may be insignificant and sometimes we will not pay attention to 
        it, and even minimize it, but Israel, as usual, starts like 
        that and then expands and invests what it has in order to reach 
        their goal at the end. The Arabs have to be careful to follow 
        seriously all of these steps in order to confront it before it 
        gets out of control and becomes a cancer of difficult 
        treatment.

  Al-Ahram, ``Arab Affairs: Israel in Iraq'' by Abed al-Mu'ti Ahmad, 
July 7, 2003.
                     comparisons with nazism/racism
     ``. . . Israel entered the era of racism against Semitism--worse 
        than what happened in Nazi Germany. (Israel) needs centuries to 
        repair what Sharon ruined''.

  Al-Ahram, ``Attitudes'' by Anis Mansur, December 15, 2003.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



          October, the cartoon is portraying PM Sharon and Hitler as 
        lovers, December 6, 2003.


     ``. . . If we want to understand the truth of Zionism, we would 
        find that Zionism is the lower kind of racism. Moreover, 
        through its ugliness it excelled the other racist groups of its 
        kind . . . though they did not commit the crimes that the 
        Zionist entity committed to humanity . . .''

  Al-Ahram, ``The Shame in the Zionist Nature'' by Dr. Jamal Salama 
'Ali, November 15, 2003.

     The writer claims that the Zionist movement, which he calls 
        ``racist imperialist nationalism'', is based ``on the alliance 
        between the conservative forces and even more racist ones, as 
        long as it serves its interests, as it was expressed through 
        the applause of Zionist leaders and thinkers of Hitler when he 
        rose to the government, since they shared with him the belief 
        in race superiority and the objection to the assimilation of 
        the Jews with the Arian race . . .''

  Al-Ahram, ``Our Claimed Hostility towards Semitism or their Hostility 
towards Humanity?'' by Salah Salem, November 4, 2003.

     ``The experience of Europe after World War II exists always and 
        ever in spite of the fact that there were circumstances that 
        pushed the Germans to wave the flags of Nazism, which intersect 
        the Sharonic terror we witness in the occupied territories . . 
        . Actually it (Hamas) is a victim of the reality of the 
        occupation which carries out daily terror, which we saw only in 
        Fascist regimes . . .''

  Al-Ahram, ``Banning the Hamas: The European Support of the Israeli 
Terror'' by Dr. 'Amr ash-Shobaki, September 16, 2003.

     ``In spite of the crimes made by Israel, this era's Hitlerism and 
        the Zionist Nazism--it cannot be said that the Judaism commands 
        support it . . .''

  Al-Ahram, ``This is not Theory'' by Dr. Layla Takla, July 8, 2003.
     ``The Palestinian people were subject to the ugliest kinds of 
        torture, suffering, pain, death and all the other crimes that 
        Israel commits against the Palestinians. (Israel) brought back 
        to (peoples') minds the Nazi actions, and proved that there is 
        a connection between Nazism and Zionism!!!''

  Al-Ahram, ``The Last Chance'' by Sa'id 'Abed al-Khaleq, July 5, 2003.

                       demonizing jews/israelis 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



          Al-Ahram, The cartoon's headline: ``The Sharonic Cake,'' 
        November 22, 2003.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          Al-Ahram, The ``Israeli negotiator'' on the right is saying: 
        ``Sit and let's negotiate. Why do you stand?'' November 1, 
        2003.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


                  Al-Ahram, In Arabic: ``No comments,'' October 13, 
        2003.


     ``. . . The Egyptians are Considering Suing the Jews for Gold the 
        Israelites Took from Egypt According to the Egyptian weekly, 
        Al-Ahram al-'Arabi, Nabil Hilmi, faculty of law dean at the 
        University of Al-Zaqziq, ``is planning a law suit in a Swiss 
        court in order to take back the stolen Egyptian gold from the 
        Pharaohnic era which was stolen by the Jews when they went out 
        of Egypt thousands years ago''. Hilmi said that in light of the 
        fact the Jews have been saying recently that they created the 
        Egyptian culture and that they are asking from Switzerland for 
        the property of Jews who died during World War II, a lawsuit 
        will be submitted to the Swiss court. Hilmi said that ``the 
        stealing of gold is understandable. It is a clear theft of 
        resources and treasures of a hosting country, which goes 
        together with the Jews' morals and nature.''

  Al-Ahram al-'Arabi, ``The Gold War between the Egyptians and the 
Jews'' by Sharl Fu'ad al-Masri, August 9, 2003.
         anti-semitism in egyptian society: the cairo book fair
    In January 2004, Egypt hosted its annual book fair in Cairo, the 
largest literary event in the Arab and Muslim world which attracts many 
people and includes books from all over the Arab world. The following 
is a selection of books displayed at the book fair, which contain anti-
Semitic text, Holocaust denial and conspiracy theories about Jews:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



          Dr. Sina 'Abed al-Latif Sabri, The Features of the Jewish 
        Personality and its Nature as it Seems from their Humor, 
        Damascus: 1999.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          Muhammad Jarbu'a, Exempting Hitler from the Holocaust 
        Accusation, Lebanon: An-Nida, 2002.


          From the back cover: ``Hitler started his annihilation of the 
        Jews for their being a morally debased nation. Thus, he treated 
        them as guilty for their crimes--which demands their death . . 
        .''

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


                    Muhammad Sa'id Mursi, Everything about the Jews.''


          The following list appears on the front cover (above): 
        Belief, History, Prophets, Semitism, Killings, Assassinations, 
        Conspiracies, Personalities, Leaders, Rabbis, Palestine and the 
        Intifada.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          Muhammad 'Isa Da'ud, The Bomb: Jews whom God transformed into 
        Monkeys and Pigs, Madbuli as-Saghir, 2003.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          'Ali Hasan Tah, The Zionist-Jewish Racism and the 
        Ideological-Religious Dimension--A Research of the Religious 
        and Historical Background of the Racist Activities of the 
        Zionist Entity in Palestine, Lebanon and Others, Beirut: Dar 
        al-Hadi, 2002.

        The book's index:
          1. Zionism and the three religions
            <bullet> The integration between the religions and the 
        sectarianism
            <bullet> The sources of the religious Zionist thought
            <bullet> The Torah and the Talmudic texts and the racist 
        and inhuman operations of the Jewish Zionist state
            <bullet> Legal opinions and preaching of Rabbis
          2. The Christian Zionism and the American attitude
            <bullet> The European Zionist Christianity
            <bullet> The American Zionist Christianity
          3. Al-Quds is ours
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          Dib 'Ali Hasan, Encyclopedia of the Jews' Crimes, Damascus: 
        Al-Takwin, 2004.

          From the back cover: ``This document is dated to more than 
        212 years. It warns of the dangerous danger of the Jews in 
        America. The original copy of this document exists in the 
        Franklin Institute, Philadelphia. . . . All of the chaos and 
        the troubles in the USA today are made by the Jews''. Editor's 
        Note: The Franklin ``Prophecy'' is a classic anti-Semitic 
        canard that falsely claims that American statesman Benjamin 
        Franklin made anti-Jewish statements during the Constitutional 
        Convention of 1787. It has found widening acceptance in the 
        Muslim and Arab media, where it has been used to criticize 
        Israel and Jews in news articles and statements.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          Muhammad Nimr al-Madani, Were the Jews Burned in the Ovens?, 
        Beirut: Al-Manara, 2001.

          The book is ``dedicated to every Arab reader, so that the 
        book will turn him from being a supporter to someone who 
        opposes the lie of annihilation''.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


          Mazen an-Naqib, The Murder--from the Jewish Scriptures and 
        the Protocols of the Elders of Zion unto Knightless Horse, 
        Damascus: Al-Aawael, 2004.

        From the book's index:
          The third part: from the Knightless Horse to the Jewish 
        Scriptures and the Protocols of the Elders of Zion
            <bullet> The world conspiracy
            <bullet> The secrecy of the goals and personalities
            <bullet> The Elders of Zion
          A stop in front of the Protocols of the Elders of Zion
            <bullet> The Jews' holy scriptures
            <bullet> The Talmud and the Kabala
            <bullet> Who wrote the Protocols?
          What do the Protocols of the Elders of Zion claim?

                               __________
  Prepared Statement and Additional Material Submitted by Michael H. 
             Posner, Executive Director, Human Rights First

                           PREPARED STATEMENT

    Chairman Allen and members of the Subcommittee, thank you for 
convening this important and timely hearing on anti-Semitism, and for 
providing us the opportunity to submit the views of Human Rights First, 
formerly the Lawyers Committee for Human Rights.
    Human Rights First's mission to protect and promote human rights is 
rooted in the premise that the world's security and stability depend on 
long-term efforts to advance justice, human dignity, and respect for 
the rule of law in every part of the world. Since we began our work in 
1978, we have worked both in the United States and abroad to support 
human rights activists who fight for basic freedoms and peaceful change 
at the local level; to protect refugees in flight from persecution and 
repression; to help build strong national and international systems of 
justice and accountability; and to make sure human rights laws and 
principles are enforced.
    Anti-Semitism--which we define as hatred or hostility toward or 
discrimination against Jews as a religious, ethnic or racial group--is 
racism. We believe that anti-Semitic acts need to be confronted more 
forcefully and treated as serious violations of international human 
rights. Moreover, anti-Semitism is a challenge requiring the concerted 
action of governments and everyone concerned with putting human rights 
first. Unfortunately, it is all too often only organizations directly 
representing the ``victimized'' community--in this case, Jewish 
organizations--which make concerted efforts to publicize and combat 
threats and violence directed against a particular religious, ethnic, 
or racial group. While the work of groups like the Anti-Defamation 
League and American Jewish Committee, from whom you are hearing at 
today's hearing, is critically important and to be applauded, it is 
important to note that their involvement does not relieve governments, 
the United Nations and its regional organizations, or private human 
rights groups of their obligations to address anti-Semitism as an 
integral part of their work.
    Human Rights First has been working to combat anti-Semitism and 
other forms of discrimination for many years, through advocacy for 
improved monitoring, reporting, and remedial action to combat anti-
Semitism, participation in national and international fora, and, more 
recently the publication of findings and recommendations concerning the 
phenomenon in Europe. In August 2002, we published Fire and Broken 
Glass: The Rise of Anti-Semitism in Europe, which documented the 
alarming rise in anti-Semitic violence in Europe. A copy of that report 
is attached to this testimony, and we would be grateful to have it 
included in the hearing record.
    In that report, we noted that with a few exceptions national 
governments, intergovernmental organizations, and nongovernmental 
organizations had not responded adequately to the growing scourge of 
anti-Semitism. We detailed in particular the inadequate efforts of 
European governments and institutions to monitor and report on anti-
Semitic violence, and to develop effective measures to combat it. Our 
emphasis on the hate crimes information deficit responds to the failure 
of many European governments to provide even basic reporting on the 
crimes that force many in Europe's Jewish communities to live in fear. 
Our premise is that timely, accurate, and public information on racist 
violence is an essential starting point for effective action to 
suppress it.
    This hearing is being held at a time when anti-Jewish bombings, 
arson, and personal assaults in Europe are proliferating in an 
environment of incitement to violence. Yet despite a continued high 
rate of anti-Semitic threats and attacks in large parts of Europe, only 
a handful of the fifteen governments of the European Union 
systematically monitor and report on these and other manifestations of 
racist violence. An even smaller proportion of the Organization for 
Security and Cooperation in Europe's 55 member states do so.
Addressing the Continuing Problem
    Threats and attacks on Jews and Jewish institutions have continued 
at a high level since mid-2002, when Fire and Broken Glass was first 
published. The list of attacks on synagogues, desecrations of Jewish 
cemeteries, and vandalism of Holocaust memorials--among the visible 
manifestations of anti-Semitic violence--is now long. Hundreds of other 
attacks on individuals, because they are Jewish or thought to be 
Jewish, are no less chilling to the Jewish communities of Europe, 
though less likely to make the headlines.
    The November 15, 2003 bombings of two synagogues in Turkey, a 
member of the Council of Europe, shocked the world and shook that 
country's small Jewish community. The blasts killed 24 people and 
wounded at least 300.\1\ In France, there were at least two arson 
attacks on synagogues in 2003 \2\ and more recently, on the night of 
March 22, 2004, a Molotov cocktail was thrown at a Jewish community 
center in Toulon that houses a synagogue.\3\
---------------------------------------------------------------------------
    \1\ ``Turkey probes synagogue bombing,'' BBC News, November 17, 
2003, http://news.bbc.co (accessed March 1, 2004).
    \2\ Stephen Roth Institute, ``Anti-Semitism Worldwide 2002-2003'', 
http://www.tau.ac.il (accessed March 10, 2003.
    \3\ ``Jewish center in southern French city set afire in arson 
attack,'' from AFP and Reuters reports, International Herald Tribune, 
March 24, 2004.
---------------------------------------------------------------------------
    Other potential atrocities were stopped through effective police 
action. On June 6, 2003, a man tried to blow up a car, packed with 
canisters of gas, in front of a synagogue on rue de la Boucheterre in 
Charleroi, Belgium; the blast was averted and the man arrested.\4\ A 
year earlier, on April 22, 2002, up to eighteen gunshots were fired at 
another synagogue in Charleroi.\5\
---------------------------------------------------------------------------
    \4\ ``Belgian police thwart attack on synagogue in south of 
country,'' Jerusalem Post, June 14, 2003, http://209.157.64.200/focus/.
    \5\ Anti-Defamation League, ``Global Anti-Semitism: Selected 
Incidents Around the World in 2002,'' July 25, 2002, http://www.adl.org 
(accessed August 8, 2002).
---------------------------------------------------------------------------
    In Germany in September 2003 police made arrests in a reported plot 
to explode a bomb on November 9, the anniversary of the 1938 pogrom 
known as Kristallnacht, the terrible ``Night of Broken Glass.'' The 
target was the cornerstone-laying ceremony for a new synagogue in 
central Munich which hundreds of senior political leaders and members 
of the Jewish community were expected to attend. At least twelve 
members of extreme right-wing groups were arrested in connection with 
the plot. German President Johannes Rau attended the ceremony, held as 
planned.\6\
---------------------------------------------------------------------------
    \6\ ``Home to Germany's second-largest Jewish community, Bavaria's 
capital begins construction of a synagogue and cultural center that 
organizers hope will help the city's reestablished Jewish population 
flourish and grow,'' Deutsche Welle, November 11, 2003, http://www.dw-
welle.de (accessed March 25, 2004). See also William Boston, ``On the 
March Again? A Plot to Bomb the Site of a New Synagogue Raises Fears 
that German neo-Nazis are Turning to Terror,? Time (Europe), September 
29, 2003.
---------------------------------------------------------------------------
    Both perpetrators and victims are often young people. In Berlin, a 
group of youths attacked a 19-year-old Orthodox Jew visiting from the 
U.S. as he left the subway on May 14, 2003. They threw fruit at him and 
asked if he was Jewish; when the young man didn't answer, they beat 
him. Also in Berlin, a 14-year-old girl, who was wearing a Star of 
David necklace, was attacked by a group of teen-aged girls on a bus on 
June 27, 2003. After taunting her about her religion, the group of 
girls hit and kicked her, causing minor injuries.\7\ Scores of similar 
incidents, involving groups of young people attacking visibly Jewish 
individuals, often while using public transport, were also reported in 
France.\8\
---------------------------------------------------------------------------
    \7\ Anti-Defamation League, ``Global Anti-Semitism: Selected 
Incidents Around the World in 2003,'' http://www.adl.org (accessed 
March 5, 2004).
    \8\ See, for example, the chronologies of anti-Semitic incidents 
presented by the Representative Council of Jewish Institutions of 
France (http://www.crif.org), the Anti-Defamation League (http://
www.adl.org), and the Stephen Roth Institute of Tel'Aviv University 
(http://www.tau.ac.il).
---------------------------------------------------------------------------
    Organizations in several countries have noted an alarming level of 
both verbal and physical abuse against Jewish students in and around 
schools in both 2002 and 2003. On April 10, 2002, attackers threw 
stones at a school bus of the Lubavitch Gan Menahem Jewish school in 
Paris as students were boarding; one student was injured. On May 16, 
2003, a Jewish schoolgirl from the Longehamp School in Marseille was 
attacked and verbally abused by a group of ten girls from a nearby 
school.\9\
---------------------------------------------------------------------------
    \9\ Stephen Roth Institute, Anti-Semitism Worldwide 2002/3, http://
www.tau.ac.il (accessed March 10, 2003).
---------------------------------------------------------------------------
    Jewish schools have also been targeted. In the Jewish community in 
Uccle, Belgium, the Gan Hai day-care center was ransacked, on July 9, 
2003, with excrement thrown against windows and posters in Hebrew.\10\ 
A pre-dawn arson attack on the Merkaz HaTorah Jewish school in Gagny, a 
suburb of Paris, on Saturday, November 15, 2003, destroyed a large part 
of the building. (President Jacques Chirac responded to the attack with 
a ringing pronouncement that ``When a Jew is attacked in France, it is 
an attack on the whole of France.'' \11\
---------------------------------------------------------------------------
    \10\ EUCM, ``Manifestations of anti-Semitism,'' p. 44, citing BESC.
    \11\ ``France vows to fight hate crime,'' BBC News, November 17, 
2003, http://www.bbc.co.uk (accessed March 12, 2004).
---------------------------------------------------------------------------
    Jews and Jewish sites were also under attack in Russia and 
elsewhere in the former Soviet Union. A grenade was thrown at a 
synagogue in Derbent on January 25, 2004, and three molotov cocktails 
were reportedly thrown at a synagogue in Chelyabinsko on February 4, 
2004.\12\ Arsonists attempted to set fire to a synagogue in Minsk, 
Belarus, on August 27, 2003 by dousing the doorway with kerosene. The 
facade of the building was damaged in this, the fifth arson attempt in 
two years.\13\
---------------------------------------------------------------------------
    \12\ Jewish Agency for Israel, available at http://www.jafl.org.il 
(accessed March 2004).
    \13\ Anti-Defamation League, ``Global Anti-Semitism: Selected 
Incidents Around the World in 2003,'' http://www.adl.org (accessed 
March 5, 2004).
---------------------------------------------------------------------------
The Road to Berlin
    With Fire and Broken Glass, Human Rights First underscored its 
commitment to remain actively engaged in the effort to identify anti-
Semitic activities and improve the means for investigating, reporting, 
and more effectively combating them. Our recommendations there are 
intended as a starting point for a much larger discussion about how 
anti-Semitism and other forms of racism can better be addressed as a 
more central element of the global human rights debate.
    In June 2003, Human Rights First republished Fire and Broken Glass 
in a French-language edition, as part of the organization's 
participation in an extraordinary meeting on anti-Semitism convened in 
Vienna that month by the Organization for Security and Cooperation in 
Europe (OSCE). This first meeting of its kind concluded with a proposal 
by Germany to hold a follow up meeting of the OSCE on anti-Semitism, 
now to take place on April 28-29, 2004 in Berlin. We and many partner 
organizations will be there to take part.
    Since the Vienna OSCE conference, human rights, civil liberties, 
and Jewish community groups have increasingly worked together. 
Preparation for the conference to be held in Berlin at the end of this 
month has helped cement this collaborative relationship. Human Rights 
First is working closely with the Anti-Defamation League, the Jacob 
Blaustein Institute, and the Leadership Conference on Civil Rights, in 
particular, in developing a strong message for the Berlin conference. 
Working together has enormously strengthened our capacity to raise 
international awareness of the threat posed by anti-Semitism--and to 
work with European governments for change.
    The United States' commitment to meetings like the Berlin 
conference is an important factor in our relations with European 
governments in the fight against anti-Semitism. To this end, we have 
been pressing the Bush Administration to demonstrate leadership by 
ensuring that the official U.S. delegation includes Secretary of State 
Colin Powell, or another very senior official if the Secretary cannot 
attend. Arid we have been preparing a follow-up report to Fire and 
Broken Glass, to be issued in time for the Berlin meetings, which will 
analyze what has happened in the period since the issuance of that 
earlier report.
    Our new report will document continuing anti-Semitic violence 
across Europe since August 2002, including attacks on Jewish 
individuals and institutions in recent weeks. The overall level of 
violence remains intolerably high. From synagogue bombings to the 
vandalism of religious schools and the desecration of cemeteries, to 
attacks--both physical and verbal--on Jewish individuals, anti-Semitic 
violence remains an all too common problem throughout the European 
continent.
    We do recognize that over the past two years, some national 
governments and international institutions, as well as the media, have 
begun to devote more attention to anti-Semitism. The OSCE itself 
deserves credit for placing the issue higher on its agenda, including 
by convening an historic conference last June in Vienna and now in the 
leadup to the Berlin conference. And just last week, on March 31, the 
European Commission's European Monitoring Centre on Racism and 
Xenophobia (EUMC) issued a 345-page report on anti-Semitism in the 
fifteen member states of the European Union.
    These and other efforts suggest that leading European officials and 
institutions finally are acknowledging anti-Semitism as a critical 
problem warranting attention at the highest levels of government and 
society.
    Even so, however, there has been very little progress made in 
improving mechanisms for monitoring and reporting at the national level 
on anti-Semitism--a critical step in the process of developing means 
for more effective redress. We cite disparities, for example, in the 
collection and reporting of data by governmental institutions in 
countries like Belgium in comparison with what leading nongovernmental 
organizations have tracked and disseminated. The OSCE's 2004 report 
notes starkly that a majority of E.U. nations conduct no systematic 
monitoring of anti-Semitic incidents.
    The upcoming OSCE Berlin conference provides an opportunity to 
address these remaining shortcomings--if the participants can agree on 
a plan of action that includes establishing specific mechanisms for 
monitoring both (1) incidents of anti-Semitism in OSCE member 
countries, and (2) how national governments are responding. As noted 
above, Human Rights First has been actively engaged with U.S. 
Government officials, other leading nongovernmental human rights 
organizations, and Jewish community organizations in preparing for the 
Berlin conference. I look forward to participating there, and in 
carrying our message to government officials and other nongovernmental 
groups from Europe--and in helping maximize the likelihood that the 
conference will produce concrete results.
Viewing Anti-Semitism Through the Human Rights Lens
    But whatever the results from Berlin, in beginning to address what 
we have termed the continuing ``information deficit'' with respect to 
anti-Semitism, better documentation alone will accomplish little if 
governmental authorities do not come to grips with their obligations 
under international human rights law to combat anti-Semitic violence 
within their borders.
    Indeed, international human rights law and practice provide the 
framework for establishing that national governments do have the legal 
responsibility to take proactive measures to both deter and prosecute 
actions taken with anti-Jewish animus. The time for politically-
motivated excuses for inaction is long past; European governments need 
to move to adopt stronger legal measures to address anti-Semitic 
violence.
    Mr. Chairman, today's hearing reflects the interest in, and concern 
of, this Subcommittee with respect to anti-Semitism both in this 
country and abroad, including in Europe. Human Rights First looks 
forward to working with you and other Members of Congress, including 
those who will be attending the OSCE conference in Berlin in three 
weeks' time, to ensure that the fight against all forms of anti-
Semitism remains a high priority in the months and years to come. While 
anti-Semitism in the United States fortunately has not reached the 
levels, nor presented the dangers, that it has in some countries in 
Europe, the United States Government must remain vigilant--even as it 
encourages our friends in Europe and other members of the OSCE to 
improve their own monitoring, reporting, and enforcement.
    We look forward to working with you, as well as human rights 
officials at the Department of State and elsewhere in the government, 
to ensure that the response to anti-Semitism is as effective as 
possible, and that the victims of threats and violence know that 
governments and nongovernmental organizations alike are doing whatever 
they can to combat the climate of fear that again exists for many Jews 
in Europe and beyond.
    Thank you again for the opportunity to share our perspectives with 
the Subcommittee.

                               __________

FIRE AND BROKEN GLASS: THE RISE OF ANTI-SEMITISM IN EUROPE (PREPARED BY 
             LAWYERS COMMITTEE FOR HUMAN RIGHTS\1\ IN 2002)
---------------------------------------------------------------------------
    \1\ Lawyers Committee for Human Rights is now known as Human Rights 
First. This report, Fire and Broken Glass: The Rise of Anti-Semitism in 
Europe, was updated in 2004 and released as Anti-Semitism in Europe: 
Challenging Official Indifference, and is available on the internet at 
[http://www.humanrightsfirst.org].
---------------------------------------------------------------------------
                                FOREWORD

    A year ago the United Nations convened the third World Conference 
on Racism, Racial Discrimination, Xenophobia and Related Intolerance, 
in Durban, South Africa. The conference was intended to highlight 
particularly serious patterns of racism and racial discrimination 
around the world and to shape appropriate global responses. The meeting 
succeeded in raising public attention with respect to some particularly 
egregious situations--not least the plight of 250 million victims of 
caste discrimination (among them the Dalits of India--the so-called 
``broken people,'' or ``untouchables'').
    Further, the conference provided a long overdue acknowledgment of 
the criminal nature of slavery (``that slavery and the slave trade are 
a crime against humanity and should always have been'') and 
recommendations for the repair of its lasting consequences for people 
of African descent around the globe.
    The conference also made clear that racism and racial 
discrimination need to be placed more squarely on the international 
human rights agenda. But what was positive in the conference process 
was seriously undermined when the World Conference itself became the 
setting for a series of anti-Semitic attacks. Directed primarily 
against representatives of Jewish groups, these attacks were fueled by 
the heated debates at the meeting concerning Israeli practices in the 
West Bank and Gaza Strip. But the racist anti-Jewish animus displayed 
represented considerably more than criticism of Israeli policies and 
practices.
    Most of the offensive behavior occurred during meetings of 
nongovernmental organizations (NGOs) and individual participants in a 
forum that paralleled the intergovernmental conference. Throughout the 
five-day NGO forum, anti-Semitic cartoons and materials were 
distributed widely and on display, tolerated by the forum's 
nongovernmental organizers. Representatives from Jewish organizations 
were denied access to some meetings--either physically excluded or 
shouted down and attacked when they were present and tried to speak. 
Efforts to put anti-Semitism on the nongovernmental agenda were roundly 
defeated by an assembly of representatives and individual participants 
in procedures that were neither democratic nor principled.
    Rather than serving as a forum for correcting racial and religious 
intolerance and hate, the public meetings and exhibition halls of the 
Durban conference became a place where pernicious racism was practiced 
and tolerated. Important recommendations adopted by the conference 
despite this environment, with a real potential to advance the fight 
against anti-Semitism--and other forms of racism--have as a consequence 
received inadequate attention. Some of these recommendations, 
concerning government monitoring and reporting on racist violence, are 
discussed here.
    The outbursts at Durban reflect a growing trend toward anti-Semitic 
expression and violence in many parts of the world. As this report 
makes clear, there is an alarming rise in anti-Semitic violence in 
Europe: but it is on the rise in other parts of the world as well. 
Unfortunately, with the notable exception of Jewish organizations and a 
number of other human rights and antiracist groups and institutions, 
the world community--governments, intergovernmental organizations , and 
nongovernmental organizations alike--has not responded adequately to 
this growing problem. Anti-Semitism is racism. Anti-Semitic acts need 
to be confronted more forcefully and treated as serious violations of 
international human rights.
    This report highlights the inadequacy of efforts by European 
governments to systematically monitor and report on anti-Semitic 
threats and violence--and to develop effective measures to stop it. We 
define anti-Semitism as hatred or hostility toward or discrimination 
against Jews as a religious, ethnic or racial group. Governments and 
inter-governmental organizations need to routinely incorporate facts 
about anti-Semitic assaults, arson, vandalism, desecration of 
cemeteries, and the proliferation of anti-Semitic materials on the 
internet into a wide range of existing human rights reporting 
mechanisms. Though some Jewish organizations, like the Anti-Defamation 
League and the American Jewish Committee, are doing excellent reporting 
on these issues, their involvement does not relieve governments, the 
United Nations and its regional organizations, or private human rights 
groups of their obligations to address anti-Semitism as an integral 
part of their work.
    In the pages that follow, we outline the scope of anti-Semitism in 
Europe and examine some of the efforts by European governments and 
institutions to monitor and confront the problem. In our view these 
efforts are insufficient. Too often European leaders have downplayed 
anti-Semitic acts as inevitable side-effects of the current crisis in 
the Middle East. We reject this reasoning as an abdication of 
responsibility. Criticism of Israeli policies and practices is not 
inherently anti-Semitic. But when such criticisms and related actions 
take the form of broadside attacks against ``Jews'' or the ``Jewish 
State,'' they become racist.
    In this report we make a series of recommendations as to how these 
abuses can better be investigated and reported in the future. These 
recommendations are intended as a starting point for a much larger 
discussion about how anti-Semitism and other forms of racism can better 
be addressed as a more central element of the global human rights 
debate. At the end of last year's Durban meeting, we wrote that ``[t]he 
subjects of this conference are the human rights issues of the 21st 
century. Racism, racial discrimination, xenophobia and intolerance 
affect each of us in our own communities. All of us--governments, the 
UN, NGOs--must find constructive way to discuss and combat these 
problems.''
    Events of the last year only underscore the continuing importance 
of meeting that challenge, and, with regards to anti-Semitism, history 
emphasizes the urgency of doing so with force and with vigor.

                                            Michael Posner,
                                    Executive Director, August 2002



       fire and broken glass: the rise of anti-semitism in europe
    On July 12, the online wire of the Associated Press included a 
story out of the Welsh city of Swansea, where a synagogue had been 
vandalized the night before. According to the story, which was not 
picked up by any major American newspaper, a group of youths broke into 
the synagogue, destroyed one of the temple's Torah scrolls, drew a 
swastika on the wall, and attempted to burn the building down before 
fleeing.\1\
---------------------------------------------------------------------------
    \1\ ``British Synagogue Damaged by Vandals,'' AP Online, July 12, 
2002, reprinted in 2002 WL 23896197 (2002). The story did run in 
Canada. See, ``Vandalism Attack Heavily Damages Another Synagogue in 
Britain,'' Canadian Press, July 12, 2002, reprinted in 2002 WL 23891437 
(2002).
---------------------------------------------------------------------------
    The Swansea break-in, the second such vandalism of a British 
synagogue in three months, is being investigated by local authorities 
as a hate crime--a crime driven by anti-Jewish animus.\2\ This 
desecration of synagogues occurred within a broader pattern of anti-
Jewish attacks in Britain--and across Europe. In April 2002 alone the 
Jewish community in Britain reported fifty-one incidents nationwide, 
most of them assaults on individuals.\3\
---------------------------------------------------------------------------
    \2\ Vandals attacked a synagogue in London's Finsbury Park on April 
27, smashing windows and furniture, daubing a swastika on the rabbi's 
lectern, and strewing religious articles around the premises--although 
nothing was reported stolen. Stephen Moss, ``Desecrated,'' Guardian 
(London), May 2, 2002.
    \3\ Ibid., citing the Community Security Trust.
---------------------------------------------------------------------------
    Elsewhere in Europe firebombs and gunfire were directed at Jewish 
targets. At around midnight on March 31, two firebombs were thrown into 
a synagogue in the Anderlecht district of Brussels, Belgium's capital 
and the seat of the European Union. The interior of the synagogue was 
badly damaged.\4\ In the previous month, a rash of graffiti had 
appeared on Jewish owned shops in Brussels declaring ``Death to the 
Jews.'' On April 22, up to eighteen gunshots were fired at another 
synagogue, this one in Charleroi.\5\
---------------------------------------------------------------------------
    \4\ See, for example, Joelle Mesken and Olivier Van Vaerenbergh, 
``Les synagogues, proies du feu et de la haine ordinaire, Le Soir, 
April 2, 2002; and Frederick Delepierre and Benedicte Vaes, ``Comment 
enrayer la spirale de la violence?,'' Le Soir (Brussels), April 3, 
2002.
    \5\ Anti-Defamation League, ``Global Anti-Semitism: Selected 
Incidents Around the World in 2002,'' July 25, 2002, http://www.adl.org 
(accessed August 8, 2002).
---------------------------------------------------------------------------
    As gasoline bombs were thrown in Brussels late on Sunday night, 
March 31, fires still smoldered from a series of attacks across France 
that weekend. In Strasbourg, the seat of the Council of Europe, the 
doors to a synagogue were set alight that Saturday; while in Lyon, an 
estimated fifteen attackers wearing hoods crashed two cars through the 
main gate of a synagogue earlier the same day and set fires there.
    On March 31 alone, a pregnant Jewish woman and her husband were 
attacked in a Lyon suburb, requiring her hospitalization; a Jewish 
school in a Paris suburb was badly damaged by vandals; and in Toulouse, 
shots were fired into a kosher butcher shop. That night, a synagogue in 
Nice was attacked with a firebomb, and in Marseille attackers set 
alight and burned to the ground the Or Aviv synagogue. Despite the 
deployment of police to centers of the Jewish community, the violence 
in Marseille continued.\6\ A week after the synagogue attack, the Gan-
Pardess school was set on fire, its windows broken with stones, and its 
walls daubed with anti-Jewish graffiti.\7\
---------------------------------------------------------------------------
    \6\ Ibid.
    \7\ The incidents were reported in the French and Belgian media, 
and summarized in ``French, Belgian synagogues burned,'' April 1, 2002, 
http://www.CNN.com.
---------------------------------------------------------------------------
    Anti-Jewish attacks have continued at a high level in France since 
late 2000, when attacks were reported on forty-three synagogues and 
three Jewish cemeteries in the last three months of the year alone. A 
synagogue in the Paris suburb Trappes was burned to the ground, while 
synagogues were damaged by fire in Villepinte, Clichy, Creil, Les 
Lilas, and the synagogue in Les Ulis was attacked on three occasions. 
Then, as now, officials down-played the racist, anti-Semitic nature of 
the attacks, suggesting they were an inevitable side-effect of the 
crisis in the Middle East, where protests and violence had broken out 
in what became known as the second intifada.
    A surge of anti-Jewish violence in Russia was also a part of the 
mosaic of racist violence across Europe in 2002. In the incident most 
widely reported in Western news media, Tatyana Sapunova was badly 
injured on May 27 by a rigged explosive charge, when attempting to take 
down a roadside sign near Moscow that declared ``Death to Jews.'' Other 
booby-trapped signs bearing similar messages were reported elsewhere in 
the country. In a welcome and unprecedented gesture, Russian president 
Vladimir Putin honored Tatyana Sapunova for her civic courage in a July 
11 ceremony--and condemned racial and religious intolerance.\8\
---------------------------------------------------------------------------
    \8\ Sabrina Tavernise, ``Bomb Attack Shows That Russia Hasn't 
Rooted Out Anti-Semitism,'' New York Times, June 1, 2002; and Steven 
Lee Myers, ``Putin Cautions Russians on Intolerance,'' New York Times, 
July 26, 2002.
---------------------------------------------------------------------------
    The incidents in Swansea, Brussels, Strasbourg, Marseille, Moscow, 
and other European towns and cities earlier this year occurred as a 
number of organizations worldwide--most prominently the Anti-Defamation 
League (ADL) in the United States--have drawn increasing attention, 
both here and abroad, to the rise of anti-Semitism in Europe, a problem 
that appears to be intensifying.\9\
---------------------------------------------------------------------------
    \9\ The campaign to draw attention to the attacks in the media 
appears to be meeting with some success, as evidenced by the Washington 
Post's June 24 editorial, ``Anti-Semitism in Europe.'' See, ``Anti-
Semitism in Europe,'' Washington Post, June 24, 2002.
---------------------------------------------------------------------------
Hate Crimes--The Information Deficit
    The emphasis of this report is on the proliferation of violence 
against persons and property in Europe that is driven by anti-Jewish 
animus--and the failure of governments to accurately report and 
effectively engage in concerted action to combat this racist violence. 
In both east and west, European governments have done too little to 
monitor, report, and act on the many levels required. The failure of 
some governments in Western Europe to do even basic reporting on hate 
crimes targeting the Jewish community (and other minorities) is a 
principal focus of this report. Yet timely, accurate, and public 
information on racist violence is essential for effective action to 
suppress such violence.
    By addressing only the information deficit that clouds the real 
scope and nature of anti-Semitic violence in Europe, the Lawyers 
Committee for Human Rights does not want to understate the broader 
issues arising in the fight against anti-Semitism and other racist 
intolerance. Yet the educational and other programs required to address 
anti-Semitism in the long term can be effective only if accompanied by 
immediate action to acknowledge and to combat violent criminal acts 
motivated by anti-Jewish hatred.
    Similarly, while this report is about anti-Jewish violence in 
Europe, its recommendations apply to the broader plague of racist 
violence that affects many of Europe's minority communities. Racist 
violence against minorities such as the Roma, and in particular against 
Europeans and immigrants of North African, Middle Eastern, and South 
Asian origin, also requires urgent attention by European governments, 
nongovernmental organizations, and the international community. 
Accessible disaggregated data is required in order to report accurately 
on racist violence, to identify particularly vulnerable groups, and to 
generate effective antiracism measures. The fight against racism should 
not itself be balkanized, as if in a competition between advocates for 
each of the groups bloodied by racism. Nor should particularly 
egregious forms of racism be overlooked.
    Europe's extreme nationalist groups show a frightening fervor and 
consistency--and a disturbing unity--in their promotion of violent 
anti-Semitism. The same racist extremists who attack synagogues may 
also attack Turkish immigrants in Berlin, French citizens of North 
African origin in Paris, or South Asians in Britain's towns and cities. 
A similar unity is required of the antiracist effort in Europe to 
combat this. The rise in violence against Jewish communities across 
Europe is part of a broader pattern of racist violence--but the 
severity, pan-European scope, and historical roots of this violence 
requires particularly urgent attention as a part of this larger effort 
to combat racism. In view of the calamitous record of anti-Semitism in 
Europe, every effort must be made to ensure that this scourge is not 
permitted to gather momentum again.
    The increasing incidence of racially-motivated attacks against Jews 
and Jewish institutions across Europe has been well-documented by 
nongovernmental bodies, most notably the ADL, along with the American 
Jewish Committee (AJC), the Simon Wiesenthal Center (SWC), and the 
Stephen Roth Institute for the Study of Contemporary Anti-Semitism and 
Racism at Tel Aviv University.\10\ Similarly, the U.S. Government has 
taken notice, with the Helsinki Commission--the American Government's 
liaison agency with the Organization for Security and Cooperation in 
Europe (OSCE)--holding a high-profile hearing on May 22 to address the 
issue\11\ and with both the House of Representatives and the Senate 
subsequently passing unanimous resolutions echoing the Commission's 
concerns.\12\
---------------------------------------------------------------------------
    \10\ See, Stephen Roth Institute, ``Global Anti-Semitism: Selected 
Incidents Around the World in 2002,'' available at http://www.adl.org 
(accessed July 15, 2002) (describing, country-by-country, hundreds of 
reported anti-Semitic attacks since the beginning of the calendar 
year).
    \11\ For a transcript of the hearing, see, http://www.csce.gov 
(last visited July 15, 2002).
    \12\ See, H.R. Con. Res. 393, 107th Cong. (2002); S. Res. 253, 
107th Cong. (2002). Both passed unanimously. At the Eleventh Annual 
Session of the OSCE Parliamentary Assembly, a supplementary ``item'' on 
anti-Semitic violence in the OSCE region, proposed by American 
congressman Chris Smith (R-NJ), passed unanimously. See, Tovah 
Lazaroff, ``OSCE Condemns Anti-Semitism,'' Jerusalem Post, July 9, 
2002, at 4; 148 CONG. REC. H4380-01 (daily ed. July 9, 2002) (statement 
of Rep. Smith).
---------------------------------------------------------------------------
    Yet, whereas nongovernmental organizations have released a 
considerable amount of material on the increasing incidence of attacks, 
many European governments have been less forthcoming in documenting the 
upsurge in anti-Semitic violence.\13\ The French Government, which, for 
much of early 2002, made few public statements about the rising tide of 
anti-Jewish violence,\14\ has yet to release official statistics on 
such incidents in 2002. In a June 2002 statement, a French spokesman 
acknowledged that ``A series of inexcusable assaults--physical, 
material and symbolic--has been committed in France against Jews over 
the past 20 months,'' while suggesting this was simply a spill-over of 
the Middle East conflict into Europe (most of the incidents were laid 
to ``poorly integrated youths of Muslim origin who would like to bring 
the Mideast conflict to France'').\15\ The involvement of extremist 
nationalist groups in anti-Jewish violence, a longstanding source of 
anti-Semitism in France and elsewhere in Europe, has found little 
reflection in these public statements.
---------------------------------------------------------------------------
    \13\ See, for example, the website of the Anti-Defamation League.
    \14\ Including an incident where President Chirac stated that he 
had seen no evidence of an increase in anti-Semitic violence. See, 
Abraham Cooper, ``At Last, France Tackles Anti-Semitism,'' Wall Street 
Journal, (European Ed.), July 15, 2002.
    \15\ Francois Bujon de l'Estang, Ambassador of France in the United 
States, ``A Slander on France,'' Washington Post, June 22, 2002.
---------------------------------------------------------------------------
    Similarly, the Governments of Belgium, Germany, the United Kingdom, 
and Russia, where a majority of the other attacks have been 
concentrated, have made public statements condemning the upsurge in 
violence. But these governments have released little detailed 
documentation of anti-Jewish violence, and have, according to 
nongovernmental observers, done too little to abate the rising tide.
    Systems for collection, analysis, and reporting information from 
European capitals differ widely. While most governments release limited 
information on anti-Semitic acts, what statistical data is available 
generally allows only the identification of broad trends. Statistics on 
registered incidents appear to vastly underestimate the extent of the 
problem--with some exceptions.
    The criteria applied in data collection and statistical analysis 
and reporting by NGOs also vary widely. In some cases, reporting on 
anti-Semitism--and other manifestations of racism--blur criminal acts 
of violence with incidents of hate speech, a tendency that is echoed in 
the news media. This notwithstanding, human rights organizations and 
the independent media in Western Europe often report on violent anti-
Jewish incidents. Their reporting points clearly to a severe and 
pernicious rise in this violence that cannot be attributed to any one 
factor.
    Governments, despite periodically adhering to multilateral pledges 
to combat racism and anti-Semitism, and acknowledging treaty 
obligations to do so, find little tangible pressure to undertake close 
monitoring and reporting. The reality is that public information is 
required in order to generate the political will to address the problem 
and to inform decisions on how best to do so.
A Pattern of Intimidation and Violence
    The Swansea incident and others in many parts of Europe are part of 
a prolonged surge of violent threats and attacks on individuals and 
community institutions solely because they are Jewish. This racist 
violence has included physical assaults on individuals --and fire-
bombings, gunfire, window smashing, and vandalism of Jewish homes, 
schools, synagogues and other community institutions. Vandals have 
desecrated scores of Jewish cemeteries across the region, daubing anti-
Jewish slogans, threats, and Nazi symbols on walls and monuments, while 
toppling and shattering tombstones.
    Jews and people presumed to be Jewish have been assaulted in and 
around centers of the Jewish community, in attacks on Jewish homes, and 
in more random street violence. Attackers shouting racist slogans have 
thrown stones at children leaving Hebrew-language schools and 
worshippers leaving religious services. In street violence attackers 
shouting racist slogans have severely injured people solely because 
they were thought to have a Jewish appearance.
    How are anti-Jewish, anti-Semitic acts distinguished from random 
violence in a violent world? Sometimes the nature of the target alone 
is sufficient reason to conclude that an arson attack, stone throwing, 
or other violence is motivated by discriminatory animus (a synagogue or 
a kosher shop, for example, is set alight; a Jewish cemetery is 
desecrated). In many cases, even when the target of an attack is less 
clearly singled out because of a real or imputed Jewish identity, the 
self-identification of the attackers with neo-Nazi extremist groups, 
assailants' statements at the time of an attack, expressly anti-Jewish 
graffiti, or other elements give reason to believe them anti-Semitic. 
Such acts are manifestations of both racist violence and religious 
intolerance, directed at the Jewish people as a whole.\16\
---------------------------------------------------------------------------
    \16\ The International Convention on the Elimination of All Forms 
of Racial Discrimination (1966) states that the term `` `racial 
discrimination' shall mean any distinction, exclusion, restriction or 
preference based on race, colour, descent, or national or ethnic 
origin. . . .'' (art. 1).
---------------------------------------------------------------------------
    Hate speech--spoken, broadcast, and published--provides a motor and 
a backdrop to anti-Jewish violence. In Europe, this is particularly 
chilling, as hate speech often involves immediate incitement to racist 
violence while openly harking back to the racist terror of the 
Holocaust. Extremist political groups openly endorse the past horrors 
of the Holocaust or implicitly do so by denying its reality, even where 
European law makes such statements punishable as crimes.
    Threatening racist speech often also provides the immediate context 
of physical acts of violence. Racist speech may provide evidence of 
motivation by which some acts of vandalism or related violence can be 
distinguished from random acts. Thugs who both break windows and daub 
swastikas on walls make their anti-Jewish animus explicit. Public 
officials and senior political leaders have themselves made racist 
anti-Jewish statements, disparaging the Jewish religion and members of 
this faith as a people. Other public officials remain silent concerning 
attacks on Jews and symbols of the Jewish community, or attribute 
racist violence and threats to common crime or political protest.
    The resulting environment, particularly where anti-Jewish attacks 
occur with relative impunity, is a climate of fear and encouragement 
for further hatred and violence.
    Even where public security agencies act promptly to halt and punish 
anti-Jewish violence--and other violent racist attacks on minorities--
they may address this violence as just one aspect of a larger pattern 
of racist violence and xenophobia. Shamefully, anti-Jewish attacks are 
too often left largely to the Jewish community itself to document and 
protest.
The Regional Monitoring Bodies
    Most European governments publish little official information on 
anti-Jewish and other racist violence, while monitoring and reporting 
norms vary significantly from country to country. Across the region, 
there is a paucity of official information concerning individual 
attacks on the Jewish minority and there is little meaningful 
statistical data. With some exceptions, detailed statistical 
information is either not compiled or is compiled without 
differentiating between attacks on distinct minorities.
    In some cases, monitoring and reporting blurs racist violence and 
offensive speech into a single category. This practice is not limited 
to European institutions: the Department of State's annual Country 
Reports on Human Rights Practices often does the same in reporting on 
anti-Semitic and other racist ``incidents.'' Considerably more is 
published by official bodies in the E.U. on racist and intolerant 
speech, in turn, than on the detail of anti-Semitic attacks on persons 
and property.
    Concern for improved data collection has frequently been expressed 
as a necessary step toward the identification of discrimination in 
public policy, in particular as concerns criminal justice and the 
equitable provision of public services. Such data is also required to 
identify government failings to fulfill obligations to protect minority 
groups against discriminatory action, and in particular violence, by 
private citizens. The posture of the state toward racist violence 
against a particular group can be put in the spot-light by 
disaggregated data on the full spectrum of violent crime--showing in 
some situations that police condone or encourage private violence 
against minorities. Impunity for attacks on certain minorities, in 
turn, can be a factor in the generation of further such violence. Data 
accurately reflecting the reality of racist violence, by public 
officials or others, provide crucial benchmarks by which to 
independently assess the need for remedial action.
    Several European intergovernmental institutions were created 
expressly to monitor and combat racism, and are available to assist 
governments in the region in the implementation of legislative, 
criminal justice, educational, and other antiracism measures.
    The Council of Europe's European Commission on Racial Intolerance, 
ECRI, provides a range of ambitious programs intended to make European 
anti-discrimination norms a reality, including express measures to 
monitor and combat anti-Semitic speech and violence. ECRI has one 
member appointed by each member state, serving in an individual 
capacity. Its stated aim is ``to combat racism, xenophobia, anti-
Semitism and intolerance at a pan-European level and from the angle of 
the protection of human rights,'' and it is an effective voice to this 
end.\17\ But it cannot alone compensate for the failings of its member 
governments.
---------------------------------------------------------------------------
    \17\ For background on ECRI's origins, see, ECRI, http://
www.coe.int (accessed July 23, 2002).
---------------------------------------------------------------------------
    In its annual report covering the calendar year 2001, ECRI 
identified racial discrimination--including anti-Semitism--as a blight 
on Europe. Of particular concern was ``the problem of racist violence 
which has erupted on several occasions in a number of countries''--a 
considerable understatement. ECRI stressed ``[a] rise in the spread of 
anti-Semitic ideas,'' while deploring a trend in which ``[a]cts of 
violence and intimidation against the members and institutions of the 
Jewish communities and the dissemination of anti-Semitic material are 
increasing in a number of countries.'' \18\ ECRI has not, however, 
issued a general recommendation on anti-Semitism.
---------------------------------------------------------------------------
    \18\ ECRI, http://www.coe.int (accessed July 23, 2002). Special 
attention was also given to a rise ``in occurrences of xenophobia, 
discrimination and racist acts against immigrants or people of 
immigrant origin, refugees and asylum-seekers.''
---------------------------------------------------------------------------
    ECRI's country by country reporting is based on a procedure in 
which draft reports are submitted on a confidential basis to member 
governments for discussion and reviewed in the light of this 
dialogue.\19\ The statistical reflection of racist incidents in the 
country reports is limited by the systems for data collection and 
dissemination of each of the member governments--even when generally 
critical conclusions may be drawn. In its March 2000 report on Belgium, 
for example, ECRI highlighted the absence of official reporting on 
incidents and complaints of discrimination, while giving little 
alternative information on the extent of anti-Semitism--and other forms 
of racism--resulting in acts of violence in the country: \20\
---------------------------------------------------------------------------
    \19\ ECRI, http://www.coe.int (accessed July 15, 2002).
    \20\ ECRI, Second report on Belgium, Adopted on 18 June 1999, made 
public on 21 March 2000, http://www.coe.int (accessed July 26, 2002).

          The scarce use made of antiracist laws and civil remedies in 
        cases of racial discrimination [is] reflected in the current 
        lack of detailed information on complaints of racist and 
        xenophobic acts, the number of complaints of racial 
        discrimination filed with the courts, the results of the 
        proceedings instituted in these cases and the compensation 
        granted, where appropriate, to the victims of discrimination. 
        ECRI expresses its concern at this situation, since accurate 
        and comprehensive statistics constitute indispensable tools to 
        plan policies and strategies in the fields of combating racism 
        and intolerance and to monitor their effectiveness. It 
        therefore encourages the authorities to develop an adequate 
---------------------------------------------------------------------------
        system of statistical data to cover the above mentioned areas.

    Notwithstanding the noncompliance by Belgian authorities with 
ECRI's recommendations, unofficial sources reported some 2,000 anti-
Semitic incidents in Belgium in the nine months since the September 11 
attacks on the United States (the reports did not distinguish violent 
crimes from other incidents).\21\ As a corollary, there was no 
reference whatsoever to anti-Semitism in the Department of State's 
report on Belgium.
---------------------------------------------------------------------------
    \21\ Ambrose Evans-Pritchard, ``Jews Suffer Surge of Hate On 
Streets of Belgium,'' Daily Telegraph (London), May 30, 2002.
---------------------------------------------------------------------------
    In addition to the failure of governments to report on anti-Semitic 
and other racist violence, ECRI has identified the absence of common 
criteria with which to monitor and report attacks against members of 
particular minorities as an obstacle to its antiracism work in many 
parts of the region.
    In 1997 the European Union created a new institution, the European 
Monitoring Centre on Racism and Xenophobia (EUMC), to combat racism, 
xenophobia and anti-Semitism in Europe. EUMC, like the Council of 
Europe's ECRI, has pressed for better data collection, transparency, 
and analysis of incidents of racist violence by European governments. 
EUMC has also published comparative surveys of anti-discrimination 
legislation in member states, prepared by independent experts.\22\ In 
its 1999 annual report, echoing ECRI, it called for special action in 
the area of information collection, analysis, and dissemination:
---------------------------------------------------------------------------
    \22\ EUMC, Anti-discrimination Legislation in EU Member States: A 
comparison of national anti-discrimination legislation on the grounds 
of racial or ethnic origin, religion or belief with the Council 
Directives. The information for the EUMC study was compiled by a group 
of independent experts which is part of the project Implementing 
European Anti-Discrimination Law, a joint initiative of the European 
Roma Rights Center, Interights, and the Migration Policy Group. The 
Belgium report, last updated June 19, 2002, is available at http://
www.eumc.eu.int (accessed August 8, 2002).

          The various reports in Europe on racism in 1999, whether the 
        subject of the national media, the official authorities or 
        NGOs, reveals that no country of the European Union is immune 
        from it. To gain an accurate and comprehensive picture, 
        however, requires a certain degree of uniformity and/or common 
        definition among the Member States on the subject of racial/
        ethnic minorities and the methods of data collection. At 
        present this does not exist. The EUMC is still therefore 
        lacking a complete set of tools to monitor racism effectively.
          Another important area hampering reporting is that criteria 
        used to draw up statistics differ in the EU Member States.\23\
---------------------------------------------------------------------------
    \23\ EUMC, http://eumc.eu.int (accessed July 29, 2002).

    In its 1999 recommendations, EUMC also stressed the importance of 
``collecting and publishing accurate data on the number and nature of 
racist and xenophobic incidents or offences, the number of cases 
prosecuted or the reasons for not prosecuting, and the outcome of 
prosecutions.'' In gathering data at the European level, EUMC 
encouraged governments to draw upon both their own resources and those 
of nongovernmental organizations, research bodies, and international 
organizations. ``Statistical, documentary or technical information,'' 
in turn, was to be collated in a form facilitating effective courses of 
action.
    In its most recent annual report, published on December 18, 2001, 
EUMC expressed concern at the continuing crisis of racism in Europe and 
found that little progress had been made toward systems of consistent 
and comprehensive monitoring and reporting. Systems of recording 
racially motivated crimes in police statistics still varied widely 
between member countries, and under-reporting of violence appeared to 
be the norm.
    In commenting on trends in 2000, EUMC's 2002 report observed that 
``extensive increases in racial violence,'' including anti-Semitic 
attacks, were reported in France, Germany, Spain, Sweden and the UK. In 
contrast, ``racist crimes'' were simply not identified separately in 
crime statistics from Belgium, Greece, Ireland and Portugal. Statistics 
reported, in turn, were ``challenged by human rights organizations'' in 
some countries, notably in Italy, Spain, and Germany, where police 
records ``are minimal in comparison with statistics collected by 
NGOs'':

          Italian NGOs recorded 259 racist murders between 1995 and 
        2000, whereas the Italian police authorities recorded not a 
        single case. For statistics on racist attacks, the Italian NGO 
        records show more than ten times as many crimes as the official 
        figures. In Germany the NGOs recorded five times as many racist 
        murders as the police. Racist propaganda or ``incitement to 
        hatred towards ethnic minorities'' is well documented by the 
        police authorities in some of the Member States.

    As a step to meet the information challenge, EUMC acted to create 
its own network of monitoring and reporting in member states, with the 
acronym RAXEN--Reseau europeen d'information sur le racisme et la 
xenophobie (European information network on racism and xenophobia), 
which began its work in 2000. RAXEN was tasked with defining common 
criteria for data collection, to be proposed to member governments. But 
its efforts to this end, and to improve collection, are still at an 
early stage.
    Both ECRI and EUMC, the preeminent European agencies combating 
racism, have addressed the rise of anti-Semitism intensively since the 
year 2000, and addressed some of the difficulties of monitoring and 
combating these and other racist trends in the region. The sister 
agencies have made extraordinary efforts toward public education to 
counter racism and to promote effective measures to criminalize and 
punish racist acts through the justice system. Harmonization of data 
collection and dissemination concerning racist acts has been central to 
the recommendations of both organizations.
    The reports published by ECRI and EUMC on racism in member states 
illustrate the disparities of national reporting on racism in general 
and on anti-Semitic expression and violent crime in particular 
countries. Reporting by the United States government on human rights 
practices and on religious intolerance around the world, in turn, 
echoes these failings, often repeating almost verbatim European reports 
limited largely to generalities, and tending to emphasize often 
illusory improvement.
    Reporting on anti-Semitism and other forms of racism prepared by 
nongovernmental organizations often provides detailed information on 
specific acts of violence and instances of racist expression which 
serve as a check on government failings. This information, however, is 
often difficult to interpret on a comparative basis, as the criteria 
applied to reporting on incidents of different kinds are not always 
clear or consistent.\24\
---------------------------------------------------------------------------
    \24\ There are exceptions to the rule: see, for example, the U.S-
based Anti-Defamation League's detailed explanation of the methodology 
employed in its reporting and analysis of anti-Semitic incidents in the 
United States. See, ADL, ``A Note on Evaluating Anti-Semitic 
Incidents,'' in 2001 Audit of Anti-Semitic Incidents, http://
www.adl.org (accessed July 25, 2002).
---------------------------------------------------------------------------
    The annual reports of EUMC since 1999 have included capsule 
descriptions of racism and xenophobia in member countries, while 
stressing the inadequacy of the government reporting on which the 
system depends. In the 1999 report, detailed references to anti-Jewish 
violence were uneven, closely reflecting the strengths and weaknesses 
of member governments' reporting regimes.\25\ A section on the United 
Kingdom, for example, made no reference to anti-Semitism. In coverage 
of Germany, in contrast, EUMC reported the desecration of forty-seven 
Jewish cemeteries in 1999--while stressing that this was an 
improvement, a decline from the toll a year before. No other reference 
to expressly anti-Semitic acts in Germany appeared--as victimized 
groups were not distinguished clearly in the statistics provided on 
racist violence.\26\
---------------------------------------------------------------------------
    \25\ EUMC, Annual Report, 1999, http://eumc.eu.int (accessed July 
25, 2002).
    \26\ ``Of the 746 acts of violence reported `with racist/xenophobic 
motives,' 60 percent concerned `people of foreign descent,' while of 
10,037 criminal offenses considered hate crimes, more than 66 percent 
`fell . . . under the category of propaganda offenses.' '' Ibid.
---------------------------------------------------------------------------
    In its 2002 report, on the year 2000, EUMC provided further detail 
on anti-Semitic acts in Germany, noting that the system of data 
collection there ``is broader and more detailed than in many other EU 
Member States.'' Police reports on violent crimes ``with right-wing 
extremist motives'' totaled 939, ``out of which 874 were assaults, 48 
arson or bomb attacks, 2 were cases of murder and 15 attempted 
murders.'' Twenty-nine violent anti-Semitic crimes were recorded, 
including an arson attack on a synagogue in Efurt, and the desecration 
of fifty-six graves in Jewish cemeteries.
    ECRI addressed anti-Semitism in the United Kingdom only briefly in 
its second country report, providing no detail apart from an expression 
of concern at ``the occurrence of anti-Semitic incidents and the 
circulation of anti-Semitic literature.'' \27\ The Department of 
State's 2002 country report on the United Kingdom, in turn, cited no 
official sources on anti-Semitism there. It said only that, the Board 
of Deputies of British Jews, a nongovernmental organization, had 
reported 310 ``anti-Semitic incidents in 2001, in contrast to 405 in 
2000,'' while stressing that public expressions of anti-Semitism ``are 
confined largely to the political or religious fringes.'' No further 
detail was provided. (The country report was equally vague about 
attacks on Muslims in the wake of September 11, referring to ``isolated 
attacks . . . throughout the country.'') \28\
---------------------------------------------------------------------------
    \27\ ECRI, Second report on the United Kingdom, Adopted on 16 June 
2000 made public on 21 March 2001.
    \28\ Department of State, Country Report on Human Rights Practices, 
2001, http://www.state.gov (accessed July 25, 2002).
---------------------------------------------------------------------------
    France has been the object of particular criticism for its response 
to anti-Semitism. Some observers have protested that the government 
responded slowly to the rise of attacks in late 2000, initially 
advising the Jewish community ``to remain quiet and inconspicuous.'' 
\29\ As noted, anti-Semitic attacks increased dramatically there, 
particularly in Paris and its suburbs, with a high level of violence 
sustained throughout 2001 and into 2002.
---------------------------------------------------------------------------
    \29\ Stephen Roth Institute, Tel Aviv University, Update, Annual 
Press Release of Stephen Roth Institute, April 8, 2002, available at 
http://www.tau.ac.il (accessed July 15, 2002).
---------------------------------------------------------------------------
    Although France was last the object of an ECRI country report in 
June 2000, ECRI's findings on monitoring and reporting there reflect 
continuing obstacles to effective antiracism action to counter anti-
Jewish attacks.\30\ The ECRI report, produced in consultation with the 
French Government, at that time placed anti-Semitism firmly within a 
larger milieu of racist intolerance propagated by far right political 
groups, while stressing that reports of anti-Semitic violence and 
harassment had decreased. Citing the findings of the official human 
rights commission, however, it found that almost half of the total 
number of acts of intimidation recorded were of an anti-Semitic 
character.
---------------------------------------------------------------------------
    \30\ ECRI, Second Report on France, Adopted on 10 December 1999, 
made public on 27 June 2000; all country reports are available on 
ECRI's website.
---------------------------------------------------------------------------
    The ECRI report did not refer expressly to acts of violence in its 
breakdown of acts of intimidation. But ECRI highlighted the 
difficulties posed for monitors in France, where government agencies by 
law do not distinguish between ethnic or racial groups in their 
records:

          As noted in ECRI's first report, due to the French Republican 
        egalitarian approach, there is officially no categorization of 
        ethnic or racial groups in statistics. The main categories used 
        are therefore ``foreigners'' and ``citizens,'' while ethnic 
        monitoring is contrary to the Constitution and expressly 
        prohibited by the Criminal Code. ECRI emphasizes that, given 
        the consequent difficulties to the collection of accurate data 
        on the incidence of racial discrimination as well as on social 
        indicators concerning parts of the French population, a 
        reconsideration of this approach would be beneficial.

    EUMC's 1999 reporting on France, in turn, cited only broad 
statistics from the report of the official National Consultative 
Commission on Human Rights (Commission Nationale Consultative des 
Droits de l'Homme, CNCDH), on a rise of ``racist and anti-Semitic 
violence,'' from 27 incidents in 1998 to 36 in 1999. It said four 
people were ``injured as a result of anti-Semitism.'' In its annual 
report for 2000, the EUMC continued to highlight the inadequacies of 
government reporting.\31\ The CNCDH's annual report for 2001 provided 
statistics as well as detail on some individual cases of anti-Semitic 
violence. The commission noted that its statistical findings are based 
on Ministry of Interior information, which distinguishes ``anti-
Semitism from other forms of racism,'' and that particular attention 
has been given to anti-Semitism in particular since the dramatic rise 
in incidents in late 2000.\32\ The statistics, however, are clearly 
based only on a small set of the most extreme cases of violence during 
the year.
---------------------------------------------------------------------------
    \31\ EUMC, Annual Report 2000, http://eumc.eu.int (accessed July 
25, 2002).
    \32\ Commission Nationale Consultative des Droits de l'Homme, 
Rapport de la Commission Nationale Consultative des Droits de L'Homme, 
March 21, 2002, http://www.commission-droits-homme.fr (accessed July 
25, 2002).
---------------------------------------------------------------------------
    In the most recent annual report of the CNDCH, released in March 
2002 and covering 2001, the commission stressed the gravity of anti-
Semitic violence in France, while apparently reflecting the weakness of 
the Ministry of Interior's data collection. The report documents just 
twenty-nine such incidents--all high profile cases, and most involving 
dramatics attacks on Jewish schools and synagogues. These included 
fifteen assaults on synagogues and other places of prayer--most 
involving firebombs--and arson attacks on four Jewish schools. Three 
incidents of stone throwing at worshippers leaving synagogues were also 
registered in the chronology included in the report. Just two incidents 
cited involved physical assaults on individuals. In contrast, 
nongovernmental organizations reported hundreds of incidents.
    Recent actions of the French Government, particularly the new 
interior minister, Nicolas Sarkozy, give some cause for hope. Minister 
Sarkozy, who met in mid-July with Rabbi Abraham Cooper and Dr. Shimon 
Samuels of the Simon Wiesenthal Center, vowed that he would do 
everything necessary to stop criminal attacks against the Jewish 
community in France, adding that these anti-Semitic attacks have all 
been hate crimes. Sarkozy has also vowed to change the culture of the 
police and has instructed them to deal with these attacks as hate 
crimes. As part of these measures, his office has reportedly promised 
to release monthly statistics on all criminal acts in France.\33\
---------------------------------------------------------------------------
    \33\ See, Center Officials to Meet With New French Interior 
Minister to Discuss Anti-Semitism in France, Press Release, July 8, 
2002, available at http://www.wiesenthal.com (last visited July 16, 
2002).
---------------------------------------------------------------------------
International Standards and Implementation
    The building blocks of international human rights law were shaped 
in the wreckage of World War II and the searing reality of Europe's 
death camps and racist ideologies. ``[D]isregard and contempt for human 
rights have resulted in barbarous acts which have outraged the 
conscience of mankind,'' declaims the preamble of the Universal 
Declaration of Human Rights (1948), in introducing its common 
understanding of the rights and freedoms to be enjoyed by all people. 
The Universal Declaration has as its bedrock principle the equality of 
all human beings--and the entitlement of all to fundamental rights and 
freedoms without discrimination of any kind.
    From these foundations the international community crafted tools 
through which to put into practice the principles of equality and non-
discrimination, notably the treaties by which governments accept 
binding obligations. The International Covenant on Civil and Political 
Rights, ICCPR (1966) transformed the anti-discrimination principles of 
the Universal Declaration into treaty law. Article 2 of the ICCPR 
requires each state party:

          To respect and to ensure to all individuals within its 
        territory and subject to its jurisdiction the rights recognized 
        in the present Covenant, without distinction of any kind, such 
        as race, colour, sex, language, religion, political or other 
        opinion, national or social origin, property, birth or other 
        status.

    The treaty, to which 148 states are now party, requires governments 
to report on the measures adopted to give effect to the rights 
recognized, and established the Human Rights Committee to review these 
reports.\34\ The committee, known as a treaty body, issues comments and 
recommendations on government reports and also issues general comments 
interpreting the provisions of the covenant. The first Optional 
Protocol to the ICCPR (with 102 states party) recognizes the competence 
of the committee to receive and consider individual complaints of 
violations of rights protected by the covenant by states party to the 
protocol.
---------------------------------------------------------------------------
    \34\ Office of the United Nations High Commissioner for Human 
Rights, Status of Ratifications of the Principal International Human 
Rights Treaties as of 10 July 2002, available at http://www.unhchr.ch 
(accessed August 8, 2002).
---------------------------------------------------------------------------
    A companion treaty to the ICCPR addresses racial discrimination 
alone. The International Convention on the Elimination of All Forms of 
Racial Discrimination, CERD (1966), defines racial discrimination 
broadly--in consonance with modern questioning of the very concept of 
race. Racial discrimination:

          shall mean any distinction, exclusion, restriction or 
        preference based on race, colour, descent, or national origin 
        which has the purpose or effect of nullifying or impairing the 
        recognition, enjoyment or exercise, on an equally footing, of 
        human rights and fundamental freedom in the political, 
        economic, social, cultural or any other field of public life.

    The convention, to which 162 states are party, obliges governments 
``to nullify any law or practice which has the effect of creating or 
perpetuating racial discrimination.'' To this end, it obliges 
governments to condemn and eliminate racial discrimination by both 
public officials and private individuals, and to oppose discriminatory 
practices even in the absence of discriminatory intent.
    The interpretation and implementation of the convention lie with 
the Committee on the Elimination of Racial Discrimination, which 
receives periodic reports from governments on their implementation of 
the treaty. General recommendations issued by the committee concerning 
articles of the convention have provided essential interpretive 
guidance for measures to combat discrimination. Government action as 
well as inaction can violate obligations under the convention--there is 
no excuse for complacency or indifference by a government toward either 
public or private discrimination, particularly when this involves 
violence.
    The provisions of international treaty law barring racial 
discrimination are further buttressed in Europe by regional human 
rights instruments, notably the European Convention on Human Rights 
(1953), and strong European institutions for the protection and 
promotion of human rights. European commitment to combating 
discrimination was further reinforced by the adoption of Protocol No. 
12 to the European Convention on Human Rights, which was opened for 
signature on November 4, 2000. There is no lack of a legal foundation 
for strong governmental measures to halt and deter anti-Jewish violence 
and violence against Europe's other minorities. European governments 
and intergovernmental bodies have acknowledged, however, that further 
national and regional initiatives are required to impel stronger 
protections in practice.
    European nations made a strong commitment to the improvement of 
national and international efforts to document and respond to patterns 
of racist violence and expression in the regional conference held in 
Strasbourg in October 2000 in preparation for the World Conference 
Against Racism, Xenophobia, and Related Intolerance. The commitments 
made in the European Conference against Racism highlighted the link 
between effective measures to combat anti-Semitism--and other forms of 
racism--and comprehensive monitoring and reporting of racist incidents.
    The European Conference, for example, recommended the collection 
and publication of data on the number and nature of racist, xenophobic, 
or related incidents or offenses or suspected ``bias crimes'' as a 
building block of measures to combat racism. It further called for data 
to be collected and published on the number of cases prosecuted, and 
the outcome--or the reasons for not prosecuting. The Strasbourg forum 
also stressed the need for data to be broken down to include 
information on the race, ethnicity, or descent (and gender) of the 
persons reported harmed. The information required, in turn, was to be 
collected in accordance with human rights principles, and protected 
against abuse through data protection and privacy guarantees.\35\
---------------------------------------------------------------------------
    \35\ Council of Europe, General Conclusions of the European 
Conference Against Racism, Strasbourg, October 16, 2000, ``Conclusions 
and Recommendations of the European Conference Against Racism,'' para. 
12, available at http://www.coe.int (accessed July 25, 2002).
---------------------------------------------------------------------------
    The European Conference also highlighted the scourge of anti-
Semitism as meriting particular attention, stating in its conclusions:

          The European Conference, convinced that combating anti-
        Semitism is integral and intrinsic to opposing all forms off 
        racism, stresses the necessity of effective measures to address 
        the issue of anti-Semitism in Europe today in order to counter 
        all manifestations of this phenomenon.\36\
---------------------------------------------------------------------------
    \36\ Ibid., para. 29.

    The Council of Europe's Commissioner for Human Rights, Alvaro Gil-
Robles, also declared solemnly in the General Report of the European 
Conference that ``racism, xenophobia, anti-Semitism, and intolerance 
pose a mortal danger to human rights,'' and singled out the advocates 
of discrimination as a particular concern. The statement observed that 
the ``very dangerous game'' of ``seeking out and pinpointing 
scapegoats,'' and fueling the ``hatred of difference'' finds particular 
expression in anti-Semitism:\37\
---------------------------------------------------------------------------
    \37\ Council of Europe, General Report, October 16, 2000, http://
www.coe.int (accessed July 25, 2002).

          [T]here are those who use anti-Semitic prejudice, whether 
        implicitly or openly, to further their political interests. We 
        are all aware of the destructive effects of anti-Semitism on 
        democracy. We cannot divorce the fight against anti-Semitism 
        from the fight against all forms of racism, for it is one and 
---------------------------------------------------------------------------
        the same struggle.

    Many of the Strasbourg meeting's recommendations were ratified and 
elaborated upon in the program of action agreed upon at the World 
Conference in Durban--a slate of useful recommendations that emerged 
despite the acrimony of the final stage of the conference process. 
Recommendations for action at the national level to combat racist 
violence, for example, included: ``Enhancing data collection regarding 
violence motivated by racism, racial discrimination, xenophobia and 
related intolerance.'' \38\ The means to this end were elaborated at 
length in a section on ``data collection and disaggregation, research 
and study,'' in which the conference urged governments:
---------------------------------------------------------------------------
    \38\ Section 74 (b) (v); section (b) (iii) encourages the creation 
of working groups of community and law enforcement representatives ``to 
improve coordination, community involvement, training, education and 
data collection, with the aim of preventing such violent criminal 
activity.'' The final report of the World Conference is available on 
the website of the High Commissioner for Human Rights, http://
www.unhchr.ch (accessed July 10, 2002).

          To collect, compile, analyse, disseminate and publish 
        reliable statistical data at the national and local levels and 
        undertake all other related measures which are necessary to 
        assess regularly the situation of individuals and groups of 
        individuals who are victims of racism, racial discrimination, 
        xenophobia and related intolerance; . . .\39\
---------------------------------------------------------------------------
    \39\ Ibid., section 92.

    The full text of this section of the World Conference program of 
action is included as an appendix to this report.
    The Durban action document also reminded governments of their 
reporting requirements at the international level--as parties to the 
Convention on the Elimination of All Forms of Racial Discrimination. 
This included both periodic reporting to the committee, and reporting 
on progress made to respond to the recommendations of the committee. To 
this end, governments were encouraged ``to consider setting up 
appropriate national monitoring and evaluation mechanisms to ensure 
that all appropriate steps are taken to follow up on [the commission's] 
observations and recommendations.'' \40\
---------------------------------------------------------------------------
    \40\ Section 76, Ibid.
---------------------------------------------------------------------------
    The impact of the practical recommendations made in Strasbourg and 
in the final documents of the World Conference itself has been severely 
undermined by the backwash of post-Durban recriminations. To a large 
extent they remain unread outside small circles of relevant technical 
staff in United Nations and regional antiracism programs. Yet their 
relevance in the fight against anti-Semitism and other forms of racism 
may ultimately be shown at the national level, as important 
contributions to public policy development.
Addressing the Information Deflect
    The Lawyers Committee for Human Rights has identified several 
important steps to improve the recognition and reporting of anti-Jewish 
violence, and recommends that governments:

  <bullet> acknowledge at the highest level the extraordinary dangers 
        posed by anti-Semitic violence in the European context;

  <bullet> establish clear criteria for registering and reporting 
        crimes motivated by racial animus, sometimes described as bias 
        crimes or hate crimes;

  <bullet> make public reports of racially motivated crimes through 
        regular and accessible reports;

  <bullet> distinguish clearly in reporting between acts of violence, 
        threatening behavior, and offensive speech;

  <bullet> make transparent government norms and procedures for 
        registering and acting upon racially motivated crimes and 
        offenses;

  <bullet> cooperate fully with Europe's regional inter-governmental 
        organizations charged with combating racism, xenophobia, and 
        anti-Semitism, and with the human rights mechanisms of the 
        United Nations;

  <bullet> cooperate fully with nongovernmental organizations concerned 
        with monitoring and taking action against racist violence and 
        intimidation.

    The Lawyers Committee believes there is an important role for the 
United States to play in encouraging its European allies of the Council 
of Europe, the European Union, and the member countries of the 
Organization for Security and Cooperation in Europe to improve their 
monitoring and public reporting of anti-Semitic acts and other forms of 
racist violence.
    In pursuing this goal, the United States should also improve its 
own reporting and action on racist violence world-wide. To this end, 
the standards of the Department of State's Annual Country Reports on 
Human Rights Practices, and in particular the Annual Report on 
Religious Freedom should be raised in order to report more accurately 
and comprehensively on anti-Semitism in Europe and on government 
actions and omissions in addressing this scourge. These reports should 
not simply accept that a lack of official government information on 
anti-Semitic violence is the whole story; nor should they reflect 
clearly misleading reporting from official sources without balancing 
this with reports from nongovernmental organizations.Particular care 
should be taken not to emphasize only vague improvement when the basis 
for such an analysis can not be quantified.
    To this end, Congress should insist that staffing and resources be 
reinforced in the Department of State's Bureau of Democracy, Human 
Rights, and Labor, and that the Bureau's guidelines for preparing these 
reports require an accurate reflection of the nature and patterns of 
racist violence and of government actions to combat them.

                                APPENDIX

  From: Report of the World Conference against Racism, Racial 
        Discrimination, Xenophobia and Related Intolerance, Program of 
        Action \41\
---------------------------------------------------------------------------
    \41\ Report of the World Conference against Racism, Racial 
Discrimination, Xenophobia and Related Intolerance, Program of Action, 
chapter III, Measures of Prevention, Education and Protection Aimed at 
the Eradication of Racism, Racial Discrimination, National, Regional 
and International Levels, http://www.unhchr.ch (accessed July 10, 
2002).

         Data Collection and Disaggregation, Research and Study

        92. Urges States to collect, compile, analyse, disseminate and 
        publish reliable statistical data at the national and local 
        levels and undertake all other related measures which are 
        necessary to assess regularly the situation of individuals and 
        groups of individuals who are victims of racism, racial 
        discrimination, xenophobia and related intolerance;

                (a) Such statistical data should be disaggregated in 
                accordance with national legislation. Any such 
                information shall, as appropriate, be collected with 
                the explicit consent of the victims, based on their 
                self-identification and in accordance with provisions 
                on human rights and fundamental freedoms, such as data 
                protection regulations and privacy guarantees. This 
                information must not be misused;

                (b) The statistical data and information should be 
                collected with the objective of monitoring the 
                situation of marginalized groups, and the development 
                and evaluation of legislation, policies, practices and 
                other measures aimed at preventing and combating 
                racism, racial discrimination, xenophobia and related 
                intolerance, as well as for the purpose of determining 
                whether any measures have an unintentional disparate 
                impact on victims. To that end, it recommends the 
                development of voluntary, consensual and participatory 
                strategies in the process of collecting, designing and 
                using information;

                (c) The information should take into account economic 
                and social indicators, including, where appropriate, 
                health and health status, infant and maternal 
                mortality, life expectancy, literacy, education, 
                employment, housing, land ownership, mental and 
                physical health care, water, sanitation, energy and 
                communications services, poverty and average disposable 
                income, in order to elaborate social and economic 
                development policies with a view to closing the 
                existing gaps in social and economic conditions;

        93. Invites States, intergovernmental organizations, non-
        governmental organizations, academic institutions and the 
        private sector to improve concepts and methods of data 
        collection and analysis; to promote research, exchange 
        experiences and successful practices and develop promotional 
        activities in this area; and to develop indicators of progress 
        and participation of individuals and groups of individuals in 
        society subject to racism, racial discrimination, xenophobia 
        and related intolerance;

        94. Recognizes that policies and programmes aimed at combating 
        racism, racial discrimination, xenophobia and related 
        intolerance should be based on quantitative and qualitative 
        research, incorporating a gender perspective. Such policies and 
        programmes should take into account priorities identified by 
        individuals and groups of individuals who are victims of, or 
        subject to, racism, racial discrimination, xenophobia and 
        related intolerance;

        95. Urges States to establish regular monitoring of acts of 
        racism, racial discrimination, xenophobia and related 
        intolerance in the public and private sectors, including those 
        committed by law enforcement officials;

        96. Invites States to promote and conduct studies and adopt an 
        integral, objective and long-term approach to all phases and 
        aspects of migration which will deal effectively with both its 
        causes and manifestations. These studies and approaches should 
        pay special attention to the root causes of migratory flows, 
        such as lack of full enjoyment of human rights and fundamental 
        freedoms, and the effects of economic globalization on 
        migration trends;

        97. Recommends that further studies be conducted on how racism, 
        racial discrimination, xenophobia and related intolerance may 
        be reflected in laws, policies, institutions and practices and 
        how this may have contributed to the victimization and 
        exclusion of migrants, especially women and children;

        98. Recommends that States include where applicable in their 
        periodic reports to United Nations human rights treaty bodies, 
        in an appropriate form, statistical information relating to 
        individuals, members of groups and communities within their 
        jurisdiction, including statistical data on participation in 
        political life and on their economic, social and cultural 
        situation. All such information shall be collected in 
        accordance with provisions on human rights and fundamental 
        freedoms, such as data protection regulations and privacy 
        guarantees.

                               __________
                    PROCEEDINGS OF NCSJ SIDE EVENT:

              Post-Soviet States Respond to Anti-Semitism

                    October 14, 2003, Warsaw Poland

 HELD IN CONJUNCTION WITH 2003 HUMAN DIMENSION IMPLEMENTATION MEETING, 
       ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE (OSCE)

  Moderated by Shai Franklin, NCSJ Director of Governmental Relations

Shai Franklin
    I would like to welcome everyone to this side-event organized by 
NCSJ, formerly known as the National Conference on Soviet Jewry. Due to 
a fortunate series of events about 15 years ago, we were compelled to 
change our name. The ``National'' refers to the United States: we are 
an American organization. We represent an umbrella of 50 American 
Jewish organizations and 300 communities across the United States. Some 
of those organizations are with us here today, and we have not only the 
United States Government as a partner, but fortunately many, many 
governments as partners and they are represented here as well.
    Our intention today for the next hour, hour-and-a-half, is to allow 
a more focused conversation on issues relating to anti-Semitism in the 
former Soviet Union and post-Communist Europe, and what the lessons are 
from those experiences of combating anti-Semitism that we can apply to 
the OSCE framework in the next formal session of the [HDIM] meeting 
next door.
    We know that anti-Semitism continues to exist in most of Europe, 
including in the former Soviet Union, but we have seen that there are 
steps being taken in many of these countries--in most of these 
countries--to address anti-Semitism. I hope that some of the lessons 
shared here today can be applied to other countries, whether it is to 
the United States or to Western Europe. Some have observed, even, a 
flow of anti-Semitism from the West to the East during the past several 
years, so that might be something to address as well.
    Let me just convey, in advance, the apologies of our American 
delegation who are arriving from another meeting and will be joining us 
shortly. But since we are fortunate enough already to have such a good 
representation here of interested parties and governments, I would like 
to begin and turn the microphone over to those who wish to relate their 
insights as to the nature of anti-Semitism, the importance and success 
of combating it on the governmental and societal levels, and 
recommendations for where the OSCE can play a useful role.
    I would ask only that you identify yourself and your organization 
or delegation, and try to keep your initial presentation brief so we 
can hear from as many people as possible in this short time. We are 
recording this session so that there will be some record, although this 
will not become an official record of the OSCE, of course. So, I invite 
whoever would like to make some observations first: I know we have a 
delegate from the Russian Federation, several delegates from Ukraine, 
Azerbaijan, Armenia, the Czech Republic, and the Slovak Republic--and 
you don't have to be from the former Soviet Union in order to 
participate in these discussions. You can speak in English or in 
Russian, as you see we have very qualified translation.

Dr. Vera Gracheva  Senior Counsellor, Permanent Mission of the Russian 
        Federation to the OSCE
    Thank you very much. My name is Vera Gracheva and I am not alone 
here in representing the delegation of the Russian Federation--as you 
can see, there are many of us. First of all, I would like to respond to 
the commentary made by our chairperson that the organization was 
required to change its name due to the fortunate events in the 
beginning of the 1990s. Probably this comment is not very much relevant 
to the subject matter of this meeting, however, I feel that it would be 
a simplification to call this event as ``fortunate.'' All of the events 
which led to the collapse of the USSR were accompanied by a great 
multitude of other negative phenomena. All those conflicts that took 
place in the territory of the former Soviet Union would have been 
unthinkable in the days of the USSR. The collapse of the USSR has been 
accompanied by very severe social and economic earthquakes, and a very 
significant reduction in the standards of living of all the people 
inhabiting the territories of the former Soviet Union. Thus, 
unfortunately, the social and economic problems and the objective 
difficulties that we face have led to the exploitation of these 
difficulties by the political circles who use them to promote their 
political purposes and to suggest the population seek an external 
enemy, which is the most primitive, the simplest form of justifying the 
events.
    I am not in the position to talk on behalf of other countries of 
the former Soviet Union, but I may say that as far as Russia is 
concerned, the issue of anti-Semitism is a very deeply, historically 
rooted issue that was already present in the days of tsarist Russia. 
But in Russia it is not a matter of ethnic or religious issues, it is 
rather an issue exploited for political purposes. By saying this, I 
also would like to underline that it has nothing in common with the 
official policy of the government or the state. By ``political'' I mean 
that the anti-Semitic issues are exploited by the nationalistic parties 
and movements who use anti-Semitism to promote their ideas. Therefore, 
anti-Semitism in Russia should be regarded in the context of 
intolerance, of xenophobia, so these are all other accompanying 
phenomena that usually go hand in hand with social and economic 
problems.
    We believe that the upbringing of the youth is of utmost 
importance--that is, to bring the youth up in such a manner that they 
grow resistant to such phenomena as anti-Semitism, xenophobia, and 
other extreme reactions. Therefore, I do believe that the OSCE as an 
organization can have a major contribution in the upbringing, including 
the ODIHR. Thank you very much, and I'm afraid I've taken up quite a 
lot of time from the other participants.

Rustem Ablyatifov  Head of International Relations Division, State 
        Committee of Ukraine for Nationalities and Migration
    Good afternoon, my name is Rustem Ablyatifov. I am the 
representative of the Ukrainian Government. I would like to underline 
that Ukrainian legislation bans any discrimination on the grounds of 
race, color of skin, confession and other features, and obviously this 
also relates to the ban of discrimination against the Jewish 
population.
    The Ukrainian Jewish community is a community of great influence, 
and it is also a very constructive community that has contributed much 
to the development of the independent, democratic Ukrainian state. I am 
proud to mention in this group that, through all these years of the 
independent Ukraine, we have not noted any anti-Semitic incident or 
disrespect toward the Jewish population on the part of the Ukrainian 
Government. Whatever anti-Semitic incidents we have had, those were 
incidents on the lower level of the general population. The last sad 
incident that took place in Kyiv was a group of young football fans who 
threw stones at the principal synagogue in Kyiv, and this incident was 
promptly dealt with by law enforcement.
    The positive actions taken by the Ukrainian Government have been 
acknowledged by the representatives of the Ukrainian Jewish community, 
and they have noted that, yes indeed due to the government's 
activities, there is no place, there is no room whatsoever for anti-
Semitism in Ukrainian society.
    We believe that the root of all anti-Semitism is ignorance, and the 
primary tool to deal with anti-Semitism is education. We have to start 
proper education at the grammar-school level. Together with the 
association of social and cultural groups, we have conducted a series 
of lessons on tolerance in Ukrainian schools and we intend to organize 
such lessons on tolerance in the future as well. Thank you very much 
for your attention.

Shai Franklin
    Thank you very much. I want to recognize the head of the U.S. 
delegation, Ambassador Pamela Hyde Smith, who has joined us, and I 
neglected to mention that we have at least one delegate from Lithuania 
as well. We just heard from the Russian delegate about the importance 
of education and from the Ukrainian delegate about the success of law 
enforcement. I would like to turn briefly to another aspect of 
combating anti-Semitism, which is the legislative framework. We are 
honored to have with us two members of the U.S.-Helsinki Commission. 
They just arrived from the Parliamentary Assembly of the OSCE in Rome, 
and I would ask Congressman Ben Cardin of Maryland and Congressman 
Joseph Pitts of Pennsylvania to share some of their reflections on 
where various countries in the OSCE are succeeding and where the OSCE 
can play a more useful role.

Representative Benjamin Cardin  U.S. House of Representatives(D-
        Maryland)
    Thank you. First, let me thank NCSJ for their convening of this 
forum, this opportunity for us to talk with each other, and for their 
longstanding leadership in combating anti-Semitism. We came to Warsaw 
with four members of the United States Congress because we thought it 
was very important for us to be here to underscore the work of the OSCE 
in fighting anti-Semitism. We thank Ambassador Smith, the leader of our 
delegation, for her incredible service on human rights issues. She 
gives us great credibility in our chair in the commitment of our 
country to the human rights dimension.
    It was through the leadership of the chairman of our 
[Congressional] delegation, [Congressman] Chris Smith, who is here, 
that we were able to move forward within the OSCE Parliamentary 
Assembly resolutions to single out anti-Semitism for special meetings. 
We pursued that agenda because of the rise of anti-Semitism in each of 
our OSCE states, and we thought it was very important to have a 
conference solely focused on what we can do to fight the rise of anti-
Semitism. We believe that we are on the verge of accomplishing that 
through the [2004] Berlin Conference, which we hope will be sanctioned 
at the [December 2003 OSCE] ministerial meeting, and I want to thank 
many people in this room who made that possible, including the 
leadership at NCSJ.
    As a parliamentarian, I believe I have a responsibility to show 
leadership and speak out when people in my country do things that can 
provoke anti-Semitism. We have seen, in recent weeks, high-level public 
officials making comments that are irresponsible at best, anti-Semitic 
at worst. In too many of those cases, their fellow government officials 
are silent. One of the matters that I hope will come out of our 
conference is a commitment by leadership to speak out to--make sure 
that, if there are problems within our own community, we speak out 
against it. And for your record, we will submit the letters that our 
commission has sent--signed by Chairman Smith and myself, and by 
Congressman Pitts--to officials in other countries who we believe must 
be held accountable for their lack of leadership. And, now, with Mr. 
Pitts' agreement, I think I've talked long enough, so you can hear 
directly from the Chairman of our delegation, Chris Smith, who as I 
said was one of the leading--the leading--person in moving forward the 
anti-Semitism agenda for special attention.

Representative Chris Smith  U.S. House of Representatives (R-New 
        Jersey); Chairman, U.S. Helsinki Commission
    First of all, I apologize for being late: our press conference went 
over. It is a distinct honor and a privilege to join you at this side 
meeting to discuss the ongoing problem of anti-Semitism. It's good to 
see you all again. We are old and good friends. And also you should 
know that Mark Levin (who is the Executive Director of NCSJ) and I made 
our first trip--it was my first trip--to what was then the Soviet 
Union, to Moscow and Leningrad, in January of 1982. So I truly believe 
I have been mentored by the NCSJ on the issue of persecution, anti-
Semitism, and--in the case of the Soviet Union--how to effectively 
advocate for the release of individual refuseniks and political 
prisoners.
    I am a Republican, Ben is a Democrat. We are united in our concerns 
for Jews around the world, but right now in particular, this rising 
tide of anti-Semitism that we see occurring. The Parliamentary Assembly 
of the OSCE has already held three summits, and your organization 
played an important role in those summits on anti-Semitism: one each in 
Washington, Vienna, and Berlin. Many of us believe that the [2004] 
Berlin summit by the OSCE itself--not only the Parliamentary Assembly, 
but the [broader] organization--can be a watershed event.
    The months leading up to the event ought to be fully utilized to 
chronicle individual and collective instances of anti-Semitism in each 
of the [OSCE member] countries. Then the conference itself can become a 
catalyst for accountability, but also for forward action after the 
conference. And the effort has to be comprehensive, from education--
textbooks, how our school systems are dealing with intolerance, and 
especially Holocaust remembrance--to what political figures are doing 
when they express anti-Semitic views: are they chastised for it? Do 
their colleagues--does their government--speak out against it? And, of 
course, a complete review of hate-crimes legislation, to ensure there 
is a criminalization of this hate, this incitement of violence.
    I do believe that this conference can also have a laudable--perhaps 
indirect, but laudable--impact on the Middle East itself. It has been 
my view that, far too often, European powers enable the PNA 
[Palestinian National Authority] and others, including Yasser Arafat, 
to engage in acts of terrorism by not holding them to account. And, 
again, just to conclude, many of us have brought up talking about 
education, the ongoing problems with UNRWA--the UN Relief and Works 
Agency--to which the U.S. has contributed $2.5 billion. Yet, a review 
of the textbooks and much--but not all--of the leadership shows at 
least a tolerance, if not an embrace, of suicide bombings. Thank you 
for your vigilance, and let's use this window of opportunity to hold 
these countries to account, including the United States, so there will 
be no anti-Semitism.

Shai Franklin
    Thank you very much for your leadership, Congressman Smith, and for 
the leadership of all the Helsinki Commissioners over the past 20-25 
years. A lot of the delegations that are here today are here because of 
work that the U.S.-Helsinki Commission did with many organizations and 
many Western countries. I'm very pleased to call on Congressman Pitts 
to share his comments.

Representative Joseph Pitts  U.S. House of Representatives (R-
        Pennsylvania)
    Thank you. One thing about going last is that it's all been said. 
Let me first thank NCSJ for convening this important side event with 
Members of Congress and delegations from former Soviet republics, along 
with NGOs. Thank you very much for allowing us to be here. One of the 
questions at the press conference that the American delegation just had 
was from a reporter who asked if we did not feel that the OSCE had 
become an outdated institution. In response, our chairman said indeed 
it was not. The agenda and the items we are discussing are very 
relevant, and this is one of the few forums where NGOs can meet with 
government officials, as in sessions like this one.
    As we discussed the upcoming meeting in Berlin on anti-Semitism, 
one of the reporters asked if this was just going to be a place for 
making speeches--a debating society--or if there would be a plan of 
action. Our chairman responded, one of the things we hope develops as 
we plan the conference is, indeed, for a creative plan of action with 
various follow-up activities after the conference. These would include 
many practical steps that could be taken, but chief among them would be 
education--our education of the young. Children do not naturally hate 
other people. They're taught to hate. The education of our young and 
the type of curriculum that they have in their schools is extremely 
important--whether it's a madrasa in Pakistan or whether it's schools 
in all of our countries.
    Back in the 1980s, I used to visit the Soviet Union and its 
republics and meet with Jewish refuseniks and other people who were 
being persecuted, and advocated on their behalf with the officials of 
the government. As my colleague Congressman Cardin said, I think those 
of us in government who are considered government leaders have an 
obligation to speak out against injustice. Silence is consent.
    And as we travel in many of these countries [today], the human 
rights picture is quite varied, but one thing that is needed is 
engagement by all of us, with one another, so that misunderstanding, 
misrepresentation, can be nipped in the bud and we can, through 
engagement, encourage our colleagues--whether they be parliamentarians, 
government officials, NGOs, or citizens--to do what you're doing, and 
that is to speak out strongly against the scourge of anti-Semitism.

Representative Ben Cardin
    Let me just introduce my wife, Myrna, who has joined us. I do that 
because in 1987 she traveled to Vienna on behalf of Soviet Jews to meet 
with Soviet officials. And, yes, we've made a lot of progress since 
1987, but we still have a long way to go. Thank you.

Shai Franklin
    We actually have a team with us today, because the Cardins both 
have been active in legislative leadership and community leadership on 
issues that we work with for a number of years. In fact, one Cardin 
used to chair NCSJ--but that's from the other side of the family. I 
want to call on the Belarus representative of the Union of Councils for 
Soviet Jews who wanted to speak, and then the delegate from Azerbaijan 
also wants to speak. Please let me know if you want to speak as well, 
and we'll try to get everybody a chance.

Artur Livshyts  Belarus representative, Union of Councils of Soviet 
        Jews
    Thank you very much. And first of all, I want to thank NCSJ for 
making this meeting happen, and I think it's very important. I 
represent an organization called Union of Councils for Soviet Jews. 
This organization was founded in the 1970s as a coalition of local 
grassroots action councils, supporting freedom for Jews of the Soviet 
Union. And as the Soviet Jewry movement grew, gathered steam in the 
1970s, more individuals, more councils became involved and the Union of 
Councils for Soviet Jews grew into the large organization that has 
eight member councils in North America, and eight bureaus on the 
territory of the former Soviet Union.
    In the Republic of Belarus, the Union of Councils for Soviet Jews 
does the monitoring of xenophobia and anti-Semitism. Also, we try to 
work with Jewish organizations and government by preventing acts of 
vandalism, acts of anti-Semitism.
    Once, Albert Einstein said that anti-Semitism is a shadow of the 
Jewish people, and it is really true. And it's true that anti-Semitism, 
as a specific form of xenophobia, has been, is and will be everywhere 
that Jews are, and even where there are no Jews. So, the problem is not 
where anti-Semitism is, the problem is how strong and aggressive it is. 
And I think the problem is in the quantity of anti-Semitism.
    Speaking of Belarus, Belarus is a multi-national, multi-
confessional country and throughout the ages, and in the present time, 
relations between confessions--talking about countries of the former 
Soviet Union--are probably the most tolerant. So I agree with the 
Russian delegate talking about anti-Semitism in Belarus. It is not a 
common process in society. It's a result of activity of groups, of 
individuals.
    Now I can say that the Belarusian Government--is ready to fight 
anti-Semitism [generally], but is not ready to fight individual acts of 
anti-Semitism. State anti-Semitism stopped to be one of the elements of 
social force, but we still have some acts by state officials.
    And we're talking about education here, and I think that the OSCE 
should concentrate on the education of state officials in the 
countries. And I'm talking about the cultural level, education of 
individual state officials, and that's the work that should be done, 
because I have many examples of the lack of this education: We see the 
destruction of former synagogues--not only in Belarus, [throughout] the 
former Soviet Union--and the reconstruction of stadiums that are built 
on the former Jewish cemeteries, and without consulting the Jewish 
community.

Shai Franklin
    Thank you. We're now going to hear from the delegate from 
Azerbaijan. I see that we have been joined by diplomats from Israel, 
and Latvia, and the Netherlands and there may be others that I'm not 
aware of, so I apologize if I've overlooked any other delegations.

Seymur Mardaliyev  Attache, Department of Human Rights, Democratization 
        and Humanitarian Problems, Ministry of Foreign Affairs, 
        Azerbaijan
    Good afternoon. My name is Seymur Mardaliyev, and I am the 
representative of the Azerbaijani delegation and the Ministry of Ethnic 
Relations. In my brief speech, I would like to talk about the 
experience of Azerbaijan, where historically for centuries Jews and 
Jewish communities have lived and cooperated with society without any 
manifestations of anti-Semitism.
    For centuries, Azerbaijan has been one of a few countries in the 
world with several dozen ethnic minority groups and confessional groups 
that spread all over around the world. The high level of tolerance 
among the Azeri people has brought about the development of ethnic 
minorities in Azerbaijan, including Jewish communities, who have been 
able to maintain and develop their culture and religious traditions for 
centuries.
    And I would like to give you the specific example of an activity 
conducted by our government. Namely, we have created a separate 
institute--this is the forum of three confessions. These are the 
principal confessions of Judaism, Islam and Christianity, and this 
forum has been created following the initiative of the leaders of the 
Muslim communities in the Caucasus. Therefore, no one should be 
surprised by the fact that the representatives of the Jewish people 
have lived in the territory of Azerbaijan for the past 2,600 years.
    Today, five different Jewish communities live in Azerbaijan, and 
they maintain wonderful relations with other Jewish communities in the 
United States, Israel, and Europe.
    Apart from that, in Azerbaijan function 20 miscellaneous non-
governmental organizations, cultural organizations and Jewish charity 
organizations--and apart from them, such international organizations as 
Sochnut [Jewish Agency for Israel], Vaad HaHatzolah and ``Joint'' [the 
American Jewish Joint Distribution Committee] also function in our 
country.
    In the previous presentations, we have heard the participants 
talking about the destructions of synagogues in their countries. As far 
as Azerbaijan, we have not faced destruction, but on the contrary, the 
construction, the erection of new synagogues. So by March 2003, there 
were five synagogues functioning in Azerbaijan and since March, another 
synagogue has been erected, which is the largest synagogue in the 
Caucasus region.I would like to emphasize that the construction of the 
new synagogue was possible not only due to the financial contribution 
of Jewish communities living in Azerbaijan, but also due to the 
financial contribution by the leaders of Muslim communities and by the 
Bishopric of the Orthodox Christian Church in Baku.
    I obviously could give many more examples of tolerance in 
Azerbaijan, but currently I would like to focus on the perspective of 
Azerbaijan in this respect. My government highly assesses and cherishes 
the results of the Vienna conference on anti-Semitism, which took place 
in June 2003. This conference, that was--effective and timely, was an 
opportunity to exchange many opinions and views in the area of anti-
Semitism. It was also an opportunity to talk about the events' efforts 
by governmental bodies, non-governmental institutions, civil society 
groups and OSCE member states, as well as recommendations [that] have 
been developed in the field dealing with anti-Semitism.
    And we believe that only effective, practical implementations of 
the resolutions developed during such conferences would be able to 
facilitate the lives of those people who unfortunately are still being 
persecuted today.
    And finally, I would like to put forward a specific suggestion on 
Azerbaijan's part, that following the Vienna conference, we would be 
very much blessed--glad--to become hosts of yet another meeting/
conference, of whatever scale, in Baku, Azerbaijan. Thank you very much 
for your attention.

Shai Franklin
    Thank you, and I look forward to returning to Baku for a future 
conference, as you suggested. The delegate from Belarus has asked to 
speak to us. Please.

A Delegate from Belarus
    Thank you very much. Please, I would like to introduce myself. I am 
a representative of the Committee on Religious and Ethnic Groups, and I 
am a member of the Belarusian delegation.
    First of all, I would like to talk about the role of the 
organization that has the current name of [NCSJ] Advocates on behalf of 
Jews in Russia, Ukraine, the Baltic States & Eurasia. And, there is no 
mention of Belarus in the name of the organization; perhaps this is an 
indication of the current status. In June this year, the leaders of 
your organization visited our countries, and met with leaders of our 
institutions, including the head of my institution. Unfortunately, 
[NCSJ Executive Director] Mr. Mark Levin, who took part in that 
meeting, is not present here today.
    At this point, I would not delve into the details describing the 
life of the Jewish community, but additional material shall be 
distributed tomorrow, which will be another opportunity to learn about 
the life of the Jewish community.
    In brief, I would like to say that for more than seven centuries, 
Belarus has been the center of European Jewry, if I may use this term. 
And one of the examples of the inter-ethnic relations is the fact that 
there were no pogroms against the Jewish population, also in the days 
of the Russian empire. The only exception could be the so-called 
``nationalization'' of certain towns.
    As far as the incidents of xenophobia and anti-Semitism are 
concerned, we strongly believe that any such incident should be looked 
into, prosecuted, and punished. As far as the incidents are concerned--
the incidents that take place in Belarus--there are the incidents of 
libels and offensive attacks against cemeteries and buildings, and we 
have several dozen such incidents annually. However, if we compare it 
to the situation in other countries, such incidents in other countries 
may be measured in the thousands. Nevertheless, I do emphasize that 
each act of xenophobic behavior should be seriously dealt with, 
prosecuted, and punished. But still, I would like to draw your 
attention to the fact, to the much lower rate of such incidents in our 
country.
    We welcome the contribution that has been made by the organization 
represented in this room by Mr. Livshyts. Our Azerbaijani colleague has 
mentioned the number of synagogues in Azerbaijan; I would like to 
mention that we have 47 Jewish organizations that are all incorporated 
in the Union of Jewish Associations and Communities. Moreover, we have 
three different Jewish religious communities that live in Belarus. 
Also, I just would like to state that Mr. Livshyts has spoken on behalf 
of his organization.
    And finally, I would like to state one fact and make one statement. 
First, how can we talk about anti-Semitism in a country where only a 
minor percent of the population suffers from the incidents based on a 
hostile attitude toward the people of Jewish origin. And the second 
statement is just as my colleague has mentioned, that the principal 
problem with anti-Semitism is how to deal with it regarding varying 
manifestations of its intensity, and how to deal with anti-Semitism 
even where there are no Jews.
    I would like to disagree with the above-mentioned statement, but I 
think that the real factor, the real factor that shows the current 
state of affairs is that Belarus enjoys the most comfortable situation 
among the countries of the former Soviet Union with regard to anti-
Semitic behavior. And finally, I would like to say that we will be most 
grateful for cooperation with all those who struggle against anti-
Semitism in any of its forms.

Shai Franklin
    Thank you very much, and thanks to all of you for joining us. We're 
going to break now in order to allow people to reassemble for the 
formal OSCE session on anti-Semitism. Though the first session this 
morning did not end on time, that does not mean that the afternoon 
session will not begin on time. And, I would like to thank our 
diplomatic delegates and our non-governmental participants. I find 
myself agreeing more with my colleague from the Union of Councils than 
with the representative of the Belarus Government, but the important 
thing should be not what the situation on the ground is, but what 
governments are doing to respond to it. And that's why it is so 
important that everybody--whether it's Belarus or Azerbaijan--everybody 
is here in this room and next door to address these issues.
    Thank you very much.

                               __________

                                 <all>

      

</pre></body></html>
